<html>
<title> - OVERSIGHT HEARING ON WHEN SCIENCE GETS TRUMPED: SCIENTIFIC INTEGRITY AT THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 WHEN SCIENCE GETS TRUMPED: SCIENTIFIC INTEGRITY AT THE DEPARTMENT OF 
                             THE INTERIOR

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 25, 2019

                               __________

                           Serial No. 116-20

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-241 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                                 
                              ----------

                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 25, 2019..........................     1

Statement of Members:

    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:

    Bakst, Daren, Senior Research Fellow, Roe Institute for 
      Economic Policy Studies, The Heritage Foundation, 
      Washington, DC.............................................    30
        Prepared statement of....................................    32
    Caffrey, Maria, Ph.D., Former Partner, National Park Service, 
      Denver, Colorado...........................................    38
        Prepared statement of....................................    39
        Questions submitted for the record.......................    47
    Clement, Joel, Senior Fellow, Arctic Initiative, Belfer 
      Center for Science and International Affairs, Harvard 
      University, Cambridge, Massachusetts.......................    22
        Prepared statement of....................................    24
        Questions submitted for the record.......................    28
    Rosenberg, Andrew, Ph.D., Director, Center for Science and 
      Democracy, Union of Concerned Scientists, Cambridge, 
      Massachusetts..............................................     6
        Prepared statement of....................................     8
        Questions submitted for the record.......................    16

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................    86

    Submissions for the Record by Representative Bishop

        DOI Scientific Integrity Complaints and FOIA Requests by 
          Year, PowerPoint Slides................................    52

        Department of the Interior OIG Summary of Alleged 
          Scientific Integrity Violations Related to NPS Report, 
          dated July 10, 2018....................................    80

    Submission for the Record by Representative Gosar

        Critique of the DOI Scientific Integrity Policy, by Dr. 
          Paul R. Houser dated August 8, 2012....................    60

    Submissions for the Record by Representative Grijalva

        Clement, Joel, October 4, 2017 Letter of resignation to 
          Secretary Ryan Zinke...................................    81

        Department of the Interior, Statement for the Record.....    82

        Washington Post OpEd, ``I'm a scientist. I'm blowing the 
          whistle on the Trump administration,'' by Joel Clement 
          dated July 19, 2017....................................    84



 
OVERSIGHT HEARING ON WHEN SCIENCE GETS TRUMPED: SCIENTIFIC INTEGRITY AT 
                     THE DEPARTMENT OF THE INTERIOR

                              ----------                              


                        Thursday, July 25, 2019

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 2:14 p.m., in 
room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Committee] presiding.
    Present: Representatives Grijalva, Costa, Huffman, 
Lowenthal, Neguse, Haaland, Cunningham, DeGette, Clay, Soto, 
Case, Cartwright, Tonko; Bishop, McClintock, Gosar, Hice, 
Gonzalez-Colon, Curtis, and Fulcher.

    The Chairman. The Committee on Natural Resources will come 
to order. Thank you. The Committee is meeting today to hear 
testimony on scientific integrity at the Department of the 
Interior. Under Committee Rule 4(f), any oral opening 
statements at the hearing are limited to the Chairman and the 
Ranking Minority Member. Therefore, I ask unanimous consent 
that all other Members' opening statements be made part of the 
hearing record if they are submitted to the Clerk by 5 p.m. 
today. Hearing no objection, so ordered.
    I will now recognize myself for my opening statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. First of all, I want to extend a special 
thank you to our witnesses for taking the time to be here. Two 
of our witnesses in particular will be sharing experiences that 
have been difficult for them, and I want to extend our 
appreciation for you doing so and sharing those stories with 
us.
    Today's hearing will examine scientific integrity or, 
rather, the lack of scientific integrity under the current 
administration at the Department of the Interior. It is no 
secret that this administration is not a big fan of science, 
especially when it comes to science that has overwhelmingly 
determined that climate change is caused by humans and is 
threatening nearly every aspect of our lives, and certainly the 
work of this Committee.
    We have seen story after story about climate change being 
deleted from government websites, senior advisors suggesting we 
consider alternative facts, and science and climate change 
deniers being appointed to leadership positions. But there are 
few places in the Trump administration where the attack on 
science has been more intense than in the Department of the 
Interior.
    Today, we are going to hear from two people who were 
employed with the National Park Service and the Department of 
the Interior. Their stories are deeply disturbing but not 
unique. Narrowing those stories down to two was difficult.
    We could have talked about Steve Spangle, the now-retired 
Fish and Wildlife Service employee in my home state of Arizona. 
Mr. Spangle says he was pressured by a ``high-level politico'' 
to change his decision about the impacts of a housing 
development on endangered and threatened species. The 
development in question is massive, with over 28,000 homes, 
golf courses, and other amenities. In the already parched 
Arizona desert, there is no question that this development 
would devastate the nearby San Pedro River, the last major 
free-flowing river in the entire Southwest.
    But, as it turns out, that development just happens to be 
owned by one of the President's good buddies and donors, Mike 
Ingram.
    We could have also talked about the Fish and Wildlife 
Service's Biological Opinion on three major pesticides that was 
ready to be released to the public, but is now just gathering 
dust, shelved until the next election. We know that one of 
those pesticides alone could put 1,400 threatened and 
endangered species in jeopardy. This is the same pesticide that 
is so harmful to babies' brain development that some states 
have already passed bans on the use of it at all.
    Of course, there are also stories we probably have not 
heard yet. These are stories that career scientists at Interior 
are afraid to share, and with good reason. They have seen their 
colleagues, like our witnesses today, get threatened, harassed, 
reassigned, and retaliated against. Interior's leadership has 
created a culture of fear and intimidation for scientists, not 
integrity.
    And let me be clear. It is not just the scientists who are 
the victims in all this. It is our public lands, our wildlife, 
and indeed us.
    When Federal agencies ignore science and the facts, major 
decisions no longer represent what is best for the health or 
safety of the American people and our environment. They 
represent the interests of the highest bidder.
    I was hoping that Interior would be able to clear up some 
of the questions about their treatment of science. We extended 
an invitation ahead of the unofficial deadline, but they 
refused to come. And that decision is hard to defend.
    I would also add the situation that occurred 2 years ago 
when we visited Appalachia to look at the aftermath of the 
mountain. After that trip, community groups and health 
advocates in the area, in the Appalachia area, lobbied very 
hard to get a study.
    The previous administration awarded a health study to take 
3 years. When President Trump was elected, it was canceled 
shortly thereafter with not even a year's worth of study data 
being collected about the overall effects of mountaintop 
removal, the drainage, the waste accumulated, and the effects 
on the public health of individuals in that area.
    I mention that as well because I think after the break we 
have requested information on that particular issue and on 
other issues over and over again, and one of the reasons for 
this oversight hearing as well as actions to follow is that we 
are at the point that the lack of response to that question and 
others is requiring us to fully explore and prepare for 
whatever legal actions we need to take to compel that 
information to be brought forth.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    I want to extend a special thank you to our witnesses for taking 
the time to be here. Two of our witnesses in particular will be sharing 
experiences that have been difficult for them, so I also want to 
recognize their remarkable courage in speaking out and sharing their 
stories with us.
    Today's hearing will examine scientific integrity--or rather, the 
lack of scientific integrity--under the current administration at the 
Department of the Interior. It's no secret that the Trump 
administration is not a fan science. Especially when it comes to the 
science that has overwhelmingly determined that climate change is 
caused by humans and is threatening nearly every aspect of our lives, 
and certainly of the work of this Committee.
    We have seen story after story about climate change being deleted 
from government websites, senior advisors suggesting we consider 
``alternative facts,'' and science and climate change deniers being 
appointed to leadership positions. But there are few places in the 
Trump administration where this attack on science has been more intense 
than the Department of the Interior.
    Today, we are going to hear from two people who were employed with 
the National Park Service and the Department of the Interior. Their 
stories are deeply disturbing, but unfortunately not unique. In fact, 
one of the hardest parts of putting together this hearing was narrowing 
down the list of troubling incidents to just two.
    We could have also talked about Steve Spangle, the now-retired Fish 
and Wildlife Service employee in my home state of Arizona. Mr. Spangle 
says he was pressured by a ``high level politico'' to change his 
decision about the impacts of a housing development on endangered and 
threatened species.
    The development in question is massive, with nearly 28,000 homes, 
plus golf courses and other amenities. In the already parched Arizona 
desert, there is no question that this development would devastate the 
nearby San Pedro River, the last major free-flowing river in the entire 
Southwest.
    But, as it turns out, that development just happens to be owned by 
one of Trump's good buddies and donors, Mike Ingram.
    We could have also talked about the Fish and Wildlife Service's 
biological opinion on three major pesticides that was ready to be 
released to the public but is now just gathering dust because Secretary 
Bernhardt has shelved it until after the next election.
    We know that one of those pesticides alone could put 1,400 
threatened and endangered species in jeopardy. This is the same 
pesticide that is so harmful to babies' brain development that some 
states have already passed bans on any use of it at all. But, as it 
turns out, pesticide and chemical manufacturers like Dow Chemical 
didn't like what the science had to say.
    And that just begins to scratch the surface of the many attacks on 
science we've heard about at Interior.
    Of course, there are also all the stories we probably haven't heard 
yet. There are the stories that career scientists at Interior are too 
afraid to share. And with good reason. They have seen their colleagues, 
like our witnesses, get threatened, harassed, reassigned, and 
retaliated against. Interior's leadership has created a culture of fear 
and intimidation for scientists, not integrity.
    And let me be clear--it's not just the scientists who are the 
victims in all of this. It is our wildlife, our public lands--and us.
    When Federal agencies ignore science and the facts, major decisions 
no longer represent what is best for the health or safety of the 
American people and our environment. They represent the interests of 
the highest bidder.
    I was hoping that the Interior Department would be able to help 
clear up some of the questions about their treatment of science. We 
extended them an invitation ahead of their unofficial deadline. But 
they refused to come. I can see why. It's hard to defend.

                                 ______
                                 

    The Chairman. With that, I now recognize Ranking Member 
Bishop for his opening statement.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. Let me start by giving 
you some kudos--you might as well have them when they exist--
for having a very clever title in today's hearing. I want you 
to know it is a cute title. Give us some slack because it is 
obviously harder to try to work catchphrases in when you are 
working with the name Obama. But we will try to do that.
    This show could also be titled, ``Democrats Accuse Trump of 
Whitewashing Climate Science,'' or ``Democrats Accuse Bernhardt 
of Giving Handouts to Their Buddies.'' We could do a lot of 
interesting stuff on handouts like if you remember the 
production tax credit in Solyndra and all that kind of fun 
stuff that was going on there.
    It is interesting that we talk so much about bipartisan 
work and venerate in releases from this Committee, like the 
Gosar-Levin bill that is working in a bipartisan way for a 
problem that both you and I have co-sponsored, and then at the 
same time then come around with a very partisan hearing, not 
only in the title but also in the substance that takes place.
    It is interesting where this hearing can lead because, 
simply, if there was legislation on this topic to be developed, 
it would be assigned to the Science Committee, as several of 
our witnesses are doing an encore performance because they have 
already testified before the Science Committee that does have 
the jurisdiction on all this.
    So, we can talk about Interior and it will be cute, but it 
doesn't really reach where we need to go. If you turn on the 
TVs for a second, I would appreciate it. If we are talking 
about scientific integrity complaints, those are the number of 
scientific integrity formal complaints that have been given 
since Fiscal Year 2011.
    As you realize, they were much higher in the years during 
the Obama administration, when Ms. Jewell and Mr. Salazar were 
running the agency, than they are right now. In fact, if 
anything, you could ask, why are they decreasing so 
significantly today, or where were Democrats in 2008, 2009, 
2010, 2011, 2012, 2013, and 2015 especially, when we were 
having so many complaints. Because it cannot be forgotten that 
it was under the Obama administration where there were two 
cases of continuous data manipulation that were exposed at USGS 
Energy Resource Program Laboratory, where a scientific review 
panel found scientists to have intentionally manipulated the 
data.
    And it was under the Obama administration where a 
Scientific Integrity Officer, Dr. Paul Houser, was ultimately 
fired for bringing to light major discrepancies between data 
and conclusions reached by the administration. He stated that 
his challenging of the Obama administration's conclusions 
resulted in systematic reprisals and termination of his 
employment.
    It was under the Obama administration that USDA was accused 
of suppression and alteration of scientific work for political 
reasons. It was Dan Ashe who admitted in 2005 that he broke the 
law by not conducting a Section 7 consultation in respect to 
the administration's plan to eliminate warm water habitat for 
the endangered manatee.
    It was the same Dan Ashe who refused to provide the data 
used to list the White Bluffs bladderpod, to the point that 
then-Chairman Hastings had to issue a subpoena in an attempt to 
force data transparency from the self-proclaimed most 
transparent administration in history.
    It was the Fish and Wildlife Service that signed closed-
door ESA mega-settlements, which established arbitrary 
deadlines for hundreds of added listing decisions, including 
that bladderpod, and siphoning resources away from ongoing 
science-based protection and recovery.
    It was the Fish and Wildlife Service that asked, ``This is 
our proposal. Does anyone have any evidence out there to 
sustain it? And if it cannot be done, then we will do our best 
guess as our policy decision.''
    In fact, in the Trump administration, it is Secretarial 
Order 3369 that was signed in September of last year by then-
Deputy Secretary Bernhardt that directs the Department to make 
its decisions on the best available science and provide 
American people with enough information to thoughtfully and 
substantially evaluate the data, methodology, and analysis used 
by the Department to inform decisions.
    In essence, we are going to hear claims, some of them 
unfounded, some of them founded, but claims that I think can go 
through all administrations. And the bottom line is, if we 
really are serious about finding solutions to specific 
problems, then we should be able to work on those.
    But if not, if we are just going to come up with some 
partisan propaganda and throw it out here, then we will spin 
our wheels with partisan propaganda, realizing that any 
legislation coming from this topic would never be assigned to 
this Committee. It is in the jurisdiction of the Science 
Committee totally, where the hearing was properly held.
    In essence, we will have another fun hearing. It will not 
be as cool as the one yesterday, but may probably have the same 
impact that takes place. I yield back.

    The Chairman. Thank you very much. And before I introduce 
the panelists and the witnesses, just to remind my colleagues 
that in the 114th Congress, when the ONI Committee and the 
function was established, one of the first hearings that we had 
was entitled, ``Zero Accountability: The Consequences of 
Politically Driven Science.''
    I mention that because this was a Republican hearing, 
essentially, the agenda and the witnesses. So, this is not 
turnaround is fair play. This is essentially being consistent 
with having some accountability in terms of how science is 
functioning in the Department of the Interior. And we hope to 
continue that tradition.
    Mr. Bishop. Mr. Chairman, as part of your introduction, I 
will still remind you--I appreciate that comment--that we can 
talk about what the Department of the Interior ought to be 
doing internally. But my statement still stands. If there 
indeed is legislation, and there is, it will be assigned to the 
Science Committee solely. We will not get a referral on it.
    So, this is going to be fun and interesting and cute, but 
any legislation that comes from this Committee is not going to 
be assigned to us and will not be part of our jurisdiction. And 
that is the problem. And that is not my decision, what we 
should or should not be doing, that is simply the 
Parliamentarian's decision on where jurisdiction in this case 
lies.
    So, let's go on with it, and let the games begin.

    The Chairman. With that, let me now introduce our panel. 
And thank you very much again.
    Dr. Andrew Rosenberg is the Director of the Center for 
Science and Democracy at the Union of Concerned Scientists. Mr. 
Joel Clement is a Senior Fellow at Belfer Center for Science 
and International Affairs at Harvard University. Mr. Daren 
Bakst is Senior Research Fellow in Agricultural Policy at The 
Heritage Foundation. At this point, let me yield to the 
gentlewoman from Colorado, Ms. DeGette, who will introduce our 
last witness.
    Ms. DeGette. Thank you so much, Mr. Chairman. I am so 
honored to introduce my constituent, Maria Caffrey. You have 
come a long way to tell your story today. And I want to thank 
you for your really important work on climate change, sea level 
rise, and the national parks. I think the scientific expertise 
that you and your colleagues have provided our Federal agencies 
is really important because our policies should be based on 
science.
    I don't think what happened to Dr. Caffrey, Mr. Chairman, 
is cute. I just want to report that for the record. And it is 
something we all need to hear today, and I am really proud of 
you for coming. Thank you.
    The Chairman. Thank you. To the witnesses, the lights in 
front of you will turn yellow when you have a minute left to 
finish your oral presentation. Your written testimony in its 
entirety will be part of the record. When the light turns red, 
it means you stop. And then, after all the witnesses have given 
their testimony, the Members will have the opportunity to ask 
questions.
    With that, I now recognize Dr. Andrew Rosenberg for your 5 
minutes.

  STATEMENT OF ANDREW ROSENBERG, Ph.D., DIRECTOR, CENTER FOR 
     SCIENCE AND DEMOCRACY, UNION OF CONCERNED SCIENTISTS, 
                    CAMBRIDGE, MASSACHUSETTS

    Dr. Rosenberg. Chairman Grijalva and Ranking Member Bishop, 
thank you for the opportunity to testify today about scientific 
integrity reform and attacks on science in the Trump 
administration. I am Andrew Rosenberg, Director of the Center 
for Science and Democracy at the Union of Concerned Scientists. 
I have over 30 years of experience in research, providing 
scientific advice for governments, and in implementing science-
based policies.
    Science must play a central role in the Department of the 
Interior. Without scientific evidence and other evidence such 
as local knowledge of threats and concerns, policy decisions 
are guided solely by political influence rather than facts.
    Scientific integrity can be compromised by political 
censorship, manipulation, and/or intimidation of scientists. 
Some examples of attacks at the Department of the Interior, 
selected from our research, are as follows:

    The Fish and Wildlife Service bowed to political pressure 
and circumvented the need for a comprehensive assessment of 
impacts on endangered species of a proposed city-sized 
development in southeastern Arizona, as the Chairman mentioned.
    The Department suppressed 18 memos from staff scientists 
raising concerns about proposed oil and gas operations in the 
Arctic National Wildlife Refuge. And they defunded landscape 
conservation cooperatives, effectively censoring climate change 
adaptation information for state and local governments.
    The Department of the Interior published an analysis of 
grey wolves that was riddled with scientific errors, as 
identified by peer reviewers, and that analysis then ostensibly 
supported removing Endangered Species Act protections for this 
species.
    And DOI officials blocked the release of a comprehensive 
analysis on potential dangers of widely used pesticides for 
hundreds of endangered species, as the Chairman noted, 1,400.
    In addition, there are broader-scale attacks on science 
that impact Interior and other agencies. These include:
    Tossing aside analyses that use confidential information, 
such as health records, and endangered species location 
information. I believe that was referred to by the Ranking 
Member.
    Eliminating expert advisory panels across the Government, 
including at Interior.
    Changing the way benefits to the public are calculated and 
misusing the very concept of cost/benefit analyses.
    And arbitrarily restricting the length of and public access 
to environmental analyses, regardless of the amount of 
information needed to inform the public and the policy.
    I want to be clear. We don't highlight attacks on science 
to protect scientists. I am not concerned that my feelings will 
be hurt or that the controversy over political decisions is not 
appropriate and real. I worked with fishermen for many years, 
and they can be, I might say, direct. I can take the heat, and 
so can many of my colleagues. But censorship and manipulation 
of results is misuse of our work, and most importantly, results 
in bad policies.
    Since 2005, the Union of Concerned Scientists has conducted 
surveys of Federal Government scientists to measure the level 
of political, corporate, and other pressures on their work. 
And, in 2018, scientists reported high levels of censorship and 
self-censorship.
    At the Department of the Interior, a majority of 
respondents felt that consideration of political interests is a 
burden to science-based decision making. Staff time and funding 
resources are moved away from work considered politically 
contentious, according to those employees. And senior managers 
censor scientists and consistently remove references to climate 
change, a majority of those scientists said.
    Two quotes, I think, are instructive from National Park 
Service scientists: (1) ``We are no longer authorized to share 
scientific findings with the public if they center on climate 
change. Materials are marked `For Internal Use Only'.'' And (2) 
``Consistent removal of references to climate change have 
hindered our ability to have honest discussions about the 
potential threats of climate change to the National Park 
System.''
    The Scientific Integrity Act, introduced by Representative 
Tonko and co-sponsored by over 200 Members of Congress, is good 
government legislation. Scientific integrity refers to the 
processes in which independent science fully and transparently 
informs policy decisions free from inappropriate political 
influence. That is what is meant by scientific integrity, and 
in fact, we have other processes in place to deal with 
scientific misconduct and other matters that often are 
mistakenly labeled as scientific integrity.
    The Scientific Integrity Act is agnostic on the matter of 
policy. Rather, it aims to ensure that policies are fully 
informed by science. The legislation contains many of the best 
practices that have been identified for the development and 
maintenance of a thriving scientific enterprise, including 
prohibiting any employee from manipulating or misrepresenting 
findings, ensuring scientists can carry out their research.
    Thank you, Mr. Chairman. I conclude my remarks and look 
forward to answering any questions.

    [The prepared statement of Dr. Rosenberg follows:]
  Prepared Statement of Dr. Andrew A. Rosenberg, Director, Center for 
          Science and Democracy, Union of Concerned Scientists
    Chairman Grijalva, and Ranking Member Bishop, thank you for the 
opportunity to testify today on scientific integrity and attacks on 
science in the Trump administration and beyond, along with solutions to 
restore scientific integrity to Federal policymaking. My name is Andrew 
Rosenberg. I am the Director of the Center for Science and Democracy at 
the Union of Concerned Scientists. The Center works to advance the role 
of science in the public policy process and in the Nation's democratic 
dialogue. We have many years of experience examining and documenting 
political interference in science in the Federal Government and 
advancing policies that protect science and scientists.
    I am a marine scientist with over 30 years of experience in 
research, providing scientific advice for governments and in 
implementing science-based policies. Among my previous positions, 
before joining the Union of Concerned Scientists in 2012, I was a 
scientist for NOAA, a NOAA Regional Administrator for Fisheries and 
Deputy Director of NOAA Fisheries, the senior career position in the 
agency overseeing all regulatory matters. I also served as the Dean of 
Life Sciences and Agriculture and Professor of Natural Resources at the 
University of New Hampshire.
    Science must play a central role in the Department of the Interior, 
NOAA and in fact across the government. Science provides the 
``sideboards'' if you will, for public policy decisions. By that I mean 
that science doesn't mandate nor is it the only input to decisions, but 
it guides the process. Scientific evidence identifies issues and 
concerns that may merit policy action and elucidates some of the 
consequences of different possible action options. Without scientific 
evidence, and other evidence such as local knowledge of threats and 
concerns, decision making becomes wholly political. That is, policy 
decisions will become solely guided by political influence rather than 
evidence and facts. We know from many examples that this approach harms 
public health and the environment.
    Since 2004, the Union of Concerned Scientists has regularly 
monitored agencies for actions that compromise the use of science in 
policymaking. We have learned about such issues through the media, 
through congressional oversight, and from scientists themselves. We 
conducted surveys of Federal scientists about the level of political 
interference in their work during this and the two previous 
presidential administrations. We have pushed for and participated in 
congressional oversight related to scientific integrity, and regularly 
work with reporters to bring abuses of science to light. We developed 
model good government policies for Federal scientific agencies and 
analyzed and made recommendations about both the content and 
implementation of Federal agency scientific integrity policies since 
they were developed nearly a decade ago. We have worked with DOI and 
other agencies to improve peer review policies and other polices to 
strengthen the role of science in policymaking. And we constantly 
monitor and bring to light challenges with regard to science-based 
policymaking.
  strong scientific integrity standards are essential for government 
                             accountability
    The U.S. Government has long worked to ensure the integrity of the 
science that is maintained within executive branch agencies. 
Originally, this meant ensuring that a scientist's research was 
conducted ethically and in accordance with high scientific standards. 
Policies were put in place to protect human research subjects, ensure 
that confidential data is protected against disclosure, promote 
effective peer review, address scientific misconduct, and more.
    In recent years, the definition of scientific integrity has been 
focused on ensuring that science produced and considered by the Federal 
Government is not censored or politically influenced, that this science 
fully informs public policy decisions, and that the public is more 
fully aware of the knowledge and data that are produced by Federal 
scientists that pertains to policymaking.

    The importance of safeguarding scientific integrity within our 
Federal Government cannot be overstated.\1\ Science-informed decisions 
made by executive agencies have direct impacts on all of our lives. 
Whether those decisions are determining how safe or clean our waters 
are to drink, or our air to breathe, or whether certain species are 
deserving greater protections under law, four fundamental principles 
should be embraced:
---------------------------------------------------------------------------
    \1\ Preserving Scientific Integrity in Federal Policymaking, 
Goldman, et al., Jan 2017. https://www.ucsusa.org / sites / default / 
files / attach / 2017 / 01 / preserving-scientific-integrity-in-
federal-policymaking-ucs-2017.pdf

  1.  Decisions should be fully informed by (but not dictated by) 
---------------------------------------------------------------------------
            science;

  2.  Scientists working for and advising the government should be 
            unobstructed in providing scientific evidence to inform the 
            decision-making process;

  3.  The public should have reasonable access to scientific 
            information to be able to understand the evidentiary basis 
            of public policy decisions; and

  4.  The public and Congress should be able to evaluate whether the 
            above principles are being adhered to.

         scientific integrity at the department of the interior
    Political interference in science during the George W. Bush 
administration penetrated deeply into the culture and practices at the 
Department of the Interior. Endangered Species Act (ESA) decisions in 
particular were a flash point for politics and science even though the 
statute clearly mandates the primacy of science in many ESA decisions. 
Political appointees falsified, fabricated, hidden, suppressed, 
disregarded, and tampered with science and intimidated, coerced, 
censored and suppressed scientists all behind closed doors. The results 
of a survey of Fish and Wildlife Service scientists showed high numbers 
of scientists knew of cases of political interference, felt that agency 
decision making was not sufficiently protective of species and 
habitats, feared retaliation, and suffered from poor morale.

    For example, during the George W. Bush administration, a senior 
political appointee named Julie MacDonald personally rewrote endangered 
species determinations to preclude their protection under the 
Endangered Species Act. The Interior Inspector General eventually found 
that MacDonald had heavily edited the report and shared non-public 
information with special interests: \2\
---------------------------------------------------------------------------
    \2\ Office of the Inspector General, U.S. Department of the 
Interior, Dec 1, 2006. https://www.doioig.gov/sites/doioig.gov/files/
Macdonald.pdf

        Through interviewing various sources, including FWS employees 
        and senior officials, and reviewing pertinent documents and e-
        mails, we confirmed that MacDonald has been heavily involved 
        with editing, commenting on, and reshaping the Endangered 
        Species Program's scientific reports from the field. MacDonald 
        admitted that her degree is in civil engineering and that she 
        has no formal educational background in natural sciences, such 
---------------------------------------------------------------------------
        as biology.

        While we discovered no illegal activity on her part, we did 
        determine that MacDonald disclosed non-public information to 
        private sector sources, including the California Farm Bureau 
        Federation and the Pacific Legal Foundation. In fact, MacDonald 
        admitted that she has released non-public information to public 
        sources on several occasions during her tenure as Deputy 
        Assistant Secretary for FWS.

    As the Inspector General noted, it was not illegal for a senior 
political appointee to manipulate the work of Federal Government 
experts. No protections existed for Federal Government scientists to 
defend the integrity of their work. And while scientific integrity 
policies have since been developed within Interior that address this 
kind of malfeasance, they lack the authority of law and could be 
rescinded at any moment.

    Abuses of science at Interior, of course, were not simply done by 
one bad apple. UCS documented more than two dozen examples of political 
interreference in science during the George W. Bush administration. For 
example:

    <bullet> Bureau of Land Management (BLM) officials compromised the 
            integrity of a BLM study by removing scientific concerns 
            about the effects newly relaxed grazing regulations would 
            have on public lands.

    <bullet> The southwest regional director of the U.S. Fish and 
            Wildlife Service (FWS) pressured veteran wildlife refuge 
            manager Ken Merritt to approve plans routing a planned 
            border wall through the Lower Rio Grande Valley national 
            wildlife refuge. Merritt stated that regional director 
            Benjamin Tuggle asked him in 2007 to approve the initial 
            survey for the wall and that when Merritt refused, Tuggle 
            called that choice a ``career-ending decision.'' Merritt 
            retired from FWS shortly thereafter and the Department of 
            Homeland Security (DHS) eventually used its authority to 
            waive numerous environmental laws in order to go ahead with 
            the border wall project.

    <bullet> In several cases, the Minerals Management Service excluded 
            or directed its scientists to exclude analyses that found 
            harm to wildlife from oil exploration activities. In a June 
            2006 e-mail, former MMS biologist Jeff Childs warned his 
            chain-of-command that ``bringing vessels, rigs, platforms, 
            etc. to Alaska from Outside are likely to'' introduce 
            invasive species that ``may very well yield much greater 
            significant adverse impacts than a large oil spill.'' MMS 
            then removed Childs from working on the issue of invasive 
            species because he ``refused to implement DOI [Interior] 
            and MMS policy vis-a-vis invasive species,'' which was that 
            these findings were to be excluded from reports. A March 
            2010 report by the Government Accountability Office (GAO) 
            confirmed that Childs' analysis of invasive species impacts 
            was deleted by management from a 2006 environmental 
            assessment.

    <bullet> Political interference by J. Stephen Griles, then deputy 
            secretary of the Department of the Interior and a former 
            lobbyist for the National Mining Association, derailed an 
            Environmental Impact statement related to a rule to protect 
            Appalachian streams and communities from a coal-mining 
            technique known as mountaintop removal mining. Internal 
            documents reveal Griles violated a signed statement to the 
            Senate, in which he recused himself from issues affecting 
            his former clients, and met no fewer than 12 times with top 
            Bush administration officials and coal industry 
            representatives to discuss the EIS. Griles also issued a 
            memo stating that the EIS should ``focus on centralizing 
            and streamlining coal-mining permitting'' instead of 
            minimizing adverse environmental effects.

    <bullet> Six leading ecologists who were appointed to a scientific 
            advisory panel by the National Oceanic and Atmospheric 
            Administration's (NOAA) National Marine Fisheries Service 
            (NMFS) claim that they were asked to remove science-based 
            recommendations from an official report.

    <bullet> A U.S. Fish and Wildlife Service (FWS) e-mail directive 
            instructed its Alaskan employees who request travel not to 
            discuss polar bears, sea ice, or climate change unless they 
            are explicitly authorized to do so.

    <bullet> High ranking officials from the Fish and Wildlife Service 
            (FWS) and the other Federal land agencies intervened in the 
            recovery plan for the northern spotted owl, compromising 
            the science-based protections in order to reduce barriers 
            to increased logging in old-growth forests.

    <bullet> Agency officials knowingly used flawed science in the 
            agency's assessment of the endangered Florida panther's 
            habitat and viability in order to facilitate proposed real 
            estate development in southwest Florida.

    <bullet> Bureau of Land Management (BLM) suspended an Oregon State 
            University (OSU) grant after university researchers 
            published a study in the prestigious journal Science which 
            concluded that logging in the wake of an Oregon fire 
            retarded the forest's recovery.

    <bullet> The U.S. Fish and Wildlife Service (FWS) had on multiple 
            occasions manipulated economic analyses of its plans for 
            protecting endangered species by counting only the costs of 
            protection while ignoring the benefits. In 2004, for 
            example, the FWS artificially inflated the estimated cost 
            of protecting the threatened bull trout. Two years later, 
            the agency downplayed the benefits of protecting the 
            California red-legged frog.

    It is important to note that some of these abuses are direct 
(censorship and manipulation) and some are systemic (changes in how 
scientific assessments are done related to endangered species).
              development of scientific integrity policies
    Under President Obama, the Department of the Interior recognized 
the need for changes. Indeed, Secretary Salazar didn't even wait for 
White House guidance on scientific integrity, issuing a Secretarial 
Order on September 29, 2010 establishing scientific integrity 
principles and directing departmental staff to develop a Departmental 
Manual to help protect science in the department.\3\
---------------------------------------------------------------------------
    \3\ Secretary Ken Salazar, U.S. Department of the Interior, Order 
No. 3305, Sep 29, 2010. http://www.riversimulator.org/Resources/USBR/
SecOrderNo3305ScientificIntegrity.pdf
---------------------------------------------------------------------------
    The DOI scientific integrity policy and manual that was 
subsequently developed was one of the best in government. Notably, DOI 
was only department to report out results of investigations into losses 
of scientific integrity.
    In 2016, responding to concerns expressed by external scientists, 
the USFWS revised its peer review policy for endangered seis ac listing 
decision. The new policy improved transparency, strengthened the 
guidelines for dealing with conflicts of interest and made a clear 
separation of the Scientific advice and policy recommendations. In fact 
overall the new policy was clearer and responsive to scientist 
concerns.
    One of the major problems was how peer reviewers were chosen and 
how their advice was subsequently treated by the agency. When decisions 
are controversial it is important to carry forward the nuance of 
concerns, not just a thumbs up or down approach. To be sure, more 
improvements are still needed, including most importantly ensuring 
there is accountability for adhering to strong peer review guidelines. 
Most endangered species decisions are controversial, but it must be 
borne in mind that the Act is the last opportunity to halt species 
extinctions. Losing a species from this Earth is never trivial and 
conservation efforts deserve our best science.
                attacks on science under president trump
    The erosion of scientific integrity in government has hit a fever 
pitch in the last 2 years. Barely a week goes by without hearing of 
scientists who are prevented from sharing their expertise with the 
public, or analytic work that is censored, or experts who are prevented 
from communicating with Congress, or data is made less accessible 
through websites, or science that is misrepresented.\4\ Since January 
2017, the Union of Concerned Scientists has documented more than 110 
attacks on science under the Trump administration, a mark that George 
W. Bush did not meet in his two terms.\5\ Other organizations, such as 
the Sabin Center for Climate Change Law, are also tracking attacks on 
science during the current administration.\6\
---------------------------------------------------------------------------
    \4\ Attacks on Science tracker, UCS Staff. https://www.ucsusa.org/
center-science-and-democracy/attacks-on-science
    \5\ Abuses of Science: Case Studies, UCS Staff, 2009. https://
www.ucsusa.org/our-work/center-science-and-democracy/promoting-
scientific-integrity/abuses-science-case-studies
    \6\ Silencing Science Tracker. http://columbiaclimatelaw.com/
resources/silencing-science-tracker/

    Recently, several former EPA administrators expressed concern about 
political interference in science at the EPA at a hearing in the House 
Energy and Commerce Committee. Former New Jersey Governor Christine 
Todd Whitman, who served as EPA administrator under George W. Bush, 
went on to write an Op-Ed in The Hill with UCS President Ken Kimmell 
supporting the Scientific Integrity Act.\7\ Whitman and Kimmell wrote:
---------------------------------------------------------------------------
    \7\ Scientific integrity is crumbling under Trump, Ken Kimmell, 
Christie Todd Whitman, Jul 9, 2019. https://thehill.com/opinion/energy-
environment/452222-scientific-integrity-is-crumbing-under-trump

        We all rely on Federal scientists--and we need to be able to 
---------------------------------------------------------------------------
        trust that we're getting the best available science.

        But there's a problem here: Federal scientists often face 
        political pressure that undermines their research and their 
        ability to share it with the public. Political leaders have 
        buried critical reports, keeping the public in the dark about 
        real threats. They have prevented scientists from publishing 
        their research or attending scientific conferences. They have 
        disciplined scientists for talking about their findings to 
        journalists.

    Scientific integrity can be compromised by political censorship, 
manipulation, and/or intimidation. Here are some examples from the 20 
attacks at the Department of the Interior selected from our research: 
\8\
---------------------------------------------------------------------------
    \8\ Science Under Siege at the Department of the Interior, Carter 
et al., Dec 2018. https://www.ucsusa.org/our-work/center-science-and-
democracy/science-under-siege-department-interior-2018

    <bullet> In October 2017, the U.S. Fish and Wildlife Service (FWS) 
            reversed their long-standing requirement that a proposed 
            city-sized development in southeastern Arizona needed a 
            comprehensive biological assessment to evaluate the 
            potential impacts to endangered species in the area. The 
            FWS official in charge of this process recently said that 
            the only reason he reversed his decision was because he was 
            pressured by a high-level political appointee at the 
            Department of the Interior (DOI). The result of the FWS 
            reversal led to the development, Villages at Vigneto, to 
            receive a permit to build by the U.S. Army Corps of 
---------------------------------------------------------------------------
            Engineers.

    <bullet> The Department of the Interior (DOI) failed to consider 
            and excluded from public view 18 memos from staff 
            scientists who had raised scientific and environmental 
            concerns about proposed oil and gas operations in the 
            Arctic National Wildlife Refuge in Alaska. These documents 
            were excluded from the DOI's draft environmental 
            assessment, and were not released during Freedom of 
            Information Act (FOIA) requests filed by advocacy groups.

    <bullet> In an effort to censor science around adaptation to 
            climate change, and in direct contrast to instructions from 
            Congress, the Trump administration has defunded Landscape 
            Conservation Cooperatives (LCCs), causing 16 of the 22 LCCs 
            to be eliminated or placed on indefinite hiatus. LCCs are 
            governmental research centers located across the United 
            States that integrate science-based information on climate 
            change and other stressors to better conserve and protect 
            natural and cultural resources.

    <bullet> A proposal from the U.S. Fish and Wildlife Service to 
            remove the gray wolf from the Endangered Species Act (ESA) 
            was found to be full of errors regarding wolf conservation 
            and taxonomy. One member of the scientific panel asked to 
            review the proposal said it seemed as if the proposal was 
            written by cherry-picking evidence that would support de-
            listing.\9\
---------------------------------------------------------------------------
    \9\ Scientists Find Serious Flaws in Proposal to Delist Endangered 
Gray Wolf, Jacob Carter, Jun 24, 2019. https://blog.ucsusa.org/jacob-
carter/flaws-in-proposal-to-delist-gray-wolf

    <bullet> In 2017, scientists at the Fish and Wildlife Service (FWS) 
            completed a comprehensive analysis of the potential dangers 
            three widely used pesticides may present to hundreds of 
            endangered species. Two of the pesticides, chlorpyrifos and 
            malathion, were deemed by the scientists to ``jeopardize 
            the continued existence'' of more than 1,200 endangered 
            birds, fish, and other animals and plants. However, before 
            the scientists could publish their report in November 2017, 
            top officials from the Department of the Interior (DOI), 
            including then deputy administrator of the DOI, David 
            Bernhardt, intervened. The DOI officials blocked the 
---------------------------------------------------------------------------
            release of the report.

    <bullet> In a 2-year period, the Department of the Interior's (DOI) 
            Bureau of Safety and Environmental Enforcement (BSEE) had 
            given offshore oil drillers 1,679 waivers to regulations 
            that tested the safety of equipment, rather than collect 
            critical data that could demonstrate the need for safety 
            improvements. More than a third of the waivers were for 
            engineering testing procedures for blowout preventors, the 
            device that failed to seal off BP's well when it erupted in 
            2010 and killed 11 workers during the Deepwater Horizon oil 
            spill.

    <bullet> Two National Academies of Sciences, Engineering, and 
            Medicine (NASEM) studies were halted in mid-course for the 
            first time in NASEM's 150-year history. One was requested 
            by Appalachian states to better understand the impact on 
            drinking water of mountaintop removal mining. The other was 
            investigating how to improve safety of offshore oil and gas 
            development as recommended by a National Commission after 
            the Gulf oil spill.

    <bullet> DOI officials removed climate change references from the 
            press release of a USGS study on California coastline 
            infrastructure and sea level rise.

    <bullet> DOI blocked Bureau of Land Management archeologists and 
            USGS scientists from attending prominent research 
            conferences in their fields.

    <bullet> Fish and Wildlife Services rushed a scientific assessment 
            of the American burying beetle reportedly to avoid 
            disrupting agribusiness. Two biologists left the project, 
            feeling like they were being forced to do shoddy science.

    <bullet> The superintendent of Joshua Tree National Park was 
            summoned to Washington to be personally reprimanded by 
            Secretary Zinke after the Park's official Twitter account 
            posted about climate change.

    <bullet> Government scientists from the U.S. Fish and Wildlife 
            Service (FWS) warned that the use of seismic surveys in 
            Alaska's Arctic National Wildlife Refuge (ANWR) could 
            further threaten the polar bear population. Officials of 
            the Trump administration appear to ignore or censor this 
            information from consideration as the process of opening up 
            the refuge to oil exploration continues.

    Even worse are policies and practices that structurally sideline 
science from policymaking, from limiting the types of science that can 
inform decisions to political review of scientific grants to the 
elimination or compromising of science advisory committees. These 
include:

    <bullet> Restricting the science that agencies can consider to only 
            those studies where all raw data and computer code is 
            publicly available, precluding using information that 
            appropriately should be kept confidential (e.g. health 
            records, endangered species location information). This 
            restriction on science is supposedly to improve 
            transparency but that is a false justification. Making 
            information publicly available is laudable but rarely is it 
            necessary to make raw data available for a study to be 
            understandable and carefully scrutinized. I review dozens 
            of papers for academic journals and do not review the raw 
            data. But requiring raw data disclosure really restricts 
            the ability of agencies to use the best information. And in 
            particular it prevents the use of population level studies 
            that can be vitally important to address public health, 
            safety and environmental threats across the Department's 
            bureaus Indian Affairs, Land Management to Fish and 
            Wildlife. A similar proposal at EPA received universal 
            condemnation from scientific organizations.\10\
---------------------------------------------------------------------------
    \10\ A List of Scientific Organizations That Have Supported and 
Opposed Limiting What Research EPA Can Use to Make Decisions, Michael 
Halpern, Apr 24, 2018. https: / / blog.ucsusa.org / michael-halpern / 
a-list-of-scientific-organizations-that-have-supported-and-opposed-
limiting-what-research-epa-can-use-to-make-decisions

    <bullet> Reducing by fiat the number of expert advisory panels 
            agencies rely on, and favoring regulated industry interests 
---------------------------------------------------------------------------
            over independent experts on those panels.

    <bullet> President Trump recently issued an Executive Order cutting 
            the number of agency advisory panels by one-third. This 
            would not save much money since most committees are pro 
            bono, and it would remove a critical avenue for peer review 
            and scientific advice for absolutely no benefit other than 
            to sideline science.

    <bullet> Altering the consideration of costs and benefits to 
            downweight public benefits, thereby calling into question 
            the appropriateness of certain regulations, and misusing 
            the very concept of cost/benefit analysis.

    <bullet> Arbitrarily restricting the length and time frame for NEPA 
            analyses regardless of the amount of scientific information 
            needed, as well as circumventing the NEPA process depriving 
            the public of the consideration of options and the 
            information that supports different policy alternatives.

    <bullet> DOI directed political appointees to begin reviewing 
            discretionary grants to make sure that they align with 
            Trump administration priorities. The discretionary grants 
            include any grants worth $50,000 or more that are intended 
            to be distributed to ``a non-profit organization that can 
            legally advance advocacy'' or ``an institution of higher 
            education.'' Discretionary grants are normally reviewed by 
            independent experts who assess grant proposals using a 
            uniform rating or scoring system established by the 
            awarding agency. The proposals are evaluated based on 
            criteria specific to the grant--for some programmatic 
            grants these criteria are dictated by statutory authority 
            (e.g., grants in the brownfields program at the EPA). 
            Therefore, as former Secretary of Interior David J. Hayes 
            noted, ``Subjugating Congress's priorities to 10 of the 
            Secretary's own priorities is arrogant, impractical and, in 
            some cases, likely illegal.'' \11\
---------------------------------------------------------------------------
    \11\ Trump Political Appointees Interfere in Scientific Grants 
Process Take Two: The Department of Interior, Jacob Carter, Jan 10, 
2018. https://blog.ucsusa.org/jacob-carter/trump-political-appointees-
interfere-in-scientific-grants-process-take-two-the-department-of-
interior

    I want to be clear. We don't highlight attacks on science to 
``protect'' scientists. I am not concerned that my feelings will be 
hurt or that controversy is not appropriate and real. I worked with 
fishermen for many years--and they can be, you might say, direct. I can 
take the heat and so can many of my colleagues. But censorship and 
manipulation of results is inappropriate use of our work, and most 
importantly, in bad policies.
    As a decision maker in government in my previous positions at NOAA 
fisheries I know that lots of considerations must be weighed in any 
given decision. I believed then, as I do now, that the science is 
always important but only prescriptive if required by statute. But I 
also believe that the reasons a decision is made should be as clear as 
possible for the public. It is never appropriate to censor or 
manipulate evidence to support a decision being made for other reasons.
         surveys of scientists demonstrate sustained challenges
    Since 2005, the Union of Concerned Scientists has conducted surveys 
of Federal Government scientists to measure the level of political, 
corporate, and other pressures on the conduct and communication of 
their work. A survey in 2018 was conducted in partnership with the 
Center for Survey Statistics and Methodology at Iowa State University. 
Responses were received from 4,211 Federal Government scientists across 
16 agencies and departments.
    The results of the survey \12\ provided evidence of political 
interference in the science policy process at many Federal agencies. At 
some agencies, the situation for scientists is worse than it was during 
the Bush or Obama administrations.
---------------------------------------------------------------------------
    \12\ The Good, the Bad, and the Ugly: The Results of Our 2018 
Federal Scientists Survey, Jacob Carter, Aug 14, 2018. https://
blog.ucsusa.org/jacob-carter/the-good-the-bad-and-the-ugly-the-results-
of-our-2018-federal-scientists-
survey?_ga=2.185252906.241573531.1563190776-108700043 9.1563190776

---------------------------------------------------------------------------
    Scientists reported high levels of censorship and self-censorship:

    <bullet> 631 respondents (18 percent) at agencies that work on 
            climate change agreed or strongly agreed that they had been 
            asked to omit the phrase ``climate change'' from their 
            work.

    <bullet> 798 respondents (20 percent) reported that they had been 
            asked or told to avoid work on specific scientific topics 
            because they are politically contentious.

    <bullet> 1,040 respondents (26 percent) reported that they had 
            avoided working on certain scientific topics or using 
            certain scientific terms because they are politically 
            contentious, though they were not told explicitly to avoid 
            them.

    From the 2018 Federal scientists' survey: \13\
---------------------------------------------------------------------------
    \13\ 2018 Federal Scientists Survey FAQ. https://www.ucsusa.org/
our-work/center-science-and-democracy/promoting-scientific-integrity/
2018-federal-scientists-survey

    <bullet> NPS: 168 respondents (76 percent) felt that consideration 
            of political interests is a burden to scientific decision 
---------------------------------------------------------------------------
            making.

    <bullet> NOAA: 416 respondents (38 percent) said that a focus on 
            business interests inappropriately influences science-based 
            decisions; 311 respondents (29 percent) said that senior 
            decision makers from industry or who have a financial stake 
            in regulatory outcomes inappropriately influences decision 
            making

          -- ``I've been told to avoid scientific work that might link 
        environmental problems with the actions of U.S. industry.''

          -- ``Industry is given power to direct policy involving 
        regulations or scientific conclusions (and opinions based on 
        the science) that would affect them, thus providing outcomes 
        that benefit them. This comes at the cost of our agencies 
        ability to accomplish our mission for the American public and 
        natural resources we are entrusted to manage and conserve.''

    <bullet> FWS: 235 respondents (69 percent) noted the level of 
            consideration of political interests as a burden to 
            science-based decision making.

    <bullet> USGS: 328 respondents (59 percent) reported resources such 
            as funding and staff time distributed away from work 
            considered politically contentious.

    <bullet> FWS: 213 respondents (59 percent) felt that the 
            effectiveness of the office decreased compared with 1 year 
            ago, and 210 respondents (58 percent) said personal job 
            satisfaction decreased.

    <bullet> NPS: 55 respondents (26 percent) reported avoiding working 
            on climate change or using the phrase ``climate change'' 
            even when not explicitly told to do so.
          -- ``There has definitely been a chill on climate research 
        and climate change awareness,'' said an NPS scientist. 
        ``Although there have been few published prohibitions to point 
        to, there is uncertainty about what forms of retaliation might 
        take place if the powers-that-be are unhappy with you.''

          -- ``Consistent removal of references to climate change have 
        hindered our ability to have honest discussions about the 
        potential threats associated with climate change to the 
        National Park System.''

          -- ``Management refused permission to publish a 
        (successfully) peer-reviewed report for fear of political 
        repercussions.''

    <bullet> FWS: 101 respondents (30 percent) reported being asked to 
            omit certain politically contentious words from their 
            scientific work products.

    <bullet> USGS: 119 respondents (22 percent) reported they have been 
            asked or told not to work on topics viewed as politically 
            contentious; 169 respondents (32 percent) reported they 
            avoid working on climate change or using the phrase 
            ``climate change'' even without explicit orders to do so.

          -- ``We are being told not to use the words `climate change' 
        in any memos that require clearance, and press releases are not 
        being approved. This really hinders our ability to communicate 
        with the public and lowers morale.''

    <bullet> NPS scientist: ``The constant attacks on science and facts 
            by the current administration has negatively impacted 
            scientists in the agency. Effects range from anger and 
            frustration to depression and even opting to retire early. 
            Twenty-five years of experience with three Federal agencies 
            and I've never seen anything like this--it is appalling.''

    <bullet> From the U.S. Geological Survey: ``Senior USGS management 
            has censored scientists on multiple occasions. For example, 
            video of a research talk on earthquake early warning was 
            removed from the USGS website because there was concern 
            that congressional staffers might see it (the research 
            pointed out difficulties with earthquake early warning, 
            which had yet to be funded fully by Congress). Often 
            politically contentious scientific results are watered down 
            in the internal review process. If scientists do not accept 
            edits that water down the language, they are not allowed to 
            submit the manuscript to a journal.''

    <bullet> From the National Park Service: ``Consistent removal of 
            references to climate change have hindered our ability to 
            have honest discussions about the potential threats 
            associated with climate change to the National Park 
            System.''

    (Note that percentages vary because not every respondent answered 
every question)

    Science has been the engine which has driven prosperity in this 
country since its founding. There is no model of an effective democracy 
in which the best and brightest scientific minds either elect to keep 
their work to themselves for fear of reprisal, or, are muzzled by a 
frightened government unwilling to accept their findings.
                      the scientific integrity act
    The Scientific Integrity Act introduced by Rep. Paul Tonko (NY), 
and co-sponsored by over 200 members of the House, is good government 
legislation. It is agnostic on matters of policy; rather, it aims to 
ensure that policies are fully informed by science. The legislation 
contains many of the best practices that have been identified for the 
development and maintenance of a thriving Federal scientific 
enterprise.
    Putting such legislation in place is vital because current 
policies, including the Department of the Interior's Scientific 
Integrity Policy do not have the force and effect of law. They can and 
are being ignored all too often as the examples above show.
    The legislation prohibits any employee from manipulating or 
misrepresenting scientific findings.\14\ On issues from endangered 
species to toxic chemical contamination to worker safety, political 
appointees have personally made changes to scientific documents (or 
ordered that changes be made) in order to justify action or lack of 
action on public health and environmental threats.
---------------------------------------------------------------------------
    \14\ Attacks on Public Health and Safety that the Scientific 
Integrity Act Could Have Prevented, Dr. Jacob Carter, Jul 15, 2019. 
https://blog.ucsusa.org/jacob-carter/attacks-on-public-health-and-
safety-that-the-scientific-integrity-act-could-have-
prevented?_ga=2.243047298.1690950967.15633 66482-1532896556.1535565435
---------------------------------------------------------------------------
    The legislation helps ensure that government communication of 
science is accurate by giving scientists the right of last review over 
materials that rely primarily on their research. It also gives 
scientists the right to correct official materials that misrepresent 
their work. This provision makes it less likely that Federal agencies 
will put out inaccurate information, either intentionally or 
inadvertently. The legislation ensures that scientists can carry out 
their research--and share it with the public--without fear of political 
pressure or retaliation. It enables scientists to talk about their 
research in public, with reporters, in scientific journals, and at 
scientific conferences. The bill empowers Federal scientists to share 
their personal opinions as informed experts, but only in an individual 
capacity, not as government representatives. This is essential due to 
the amount of censorship and self-censorship that has been documented 
on issues from climate change to food safety.
    The legislation requires agencies to devote resources to designate 
scientific integrity officers and provide Federal employees with 
appropriate training to help prevent misconduct. Some agencies have 
developed policies that have no enforcement mechanisms, rendering them 
virtually meaningless.
    The legislation would not empower scientists to speak for their 
agency on policy matters. It would not enable scientists to circumvent 
the agency leadership with regard to policy decisions. It would be 
clearly applied to expressing views with regard to their scientific 
expertise.
                           concluding remarks
    Not all attacks on science are matters of scientific integrity. 
Policy decisions that fail to consider scientific evidence are just 
that and harm our Nation. But allowing scientists to be free from 
censorship, manipulation of their results or intimidation would go a 
long way toward improving the decision process. And pushing back on 
other attempts to sideline science from policymaking is also important 
for accountability, public trust, and the overall strength of 
environmental and public health decisions.
    The United States has a strong and vibrant science community. That 
community is part of the strength of our democracy. But when science is 
sidelined from public policy or scientific integrity is compromised 
public health, safety and our environment is undermined. Simply put, we 
cannot make good policy in the public interest unless we fairly 
consider the weight of scientific information fully.

    Thank you Mr. Chairman and Ranking Member, I would be happy to 
respond to questions.

                                 ______
                                 

Questions Submitted for the Record to Dr. Andrew Rosenberg, Director of 
  the Center for Science and Democracy, Union of Concerned Scientists
                  Questions Submitted by Rep. Grijalva
    Question 1. In his opening statement, Ranking Member Rob Bishop 
referred to the decreasing number of scientific integrity complaints at 
the Department of the Interior during the Trump administration. Is the 
number of scientific integrity complaints an adequate measure of a 
scientific integrity problem in an organization?

    Answer. No, the number of complaints is dependent on many factors, 
importantly including whether agency scientists feel secure and trust 
the process. Our survey of DOI scientists shows a marked decline in 
trust of agency leadership. That is a significant factor in changes in 
formal scientific integrity (SI) complaints. In addition to a lack of 
confidence in the process by the aggrieved party, scientists concerns 
over retaliation by colleagues or supervisors for speaking out, and 
incidents which may have been reported by the aggrieved party but not 
properly documented, many complaints are dealt with informally and 
through consultation that is not documented.

    Specifically, at the Department of the Interior, we note that the 
Agency only lists two scientific integrity complaints in 2018. However, 
UCS has documented eight instances of political pressure on science and 
scientists from publicly disclosed information.

    <bullet> Deputy Secretary David Bernhardt issues Order No. 3369 
            that will restrict scientific studies from being used to 
            inform decisions at DOI.

    <bullet> Senior officials at DOI dismissed evidence showing the 
            value of national monuments via increased tourism and 
            archaeological discovery in a review of monuments conducted 
            by the agency.

    <bullet> The Trump administration rescinded Director's Order #100, 
            which established that management of national parks would 
            be made using the best available science.

    <bullet> The U.S. Geological Survey (USGS) began requiring 
            scientists to get permission to speak to reporters in July 
            2018, representing a dramatic change from decades of past 
            media practices.

    <bullet> In 2018, the DOI restricted its scientists from attending 
            two national prominent scientific meetings, the annual 
            meeting of the American Geophysical Union (AGU) and the 
            annual meeting of the Society for American Archaeology.

    <bullet> In January 2018, the Trump administration instructed 
            political appointees to review grants to ensure they 
            aligned with 10 priorities set by the administration. 
            Typically, scientific grant proposals are reviewed and 
            awarded based on their intellectual merit, not political 
            priorities.

    <bullet> Officials from the Department of the Interior (DOI) 
            stripped language that was written by Federal scientists on 
            a key environmental impacts letter to the U.S. Customs and 
            Border Protection (USCBP) about the U.S.-Mexico border wall 
            during December, 2018. The deleted sections, written by 
            Federal biologists and wildlife managers from the U.S. Fish 
            and Wildlife Service (FWS), brought up scientifically valid 
            concerns about the potential impact of the border wall on 
            endangered species whose populations are located along the 
            border.

    <bullet> In September 2018, two university scientists ended a 
            contract with the Fish and Wildlife Service saying that the 
            administration was pressuring them to use inaccurate 
            methodologies in their work.

    Finally, scientific integrity policies do not address many of the 
ways that science is sidelined from policy making, including by 
politicizing or disbanding science advisory committees; weakening the 
department's interpretation of laws such as the Endangered Species Act; 
reassigning staff in a retaliatory manner; and allowing for political 
review of scientific grants, all of which has been well-documented.

    1a. The Union of Concerned Scientists has conducted surveys of 
scientists in several Federal agencies, including those within the 
Department of the Interior. Is this a more accurate way to measure the 
extent of a scientific integrity problem at an agency?

    Answer. There is both anecdotal and quantifiable evidence that 
illustrates the challenges of Agency self-reporting scientific 
integrity violations. Relative to that process, the scientist survey 
conducted by UCS is a more accurate way to capture more data about 
allegations of scientific integrity violations. The data from the 
surveys paint a bleak picture of how this Administration is censoring 
scientists, both directly and indirectly, subjecting critical work 
force capacity to harmful atrophy, and directly interfering with the 
work conducted by scientists. Yet even our data only scratches the 
surface of what scientific integrity challenges may exist. Our survey 
results are limited by the number of responses we receive, and without 
an Agency mandating participation in the study, we can only analyze and 
report on what we hear back.
    It is also of concern that reporting by the agency is limited. Even 
for complaints that are reported, the resolution of those cases is 
unclear. Overall, more transparency by the agency would help improve 
the trust scientists have in the process.

    1b. Can you briefly describe some of the key findings of those 
surveys?

    Answer. Our 2018 survey results show that scientists are concerned 
about work force reductions. Seventy-nine percent of respondents 
reported work force reductions occurring during the 2017-2018 frame, 
and 87 percent of those respondents reported that such reductions made 
it more difficult for agencies to fulfill their missions. Our results 
also show concern about political interference. Twenty percent of all 
respondents named ``influence of political appointees in your agency or 
department'' or ``influence of the White House'' as one of the greatest 
barriers to science-based decision making. Fifty percent of all 
respondents either agreed or strongly agreed that consideration of 
political interests hindered their agencies' ability to make science-
based decisions. Respondents from the EPA showed particular concern 
about political influence, with 81 percent agreeing or strongly 
agreeing that it was a hindrance, and nearly a third naming it as a top 
barrier, to science-based decisions.
    Censorship has also been a persistent problem, especially at the 
National Park Service where scientists struggle to be accurate in their 
work without the ability to mention climate change and its impacts. Our 
Survey results show that 18 percent of respondents (including 47 
percent at NPS and 35 percent at EPA) had been asked to omit the phrase 
``climate change'' from their work. And 20 percent of respondents 
reported engaging in self-censorship regarding climate change.
    These issues of course manifest in low morale and low confidence in 
any existing scientific integrity policies. Many respondents reported 
decreased job effectiveness and satisfaction in addition to low morale. 
Across all agencies, 39 percent of responding scientists reported that 
the effectiveness of their divisions or office had decreased over the 
past year, while only 15 percent reported an increase. Forty-two 
percent of respondents said that they would be willing to report a 
scientific integrity violation and trust that they would be treated 
fairly.

    Please refer to the attached summaries of our survey at the end of 
my responses.

    Question 2. In his testimony, Mr. Daren Bakst drew attention to the 
fact that scientific integrity violations have occurred under previous 
administrations at the Department of the Interior. Are the attacks on 
science under the Trump administration at Interior a reflection of the 
status quo or is this administration unique?

    Answer. Mr. Bakst conflated a wide range of issues of scientific 
misconduct, genuine policy differences, the interpretation of legal 
mandates and scientific integrity as defined in our work and agency 
policies. That makes his statements rather confused and unclear. It is 
important to note, that issues such as scientific misconduct, which 
certainly occurs though it has been shown to be rare, have a mechanism 
in place to resolve issues--peer review, expert panels, and 
consideration of weight of evidence rather than any one study for 
example. So too do issues of legal mandates (adjudication) and even 
policy differences (congressional oversight, adjudication). But the 
system for political suppression or manipulation of science has no 
formal system for resolving problems that includes real accountability.
    Scientific integrity violations have been documented as far back as 
the Eisenhower administration. However, the degree to which science has 
been politicized, and the ferocity with which this Administration and 
its allies attack science they find too inconvenient for their goals, 
is both alarming and unprecedented. As I noted at the hearing, we have 
documented over 100 attacks against science by the Administration to 
date. To put this into historical context, the Trump administration has 
attacked science more often in less than 3 years compared to 8 years of 
the President George W. Bush administration. The number is certainly 
shocking, but what is most important to guard against is not simply the 
next attack, but the consequences of those attacks for the American 
people--less public health protection, poorer environmental quality 
with impacts on our quality of life, less safety and resilience of our 
communities. And these are often impacts that will be with us for years 
if not decades. Further, we are concerned about the potential shift in 
political culture that would make attacks on science commonplace, and 
censoring of scientists acceptable. Neither are precedents for a 
successful democracy.

    Question 3. In his testimony, Mr. Daren Bakst highlighted EPA's 
``secret science'' rule. The Department of the Interior issued the 
nearly identical Secretarial Order 3369 ``Promoting Open Science.'' Can 
you explain how these initiatives will affect science and scientists at 
Federal agencies like the Department of the Interior?

    Answer. To be clear, while scientists at Federal agencies will 
certainly be impacted, the clear losers of allowing such policies to be 
enacted at EPA and DOI are the American people. There is a thorough 
record of the ``secret science'' rule, first considered by the House 
Science Committee under the leadership of then-Chairman Lamar Smith, 
where the intention of this policy was laid bare. At its core, policy 
proposals like EPA's ``secret science'' rule and Secretarial Order 
3369, serve to restrict the science that can be considered by agency's 
when developing responses to critical public health challenges posed by 
climate change.
    As my colleague Michael Halpern once said about the EPA rule, 
``This is a fundamentally flawed concept wholly conceived and promoted 
by industry lobbyists to limit the types of science that EPA can use in 
making decisions. Not even the EPA Office of the Science Advisor had 
any clue what was going on until the proposal was published. When 
legislation that tried to accomplish the same goal repeatedly died on 
the vine in Congress, they tried to ram it through the agency. The 
proposed rule should be framed in the National Archives as a notable 
example of how a government agency can be co-opted by extremists and 
failed tobacco lobbyists.''
    Any initiative that makes it harder for scientists at Federal 
agencies to have access to the science they need to conduct their work 
is problematic. When such initiatives also leave open the opportunity 
for third-parties to challenge the underlying data, the work of the 
agency slows and the role of the Federal scientist transforms from 
analyzing to defending. Much like a trojan horse, these initiatives are 
specifically designed to put scientists on the defensive thereby 
slowing the work of the agency.
    Rather than promote transparency, the Secretarial Order further 
politicizes the process of science informing policy choices, because it 
gives the Secretary or his designee the authority to pick and choose 
which science can be used despite so-called transparency concerns. And, 
the order is specifically designed to circumvent the process by which 
scientists determine the weight of evidence and place that into 
political hands. That inherently means that the decisions that are made 
will be more political, less defensible, and the policies will be less 
effective for a whole host of reasons.
    When the rule was announced at EPA, then-Administrator Pruitt said 
that the order was consistent with guidelines from specific scientific 
organizations, all of which subsequently disavowed and distanced 
themselves from the rule. Dozens of scientific organizations urged that 
the rule be scrapped; not a single mainstream scientific organization 
supported it.
    Please refer to the attached comments submitted by UCS to the EPA 
rule at the end of my responses.

    Question 4. Last month, President Trump issued an Executive Order, 
titled ``Evaluating and Improving the Utility of Federal Advisory 
Committees.'' This order gives Federal agencies until September 30, 
2019 to terminate at least one-third of all of their Federal advisory 
committees.

    4a. Can you please explain the role of these Federal advisory 
committees?

    Answer. Federal advisory committees are formal bodies comprised of 
experts that can provide advice to policy makers on highly technical 
matters, particularly on issues relating to science. The EO is a purely 
cosmetic act to cut advisory committees without rhyme or reason. It is 
the very definition of arbitrary and capricious. This extends the 
administration's attacks on receiving independent science advice as we 
have seen at both EPA and Interior--appointing poorly qualified 
advisors with major conflicts of interest, excluding highly qualified 
advisors on contrived grounds, failing to hold advisory committee 
meetings on major science based actions. Now, committees will be 
eliminated wholesale with no stated rationale. It can't be to save 
money since most advisors serve pro bono (as I have on numerous 
committees). And it won't allow agencies to access the best talent.

    4b. How does this Executive Order affect scientific integrity at 
Federal agencies?

    Answer. First, the order is arbitrary in setting what number of 
committees to eliminate. Second, the justification for seeking to 
eliminate committees (cost), is not supported by any evidence provided 
to date. What it means is that agencies will not have the independent 
advice of external scientists to guide their work. That means, once 
again, that the role of science will likely be weakened in the decision 
process and policy choices will be made on a wholly political basis.

    4c. Based on what we have seen so far in the Trump administration, 
how do you think agencies will decide which advisory committees to 
terminate?

    Answer. At this point it is unclear. There is no consistency in 
approach or rationale. Agencies must just report which committees will 
be canceled to meet an arbitrary and capricious standard.

    Question 5. Dr. Rosenberg, please describe the difference between 
scientific integrity violations and research misconduct that might 
occur among agency scientists.

    Answer. Research misconduct describes the behavior of the 
scientist, scientific integrity violations describe the behavior of 
others toward the scientist. The former is referring to relatively rare 
cases where a scientist intentionally circumventing or corrupting the 
scientific process rendering their results suspect. The latter is 
others misconstruing, suppressing or manipulating scientific results or 
attacking scientists personally in order to corrupt the evidence and 
misrepresent the science.

    5a. What mechanisms are in place to address research misconduct? 
Are such mechanisms sufficient?

    Answer. There are a host of mechanisms, from peer review by 
knowledgeable experts, to science advisory panels, institutional review 
boards and other checks and balances that prevent, or in some cases 
bring to light, research misconduct. But in addition, when used in a 
policy context, adhering to a standard of relying on the weight of 
evidence rather than any one study generally reveals aberrant results. 
These mechanisms can always be strengthened, better funded and more 
rigorously applied, but research misconduct is relatively rare, and 
rarer still is an inappropriate study given significant weight in 
policy making.

    5b. What mechanisms are in place to address scientific integrity 
violations? Are such mechanisms sufficient?

    Answer. Scientific integrity policy at Federal agencies provide 
some, but a rather inconsistent mechanisms to raise issues of political 
interference in science within the agency. But there is no full 
accountability to meet the policies. Inspector General Offices have not 
taken on these challenges in most cases. Accountability, reporting and 
follow through have all been difficult to varying degrees at different 
agencies.

    5c. Is it necessary to have separate policies that address 
scientific integrity violations and research misconduct?

    Answer. Yes, these are entirely separate issues and should not be 
conflated.

    Question 6. Dr. Rosenberg, many believe that transparency in 
research is important to public accountability. Can you describe what 
methods scientists currently use to share data and research methods? In 
addition, can you address efforts to exploit the idea of transparency 
in science to undermine science-based policy making?

    Answer. Transparency in research is important. But being clear on 
what steps lead to greater transparency is essential. Sharing 
information on what studies were considered and how important an agency 
believed each to be in the decision it made is a major step. Also, 
agency decision records should clearly state why a specific policy 
choice was made and not try to contort the science to support a 
decision. Scientific evidence does not mandate any particular policy 
choice, but it should inform policy makers and the public about the 
efficacy of that choice. If a decision is being made for other reasons 
(e.g. to allow businesses time to adjust) then say that rather than 
pretend that decision is based on science.
    Unfortunately, some interest groups have falsely claimed that 
transparency depends upon the sharing of raw data and other 
underpinning of a particular study. But from a scientists perspective, 
I want to understand the methods used to collect the data, the basic 
patterns in the data and how the results were then derived. I don't 
want to look at each data point unless one is given undue influence, 
which should be revealed in the data methods and patterns. Requiring 
release of raw data immediately precluded a wide range of information 
that must be kept confidential for privacy reasons. That in turn means 
that certain kinds of studies such as epidemiological analyses cannot 
be considered, but they provide critical public health information. So, 
chasing after raw data really is a trick to preclude epidemiological 
information.

    Question 7. Dr. Rosenberg, please describe the results of your 
survey of scientists at the Department of the Interior and how these 
measure up to previous administrations.

    Answer. As noted above, we have seen marked increases since the 
previous administration of concerns over political interference and 
special interest influence on science and policy making. There are also 
major increased concern over the capacity of the agencies in Interior 
to meet their mission because of staff losses and political 
micromanagement. Morale is very low and job satisfaction is declining.

    Question 8. Dr. Rosenberg, please describe other ways that the 
Department of the Interior officials have sidelined science from the 
policy process or otherwise politicized science in ways previously 
unseen. Are there methods other than scientific integrity policies that 
would help prevent these kinds of practices?

    Answer. We have catalogued attacks on science in the department as 
detailed in my written testimony. Not all are issues of scientific 
integrity. Some attacks are the result of political appointees ignoring 
input from professional staff, including scientists, others are 
political micromanagement of grant programs, or mandating unscientific 
standards such as a time limit for projecting future impacts, or page 
limits on analyses. Overall, the ethos of the department has turned to 
a focus on political rather than evidence-based decisions.

    Question 9. Dr. Rosenberg, why do you think that formal scientific 
integrity complaints at the Department of the Interior are down? Does 
this demonstrate that the Trump administration is more science-friendly 
than the Obama administration?

    Answer. As I stated in my answer above--there may be a number of 
reasons why the number of formal scientific integrity complaints at the 
Department of the Interior do not match up with the number of 
scientific integrity violations we have documented in our work. 
Censorship, intimidation, lack of confidence in the process, low 
morale, or a combination of factors could all be involved. Whether by 
this metric or another, the Trump administration has demonstrated a 
unique hostility toward science that has not been seen in other 
administrations.

    Question 10. Dr. Rosenberg, please describe how violations of 
scientific integrity within Agencies can impact the lives of people 
around the country.

    Answer. Inherently, scientific integrity violations mean that the 
American public has less information and it is of poorer quality. It 
also means that decision makers at other levels of government have less 
high quality information. That puts public health, safety and 
environmental quality at risk.

    Question 11. Dr. Rosenberg, how do strong scientific integrity 
policies operate to protect against attacks on science that we have 
seen in this Administration and others?

    Answer. Strong policies set a presumption that scientific 
information will be available to the public and decision makers without 
political interference. While the policies are not fully enforceable, 
at least these protections become part of the agency's mandate.

    Question 12. Dr. Rosenberg, why are strong scientific integrity 
policies needed to protect the Federal work force from stagnation and 
attrition?

    Answer. Scientists want to do their work and have their efforts be 
fairly considered in the policy process. They want the results of their 
efforts to be meaningful and impactful. When the results are 
manipulated or suppressed, that really undermines the reason that 
people do the work they do. These are highly trained professionals with 
years or decades of training and experience. They have chosen public 
service and are committed to working in the public interest. If their 
work is suppressed or manipulated it goes against the core of their 
motivation for doing the hard work of science in the public interest.

    Question 13. What are the impacts to the country of a Federal work 
force that lacks scientists to do research?

    Answer. Decisions become more wholly political, and are made on the 
basis of influence, not evidence. Scientists need to on the front 
lines. Their research is of the highest quality, but is directed by the 
needs of the agency and the country. Without them, why would we expect 
our policy decisions to be as good as they should be?

                    Questions Submitted by Rep. Cox
    Question 1. There have been recent reports of Federal agencies 
looking to hide or keep from the public studies that show the negative 
impacts climate change will have on farmers across the country. As 
someone who represents a district that relies heavily on natural 
resources and is the No. 1 agriculture producing district in 
California, how should the Department of the Interior be coordinating 
with other Federal agencies to collectively determine what effects 
climate change is going to have on districts like mine?

    Answer. While I agree that there should be some degree of inter-
Agency coordination on this issue, and many others, that relate to 
climate change, any specific recommendation I might give to the 
Department would begin with ensuring that all agency scientists are 
able to communicate their findings to each other, other agencies, 
Administration officials, and the public, without fear of censorship or 
retribution. My training is in fisheries and marine resources and 
fishermen share many of the same challenges as farmers. I know from my 
own experience that business and families that depend directly on 
natural resources need as much information as they can get about what 
is coming at them. Climate change is having a definite, major impact on 
farming. This is a matter of evidence not belief. Farmers need the best 
information they can get to plan for their businesses in a changing 
world. Always have, always will.

    Question 2. Other recent reports have described how the effects of 
climate change threaten our national parks. My district in California's 
Central Valley is adjacent to some of our Nation's most-renowned 
national parks. My constituents enjoy our proximity to these natural 
treasures. Fresno, part of which I represent, benefits from the travel 
and tourism activity generated by nearby parks and public lands. It's 
clear that climate change is happening and will continue to impact our 
parks.

    2a. How should Interior be ensuring that the National Parks Service 
has the information to plan accordingly for climate change?

    2b. If we don't have the science, what are we going to miss?

    Answer. Any specific recommendation I might give to the Department 
would begin with ensuring that all agency scientists are able to 
communicate their findings to each other, other agencies, 
Administration officials, and the public, without fear of censorship or 
retribution. Certainly, without having access to science, we would lack 
any information to make informed policy choices on how best to preserve 
our public lands and otherwise respond effectively to a changing, 
rapidly warming, climate. Every national park needs to have a plan for 
the changing climate. And every park needs to play a key role in 
educating the public about climate change. These are living 
laboratories where Americans can see with their own eyes how nature 
works and how it is changing. The parks should be part of a great 
effort for citizen science and science education, not a political tool. 
Without an understanding of the science of climate change we will be 
less educated, aware, prepared and engaged.

                  Questions Submitted by Rep. Horsford
    Question 1. Where I come from, state and local governments face 
serious land management and resource challenges. With limited access to 
water, high threat of wildfires, and the spread of invasive species, 
Nevada land managers face significant challenges.

    1a. Dr. Rosenberg, should city and state officials in Nevada have 
the ability to consult directly with the Department of the Interior 
experts about how they expect water resources of fuel loads to change 
in the future, or should people in Washington decide whether those 
conversations should happen?

    Answer. The information produced by experts at the Department of 
the Interior ought to be clear, complete, and free from political 
influence so that city and state decision makers can rely on such 
information without concern over the authenticity of the science. To 
that end, it is important that scientists at the Department are able to 
communicate their findings to each other, other agencies, 
Administration officials, and the public, without fear of censorship or 
retribution. Local officials need to be able to have access to the 
expertise that they need to do their critical jobs. But no local agency 
has the scientific expertise of the Federal Government. Therefore it is 
incumbent upon the Federal Government to make that expertise as 
available as possible to all levels of government and the public.

    1b. In follow up to issue of transparency, should reporters who 
work for local newspapers, including those in Nevada, be able to speak 
directly with taxpayer-funded Federal Government experts about their 
research and expertise? Is it right that they should be limited to 
consult press releases from DC political appointees?

    Answer. Similar to my response above, it is important that 
scientists at the Department are able to communicate their findings to 
each other, other agencies, Administration officials, and the public 
(which includes members of the press), without fear of censorship or 
retribution.

                                 ______
                                 

    The Chairman. Thank you very much, Dr. Rosenberg.
    The Chair now recognizes Mr. Joel Clement. Sir, the floor 
is yours.

 STATEMENT OF JOEL CLEMENT, SENIOR FELLOW, ARCTIC INITIATIVE, 
 BELFER CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD 
              UNIVERSITY, CAMBRIDGE, MASSACHUSETTS

    Mr. Clement. Thank you, Chairman Grijalva and Ranking 
Member Bishop, for the opportunity to testify about the 
challenge of ensuring integrity, both scientific and otherwise, 
at the Interior Department.
    As a 7-year senior executive at Interior and someone who 
stays in close touch with the scientists and experts still 
there, I would like to offer some insight into current 
conditions at the agency. By way of example, I will recap how I 
was treated by agency leadership, and I will conclude with some 
recommendations to address the problems we are here to discuss.
    As Director of the Office of Policy Analysis, it was my job 
to understand the most recent scientific and analytical 
information regarding matters that affected the mission of the 
agency and to communicate that information to agency 
leadership. I never assumed that agency leadership would make 
their decisions based entirely on that information, but I did 
assume they would take it into consideration.
    And that proved true for the first 6 years of my time at 
Interior. It all ended with the arrival of the Trump political 
team which, as I will describe later on, has sidelined 
scientists and experts, flattened the morale of the career 
staff, and by all accounts is bent on hollowing out the agency.
    The career staff at Interior are not partisan in their 
work. They have a job to do and they do it well. Of course, 
they know that an incoming Republican administration is likely 
to favor resource extraction over conservation, and the vice 
versa is true, but they have pledged to support and defend the 
Constitution and advance the mission of the agency, regardless 
of their beliefs.
    But what if their leaders are trying to break down the 
agency? What if their directives run counter to the agency 
mission, as directed by Congress? What if the political 
appointees are intentionally suppressing the science that 
indicates they are doing more harm than good, and putting 
Americans and the American economy at risk?
    These days, career staff have to ask themselves these 
questions nearly every day, or at least decide where their red 
line is. For me, the Trump administration crossed it by putting 
American health and safety at risk and wasting taxpayer 
dollars. Here is how that went down.
    Science tells us that rapid climate change is impacting 
every single aspect of the agency mission, and it was my job to 
evaluate and explain these threats. For example, as the Federal 
trustee for American Indians and Alaska Natives, Interior is 
partially responsible for their well-being. But with over 30 
Alaska Native villages listed by the Government Accountability 
Office as acutely threatened by the impacts of climate change, 
it should be a top priority for Interior to help get these 
Americans out of harm's way as soon as possible.
    I was working with an interagency team to address this 
issue and speaking very publicly about the need for DOI to 
address climate impacts, and I paid the price. One week after 
speaking at the U.N. on the importance of building climate 
resilience, I received an evening e-mail telling me I had been 
reassigned to the auditing office that collects royalty checks 
from the oil, gas, and mining industries. I have no experience 
in accounting or in auditing. It was pretty clear to me and my 
colleagues that this was retaliation for my work highlighting 
Interior's responsibilities as they pertain to climate change 
and protecting American citizens.
    So, I blew the whistle. I was not alone. Dozens of other 
senior executives received reassignment notices in that night's 
purge. The ensuing Inspector General investigation revealed the 
political team had broken every single one of the Office of 
Personnel Management guidelines for reassigning senior 
executives, and they left no paper trail to justify their 
actions.
    Very importantly, in my view, they sent a signal that 
scientific information, and the needs of Americans in danger, 
were no longer a priority. This is just one example of how the 
agency has been sidelining experts, but there are many more 
instances of the agency directly suppressing science.
    Among them are reports that Secretary Bernhardt ignored and 
failed to disclose over a dozen internal memos expressing 
concern about the impacts of oil and gas exploration on the 
Arctic National Wildlife Refuge; Former Secretary Zinke 
canceling a National Academy study on the health impacts of 
coal mining right before lifting a moratorium on coal leasing; 
Zinke again instituting a political review of science grants 
led by an old football buddy that has bottlenecked research 
funding and led to canceled research; and the U.S. Geological 
Survey eliminating their entire climate change mission area.
    The list goes on and on. Not only does this group ignore 
science and expertise, they cross the line by actively 
suppressing it at the expense of American health and safety, 
our public lands, and the economy. They are intentionally 
leaving their best player on the bench. This is not what public 
service looks like.
    Political appointees have shown no hesitation to reassign, 
relocate, or otherwise make life difficult for career 
employees. As a result, agency scientists are self-censoring 
their reports and deleting the term ``climate change'' to avoid 
being targeted. They are being barred from speaking to 
reporters without advance permission. They face new barriers to 
attending professional conferences. And their work is being 
incompletely communicated to the public if it is shared at all.
    It goes without saying that this is a betrayal of the 
public trust and that this culture of fear, censorship, and 
suppression is cheating American taxpayers. These are dark 
times for science. The abuses have been taken to an extreme, 
and I am sure nearly everyone in this room agrees we need to do 
better on these things.
    More broadly, we have seen a collapse of ethics and 
integrity norms at the agency in general. The question is, what 
can Congress do now to ensure that the Federal science 
enterprise and the agency itself can rebound?
    I have a few recommendations that I will not have time to 
get to as my time is up. I can certainly address those during 
the Q&A. But thank you very much again for the opportunity to 
testify.

    [The prepared statement of Mr. Clement follows:]
                   Prepared Statement of Joel Clement
    Thank you Chairman Grijalva and Ranking Member Bishop for the 
opportunity to testify about the challenge of insuring integrity, both 
scientific and otherwise, at the Interior Department.
    As a 7-year senior executive at the Interior Department, and 
someone who stays in close touch with the scientists and experts still 
holding strong in the agency, I'd like to offer some insight into 
current conditions at the agency. By way of example, I'll recap how I 
was treated by agency leadership as I continued to call for strong 
actions to protect vulnerable Americans threatened by the impacts of 
climate change. I'll conclude with some recommendations to address the 
problems we're here to discuss.
                        when to say ``enough?''
    As Director of the Office of Policy Analysis, it was my job to 
understand the most recent scientific and analytical information 
regarding matters that affected the mission of the agency, and to 
communicate that information to agency leadership. I never assumed that 
agency leadership would make their decision based entirely upon that 
information, but I did assume that they would take it into 
consideration. That proved true for 6 years as my office provided the 
latest economic and scientific information to leaders looking for 
sustainable solutions.
    That all ended with the Trump political team, which, as I'll 
describe, has sidelined scientists and experts, flattened the morale of 
the career staff, and by all accounts is bent on hollowing out the 
agency.\1\
---------------------------------------------------------------------------
    \1\ Science Under Siege at the Department of the Interior (2018): 
https://www.ucsusa.org/our-work/center-science-and-democracy/science-
under-siege-department-interior-2018.
---------------------------------------------------------------------------
    The career staff at Interior are not partisan in their work, they 
have a job to do and they do it well. Of course they know that an 
incoming Republican administration will focus on resource extraction 
rather than conservation, but they've pledged to support and defend the 
Constitution and advance the mission of the agency, not their own 
political agenda. They do their job.
    But what if their leaders are trying to break down the agency? What 
if their directives run counter to the agency mission as dictated by 
Congress? What if political appointees are intentionally suppressing 
the science that indicates they are doing more harm than good, and 
putting Americans and the American economy at risk?
    These days career staff have to ask themselves these questions 
nearly every day, or at least decide where their red line is. For me, 
the Trump administration crossed it by putting American health and 
safety at risk and wasting taxpayer dollars.
                       putting americans at risk
    Rapid climate change is impacting every single aspect of the agency 
mission, and it was my job to evaluate and explain these threats. For 
example, as the Federal trustee for American Indians and AK Natives, 
Interior is partially responsible for their well-being. With over 30 
Alaska Native villages listed by the Government Accountability Office 
as acutely threatened by the impacts of climate change, it should be a 
top priority for Interior to help get these Americans out of harm's way 
as soon as possible.
    I was working with an interagency team to address this issue and 
speaking very publicly about the need for DOI to address climate 
impacts, and paid the price. One week after speaking at the United 
Nations on the importance of building resilience to climate change, I 
received an evening e-mail telling me I'd been reassigned to the 
auditing office that collects royalty checks from the oil, gas, and 
mining industries. I have no experience in accounting or auditing.
    It was pretty clear to me and my colleagues that this was 
retaliation for my work highlighting Interior's responsibility to 
address climate change and protect American citizens, so I blew the 
whistle.
    I was not alone. Dozens of other senior executives received 
reassignment notices in that night's ``purge.'' The ensuing Inspector 
General investigation revealed that the political team had broken every 
single one of the Office of Personnel Management guidelines for 
reassigning senior executives, and left no paper trail to justify their 
actions.\2\ They checked every box for management failure, including 
discrimination, as over a third of the reassigned executives were 
American Indian. Most importantly, in my view, they sent a signal that 
scientific information, and the needs of Americans in danger, were no 
longer a priority.
---------------------------------------------------------------------------
    \2\ Reassignment of Senior Executives at the U.S. Department of the 
Interior (2018): https://www.doioig.gov/reports/reassignment-senior-
executives-us-department-interior.
---------------------------------------------------------------------------
    This is just one example of how the agency has been sidelining 
experts and science. Dr. Caffrey's story is another. To make matters 
worse, there are many instances of the agency directly suppressing 
science. Among them are reports of Secretary Bernhardt ignoring and 
failing to disclose over a dozen internal memos expressing concern 
about the impacts of oil and gas exploration in the Arctic National 
Wildlife Refuge; former Secretary Zinke canceling a National Academy 
study on the health impacts of coal mining right before lifting a 
moratorium on coal leasing; and Zinke instituting a political review of 
science grants, led by an old football buddy, that bottlenecked 
research and led to canceled studies.
    The list goes on and on and other witnesses will provide examples. 
Not only does this group ignore science and expertise, they cross the 
line by actively suppressing it--at the expense of American health and 
safety, our public lands, and the economy. They are intentionally 
leaving their best player on the bench.

    This is not what public service looks like.
                           ``they broke it''
    The morale has bottomed out in the agency as career staffers are 
looking over their shoulders and trying to keep their heads down. 
Political appointees have shown no hesitation to reassign, relocate, or 
otherwise make life difficult for career employees--particularly the 
scientists and experts that they consider a threat. As I noted in my 
testimony to the Science Committee last week, agency scientists are 
self-censoring their reports and deleting the term climate change to 
avoid being targeted by political appointees, they are barred from 
speaking to reporters without advance permission from the agency, they 
face new barriers to attending the professional conferences that are 
part of the job, and their work is being incompletely communicated to 
the public, if shared at all.
    Secretary Bernhardt has even restricted telework despite its 
overwhelming success in achieving management outcomes; unable to treat 
professionals like professionals, he is now struggling to treat them 
like adults.
    These conditions do not reflect a culture of scientific integrity, 
but a culture of fear, censorship, and suppression that is keeping 
incredibly capable Federal scientists from sharing important 
information with the public or participating as professionals in their 
field.
    I'll never forget one conversation I had with a career staffer who 
was bearing witness as the political appointees hollowed out the agency 
and crushed morale. Practically in tears, she quietly said ``they broke 
it, they broke the agency.''
    This is no accident. As empowered by Congress, an effective 
Interior Department with high-functioning bureaus and offices operates 
on behalf of Americans to ensure the conservation or sustainable use of 
our natural resources into the future, it looks out for American 
Indians and Alaska Natives, and it prevents private industries from 
laying waste to public lands.
    If, however, the agency is being led by representatives from those 
very same industries, it is in their interest to hobble the agency so 
that even when they are no longer in the driver's seat, the agency will 
struggle to enforce regulations and stand against them. An added bonus 
to hobbling the agency and its scientific enterprise is that it also 
compromises the public's trust in the agency, furthering an industry-
first agenda.

    It goes without saying that this is a betrayal of the public trust.
                            recommendations
    These are dark times for science, the abuses have been taken to an 
extreme and I'm sure nearly everybody in this room agrees that we have 
to do better. More broadly, we've seen a collapse of ethics and 
integrity norms at the agency. The question is what can Congress do now 
to ensure that the Federal science enterprise and the agency itself can 
rebound?

    I have four suggestions, for starters.

  1.  Support, strengthen, and pass the Scientific Integrity Act--it 
            provides essential protections to prevent political 
            interference in science and the harassment of scientists 
            and experts. DOI's existing policy is one of the best and 
            yet it has proven of very little use in the face of hostile 
            leadership. We need a law in place to put some teeth in 
            these policies and provide reliable enforcement.

  2.  Require that scientific integrity be one of several new ethics 
            and integrity goals that must be included in the agency's 
            GPRA (Government Performance and Results Act) performance 
            plan. The integrity and ethics failings among the political 
            appointees at DOI are legion, and Congress should require 
            that OMB do its job by collecting quarterly reports on 
            DOI's progress addressing these measures, and providing 
            them to Congress in a timely fashion.

  3.  The Federal science enterprise depends upon a full complement of 
            staff and scientists who keep it firing on all cylinders. 
            Right now it's barely running due to harassment and long-
            term vacancies. Congress should consider setting a ceiling 
            for science vacancies, and, when that threshold is crossed, 
            require that the agency prioritize science hires and make 
            it easier to attract and hire new talent.

  4.  Multiple lines of scientific evidence have definitively shown 
            that we are in the early stages of a catastrophic climate 
            crisis. Risks to American health and safety and the 
            American economy are rapidly increasing, and the costs of 
            adapting and responding to the crisis will soon skyrocket. 
            Congress should require Interior to ``climate-proof'' it's 
            operations by (a) placing an immediate moratorium on new 
            fossil fuel leases on Federal lands and sunsetting unused 
            leases, (b) re-purposing leasing staff to develop and 
            implement a long-term carbon sequestration plan for public 
            lands ecosystems, (c) reinstating and implementing the 
            agency's climate change adaptation policy, and (d) 
            reinstating the National Park Service Director's Order 
            #100, generated in collaboration with the National Academy 
            and at least one Nobel Prize laureate, which modernized NPS 
            management approaches to address 21st century issues such 
            as climate change.

    Thank you again for the opportunity to testify to the Committee.

                                 *****

Addendum 1: Links to Whistleblower OpEd and Resignation Letter

    By way of describing the circumstances that led to my whistleblower 
action and my eventual resignation 10 weeks later, I have submitted two 
additional documents for the record, my Washington Post Op-Ed the day I 
filed the whistleblower complaint, and my resignation letter. These 
documents can also be found at the following links:

https://www.washingtonpost.com/opinions/im-a-scientist-the-trump-
administration-reassigned-me-for-speaking-up-about-climate-change/2017/
07/19/389b8dce-6b12-11e7 -9c15-
177740635e83_story.html?utm_term=.ba43538db554

    and

https://apps.washingtonpost.com/g/documents/national/read-joel-
clements-resignation-letter/2566/

Addendum 2: Integrity Standards

    During my time as Director of the Office of Policy Analysis, I 
worked with staff to articulate our core values as an organization. I 
think it's worth listing those values here to demonstrate the integrity 
of career staff at Interior, and what is at stake when the political 
leadership does not share or demonstrate those values:
Core Values

    The Office of Policy Analysis (PPA) embraces the following set of 
core values associated with its analysis, work products, staff, 
professional relationships, and coordination activities:

    <bullet> Objectivity. PPA work products are based on objective 
            analysis, responsive to decision makers' needs, bureau-
            neutral, well-written, and intellectually honest. Neutral 
            competency is essential to the integrity of the office.

    <bullet> Quality. PPA staff are held to high standards and have the 
            ability to approach work assignments in an analytic, 
            systematic, and task-oriented fashion. They are able to 
            work independently or as part of a team, can handle 
            multiple assignments simultaneously, and are able to 
            proactively respond to emerging issues.

    <bullet> Opportunity. The PPA leadership team believes in a level 
            playing field for all staff and ensures that staff members 
            are valued and recognized for their contributions. Staff 
            members have short- and long-term opportunities to 
            strengthen their intellectual capital both through work 
            assignments and training. PPA fosters cognitive diversity 
            in an open, interactive work environment to facilitate the 
            free exchange of ideas. Leadership provides mentorship for 
            junior staff with an eye to developing the leaders of the 
            future, and in general endeavors to establish an office 
            that is seen as a good career move for emerging leaders.

    <bullet> Collaboration. PPA leadership and staff are encouraged to 
            develop productive professional relationships both internal 
            and external to the office, including but not limited to 
            engaging in collaborative work with the bureaus, other DOI 
            offices, other government agencies, and academia.

    <bullet> Expertise. PPA has the diversity and intellectual capacity 
            to effectively address the wide range of issues that face 
            the Department and its diverse bureau responsibilities.

    <bullet> Integrity. PPA staff demonstrates integrity through 
            honesty, efficiency and reliability.

                                 ______
                                 

 Questions Submitted for the Record to Mr. Joel Clement, Senior Fellow,
  Arctic Initiative, Belfer Center for Science and Democracy, Harvard 
                               University
                  Questions Submitted by Rep. Grijalva
    Question 1. Last month, President Trump issued an Executive Order, 
titled ``Evaluating and Improving the Utility of Federal Advisory 
Committees.'' This order gives Federal agencies until September 30, 
2019 to terminate at least one-third of all of their Federal advisory 
committees.

    1a. Can you please explain the role of these Federal advisory 
committees at the Department of the Interior?

    Answer. Federal Advisory Committees allow agencies to incorporate a 
wide range of expertise, scientific and otherwise, into decisions and 
processes that affect Americans. They also allow for engagement of the 
public and insure a transparent and fair means for gaining input from a 
variety of stakeholders, including industry, non-governmental 
organizations, academia and the public. There are many such committees 
involved in the work of the Interior Department, from advising National 
Park Service and BLM management of public lands and resources to 
providing priorities and agendas for the Landscape Conservation 
Cooperatives.

    1b. How does this Executive Order affect scientific integrity at 
Federal agencies?

    Answer. By establishing an arbitrary limit on Advisory Committees, 
the Trump administration is sending a signal that expertise is not 
valued, that scientific input is unwelcome, and that the number of 
Advisory Committees is more important that the management outcomes that 
they inform. This order reduces transparency and helps to remove 
scientific expertise from management deliberations, enabling 
politically-driven decision making for the benefit of special interests 
such as fossil fuel industries.

    1c. Based on what we have seen so far in the Trump administration, 
how do you think agencies will decide which advisory committees to 
terminate? Do you believe that the process will be conducted with 
objectivity and transparency?

    Answer. This order provides Interior leadership with permission to 
terminate Advisory Committees on purely political grounds. Committees 
with a proven record of balancing out the influence of fossil fuel or 
mining industries will likely be eliminated, as will those that provide 
unbiased scientific expertise. Based on their performance thus far, the 
political leadership of the agency is unlikely to proceed in a 
transparent or objective fashion.

    Question 2. In his opening statement, Ranking Member Rob Bishop 
referred to the decreasing number of scientific integrity complaints at 
the Department of the Interior during the Trump administration. Is the 
number of scientific integrity complaints an adequate measure of a 
scientific integrity problem in an organization?

    Answer. The number of complaints is a highly misleading, and 
perhaps contradictory, measure of scientific integrity. To register a 
formal complaint, a career scientist must have a high degree of trust 
that agency leaders will address the complaint fairly. Such trust would 
not exist in an administration that is hostile to science unless there 
is a statutory process for overcoming that hostility. In my experience, 
and from the feedback I've received from career scientists currently at 
Interior, registering a scientific integrity complaint is seen as a 
risky career move to be avoided. SI complaints will probably be rare 
during this administration.

    Question 3. In May, this Committee held a hearing to examine the 
President's budget at the Department of the Interior, at which 
Secretary Bernhardt testified. During the hearing, Secretary Bernhardt 
said he's ``not losing any sleep over climate change.''

    3a. As the Director of the Office of Policy Analysis at Interior, 
you worked with Alaskan Native communities in helping them prepare for 
and adapt to climate change. Would you agree with Secretary Bernhardt's 
level of concern about climate change?

    Answer. I do not agree. Multiple lines of evidence and a high 
degree of scientific certainty indicate that the health and safety of 
Americans, particularly those most vulnerable to the impacts of climate 
change, are severely threatened by the impacts of climate change. This 
means that Alaska Native communities--and the missions of every bureau 
at the Interior department--are similarly at risk. With his remarks, 
Secretary Bernhardt has shown that he is either unimaginably ignorant 
of the weight of scientific evidence or callously indifferent to the 
risks described above.

    3b. Do you think the Alaskan Native communities with which you 
worked would agree with Secretary Bernhardt?

    Answer. Frontline Alaska Native communities are struggling to 
maintain health, safety, and their way of life and, in some cases, 
prevent their villages from disappearing due to the impacts of a 
rapidly warming Arctic. The communities at risk in the Arctic would not 
agree with Secretary Bernhardt's blithe disregard for their health and 
safety.

    3c. How do you think Secretary Bernhardt's statement impacts the 
morale of scientific community at Interior that has dedicated their 
public service careers to understanding and planning for the impacts of 
climate change on public lands and on communities like those with which 
you worked?

    Answer. The morale of the career staff at Interior, scientists and 
non-scientists alike, has plummeted as political appointees disregard 
their work and intentionally undermine the mission of the agency. 
Scientists assessing and addressing climate impacts have devoted their 
lives to this important work. Secretary Bernhardt's statement caused 
hearts to sink across the career ranks, adding insult to injury. 
Scientists feel particularly beset because they are witnessing systemic 
disregard for their work across the agency, and the Administration more 
generally.

    Question 4. Mr. Clement, please describe other ways that the 
Department of the Interior officials have sidelined science from the 
policy process or otherwise politicized science in ways previously 
unseen. Are there methods other than scientific integrity policies that 
would help prevent these kinds of practices?

    Answer. One particularly egregious and unprecedented action is 
forcing the National Academy of Science to cancel and cease important 
research underway on behalf of Americans at risk. There are now 
multiple examples of this under President Trump's Interior Department. 
One canceled study related to the health impacts of mountaintop coal 
mining to nearby communities--a study requested by the communities 
themselves. Former Secretary Zinke canceled that study midstream 
without explanation. A second study Secretary Zinke canceled related to 
the health and safety of offshore oil rig workers. Both studies were 
intended to gather information and produce recommendations that would 
reduce risk to Americans, but both studies were seen as a threat by 
fossil fuel interests and therefore targeted by the Trump 
administration. Interior has also politicized research at the agency by 
requiring that all science grants over $50,000 be reviewed in advance 
by a political appointee with no science background.

    Question 5. Mr. Clement, why do you think that formal scientific 
integrity complaints at the Department of the Interior are down? Does 
this demonstrate that the Trump administration is more science-friendly 
than the Obama administration?

    Answer. Interior political appointees claim that scientific 
integrity complaints are down, and I would expect that to be true. 
However, they insist that this is an indication of improvements in 
scientific integrity, which is likely false. It's more likely the 
opposite is true. Scientists at the agency are not likely to register a 
scientific integrity complaint in an agency that has suppressed 
science, marginalized and retaliated against scientists, and 
demonstrated hostility to the role of science in decision making. In 
this environment there is absolutely no incentive to attract attention 
to yourself or risk your research by complaining. By all accounts, 
including a survey of Federal scientists conducted by the Union of 
Concerned Scientists, scientific integrity has hit an all-time low 
under the Trump administration.

    Question 6. Mr. Clement, in your experience, why would scientists 
at Federal agencies need to speak freely about their work, and, what 
impact does censoring scientists have on the work of the agency, the 
work of the scientists, and the public at large?

    Answer. American taxpayers are funding this research and have a 
right to learn about the findings and implications for their health and 
safety, the economy, and the Federal lands estate. In the case of 
Interior, this research provides some of the best evidence and guidance 
for managing public lands and waters effectively and acting as a 
responsible trustee for American Indians and Alaska Natives. 
Transparency of science and inquiry are fundamental to a democratic 
society, and evidence of censoring such work on behalf of special 
interests is a major red flag for democracy.

    Question 7. Mr. Clement, what benefit do Landscape Conservation 
Cooperatives provide for the public, and how are LCCs being undermined?

    Answer. LCCs were established to provide non-partisan, stakeholder-
informed research and management guidance in the face of environmental 
change. When fully operational, they covered the entire United States, 
and each LCC was guided by a steering committee comprised of state, 
local, and Federal Government officials, tribal members, non-profit 
organizations, and local business and economic interests. Such multi-
stakeholder bodies are difficult and time-consuming to set up but once 
operational provide very robust tools and information tailored to the 
needs and priorities of local users--and this was certainly true of the 
LCCs, which were deeply appreciated by local communities and 
stakeholders. The Trump administration has undermined the LCCs by de-
funding them (despite continued appropriations from Congress to keep 
them going) and shutting down the steering committees that provide them 
with their work plans. Because of the strong local interest in the 
products of the LCCs, a few have continued to limp along with support 
from local and state officials, but for the most part the program has 
been shut down despite ongoing interest from Congress and local 
officials to keep it going.

    Question 8. Mr. Clement, why are strong scientific integrity 
policies needed to protect the Federal work force from stagnation and 
attrition?

    Answer. The Federal science enterprise is driven by smart, devoted 
career scientists who came to public service to make a difference. 
Without assurances that they will be able to publish, present their 
findings, and collaborate with colleagues to advance their field, the 
careers of these scientists would suffer, their research would falter, 
and they would see no upside to public service. Scientific integrity 
policies are necessary to keep these committed public servants on board 
and attract the best and brightest to Federal service.

    8a. What are the impacts to the country of a Federal work force 
that lacks scientists to do research?

    Answer. Without scientists and experts to inform policy and 
management, the information necessary to guide policy will come from 
special interests, such as fossil fuel industries or chemical 
manufacturers with the resources to influence the agencies. This is 
made easier when the political appointees responsible for policy and 
management are hired directly from those industries. This is a major 
red flag for a functioning democracy.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Clement.
    I now recognize Mr. Daren Bakst, and I hope I said the last 
name right.
    Mr. Bakst. You did. Thank you.
    The Chairman. The floor is yours, sir.

STATEMENT OF DAREN BAKST, SENIOR RESEARCH FELLOW, ROE INSTITUTE 
     FOR ECONOMIC POLICY STUDIES, THE HERITAGE FOUNDATION, 
                         WASHINGTON, DC

    Mr. Bakst. Thank you. Chairman Grijalva, Ranking Member 
Bishop, and distinguished members of the Committee, thank you 
for this opportunity to discuss scientific integrity at the 
Department of the Interior and in the Federal Government. My 
name is Daren Bakst, and I am a Senior Research Fellow at The 
Heritage Foundation. The views I express in this testimony are 
my own and should not be construed as representing any official 
position of The Heritage Foundation.
    Concerns regarding scientific integrity in the Federal 
Government are nothing new. A President Barack Obama 2009 
memorandum on scientific integrity explained ``that the public 
must be able to trust the science and scientific process 
informing public policy decisions.'' I would add that the 
science and scientific process should be deserving of the 
public's trust. So, what can be done to better achieve those 
objectives? I would like to highlight three important 
solutions.
    The first is that Congress should strengthen the 
Information Quality Act. About 20 years ago, Congress passed 
the IQA. What better way to build public trust in the science 
than to allow the public itself to have the direct means to 
participate in improving the integrity of the science? That is 
what the IQA does. It helps to ensure the accuracy of the 
information disseminated by Federal agencies, along with 
ensuring that such information is reliable and unbiased.
    Admitted, the IQA's potential to ensure scientific 
integrity has been undermined by insufficient agency 
accountability, and judicial decisions have held the IQA does 
not authorize judicial review. To its credit, the Trump 
administration recently issued a new memorandum on ways to 
improve implementation of the IQA. Congress, though, needs to 
put teeth into the IQA, such as by clarifying that the law does 
allow for judicial review.
    My second recommendation is to promote the transparency of 
the science. Once again, the Trump administration should be 
commended for its efforts in this regard. The EPA, through what 
is referred to as its secret science rule, is proposing that 
the data and methodology underlying its regulatory science will 
be made publicly available. This transparency effort should 
apply across the Federal Government, with adequate protections 
for privacy and confidential information.
    This whole issue is like math classes we all took. The 
teacher says to show your work, and that is what the agencies 
need to do as well. There have been claims that outside peer 
review by itself is sufficient. But the independence of peer 
review is not something that can merely be assumed, especially 
when many of the peers could be close colleagues.
    It is one thing when the peer review process is purely for 
academic purposes. But once studies are being used as the basis 
for public policies to have serious implications for the lives 
of Americans, the standards must be strengthened.
    I would like to stress this point. When we are dealing with 
rulemakings and other policy formulation, the self-interests of 
scientists inside and outside government do not take precedence 
over the protections in place to encourage public participation 
and our open system of government.
    Finally, my third recommendation is for Congress and 
agencies to ensure that science and policy are not conflated 
together. There is plenty of legitimate concern about 
scientific integrity. But criticizing policy makers for looking 
beyond the science to answer policy and legal questions is not 
one of those legitimate concerns.
    Science does not answer policy questions. Science can 
inform policy decisions by providing answers to objective 
questions without making value judgments. Therefore, for 
example, agencies should ask advisory committees to answer 
science questions only.
    When legislators ask agencies to answer science questions, 
such questions should truly be those that do not involve 
scientific factors. Let me give you an example. The listing of 
threatened and endangered species should be based solely on the 
science. But since listings trigger regulatory requirements, 
the involved non-science-related concerns to promote scientific 
integrity, such as in the ESA, the listing decisions should be 
decoupled from any regulatory implications.
    In conclusion, scientific integrity is something that, 
regardless of ideology, we should all support. There might be 
differences in what solutions we think are necessary, but 
increasing public participation and improving the quality of 
the science should be widely supported goals.
    Thank you, and I look forward to your questions.

    [The prepared statement of Mr. Bakst follows:]
     Prepared Statement of Daren Bakst, Senior Research Fellow in 
              Agricultural Policy, The Heritage Foundation
    My name is Daren Bakst. I am the Senior Research Fellow in 
Agricultural Policy at The Heritage Foundation. The views I express in 
this testimony are my own and should not be construed as representing 
any official position of The Heritage Foundation.
    I want to thank the members of the House of Representatives 
Committee on Natural Resources for this opportunity to discuss 
scientific integrity at the Department of the Interior and in the 
Federal Government in general.
                            a brief overview
    President Barack Obama, in a 2009 memorandum on scientific 
integrity, explained that ``The public must be able to trust the 
science and scientific process informing public policy decisions.'' \1\ 
This is a useful starting point in discussing scientific integrity in 
the Federal Government. It is also important that the science and the 
scientific process are in fact deserving of the public's trust.
---------------------------------------------------------------------------
    \1\ Executive Office of the President, ``Presidential Memoranda: 
Memorandum for the Heads of Executive Departments and Agencies 3-9-
09,'' Federal Register, Vol. 74, No. 46 (March 11, 2009), p. 10671, 
https: / / www.federalregister.gov / documents / 2009 / 03 / 11 / E9-
5443/scientific-integrity (accessed July 24, 2019).
---------------------------------------------------------------------------
    This need for trust in the science also goes beyond the science 
directly used in policy decisions. Whenever the Federal Government 
disseminates scientific information, the imprimatur of the government 
carries significant weight. The results of a single Federal scientific 
study may, for example, be widely disseminated in media reports shaping 
public opinion or be utilized by other Federal agencies in their 
rulemakings.
    Often, questions of scientific integrity focus on improper 
political interference in science decisions. This is only part of the 
picture. The politicization of science is not merely some after-the-
fact decision by political officials to stifle science. It also 
includes processes in which sound science is undermined because the 
best science is not utilized, the science has significant flaws, 
qualified people are not involved, or there is insufficient vetting of 
the science (including through inadequate or a lack of public 
participation).
    Actions undermining scientific integrity are not limited to 
political officials meddling with the science. It also includes those 
in science going beyond the science and seeking to answer inherently 
policy-oriented questions. This can be a result of them, on their own, 
going beyond their responsibilities or it can be a function of them 
being asked to answer questions that are policy-oriented and subjective 
in nature.
          concerns regarding scientific integrity are not new
    While the title of today's hearing suggests a focus on the Trump 
administration, there is nothing new about concerns regarding 
scientific integrity in the Federal Government. Over the years, such 
concerns have spanned administrations and they cover numerous ways that 
the integrity of the science has come into question. For example:

    President Jimmy Carter fires USGS Director. In his first year of 
office, President Jimmy Carter fired Vincent McKelvey, the Director of 
the United States Geological Survey (USGS); then considered an 
apolitical position. Both Democrat and Republican legislators were 
concerned about political interference at the USGS, including 
Republican concern that he was fired over disagreements over the amount 
of oil and gas in the ground.\2\
---------------------------------------------------------------------------
    \2\ Emily Berman and Jacob Carter, ``Policy Analysis: Scientific 
Integrity in Federal Policymaking Under Past and Present 
Administrations,'' Journal of Science Policy & Governance, Vol. 13, 
Issue 1 (September 2018), p. 6, http://www.sciencepolicyjournal.org/
uploads/5/4/3/4/5434385/berman_emily_carter_jacob.pdf (accessed July 
24, 2019).

    In 1977, Rep. Jack Kemp (R-NY) made his views known on the House 
---------------------------------------------------------------------------
Floor:

        I do not believe it is a coincidence that McKelvey's forced 
        removal from his post as Director of the U.S. Geological 
        Survey, which is unprecedented in its history, followed closely 
        on the heels of an important speech given by McKelvey to the 
        TSAI forum in Boston on June 13. In that speech McKelvey 
        refused the notion that the United States is rapidly running 
        out of energy. There are vast amounts of hydrocarbons sealed 
        away in forms not presently recoverable economically, such as 
        gas in tight formations in the Rocky Mountains, gas in black 
        shales in the Eastern United States, and gas occluded in coal 
        beds throughout the country . . . I believe that this treatment 
        of any Government official who deviates from the official 
        administration line that the United States is on the very brink 
        of running out of energy is an absolute scandal.\3\
---------------------------------------------------------------------------
    \3\ Jack Kemp (NY), ``Dr. Vincent McKelvey: Was He Replaced for 
Being Too Optimistic About Our Domestic Sources of Energy? '' 
Congressional Record (October 11, 1977), p. 33299, https://
www.govinfo.gov/content/pkg/GPO-CRECB-1977-pt26/pdf/GPO-CRECB-1977-
pt26-3-3.pdf (accessed July 24, 2019).

    Department of the Interior fires whistleblower working on 
scientific integrity. Dr. Paul Houser was a member of the team working 
---------------------------------------------------------------------------
on scientific integrity at the Department of the Interior.

    Ironically, he was allegedly a victim of the Department's lack of 
scientific integrity (when President Barack Obama was in office).\4\ 
According to Dr. Houser, ``After I questioned science reporting and 
summary documents related to the Klamath River Dam Removal Secretarial 
Decision, I faced systematic reprisal and my job was terminated on 
February 24, 2012.'' \5\
---------------------------------------------------------------------------
    \4\ See e.g. Paul Houser, ``Critique of the DOI Scientific 
Integrity Policy,'' Dr. Paul R. Houser Hydrometeorologist (August 8, 
2012), http://prhouser.com/houser/?p=929 (accessed July 24, 2019) and 
Kate Sheppard, ``Scientist Accuses Obama's Interior Department of 
Misconduct,'' Mother Jones (August, 14, 2012), https://
www.motherjones.com/politics/2012/08/interior-department-whistleblower-
science/ (accessed July 24, 2019).
    \5\ Paul Houser, ``Klamath Dam Removal Scientific Misconduct,'' Dr. 
Paul R. Houser Hydrometeorologist (April 19, 2012), http://
prhouser.com/houser/?p=331 (accessed July 24, 2019).

    Sue and settle and Endangered Species Act (ESA) listings. The 
listing of species and the designation of critical habitat under the 
ESA should be developed through a transparent process based on sound 
science. Yet, many species are listed as a result of lawsuits by 
advocacy groups that are settled behind closed doors.\6\ The case of 
the Hine's emerald dragonfly provides a good example of how sue and 
settle works. As explained by the U.S. Chamber of Commerce:
---------------------------------------------------------------------------
    \6\ See U.S. Government Accountability Office, ``Environmental 
Litigation: Information on Endangered Species Act Deadline Suits,'' 
GAO-17-304 (February 2017), https://www.gao.gov/assets/690/683058.pdf 
(accessed July 24, 2019); See also ``Sue and Settle: Regulating Behind 
Closed Doors,'' U.S. Chamber of Commerce (May 2013), https://
www.uschamber.com/sites/default/files/documents/files/
SUEANDSETTLEREPORT-Final.pdf (accessed July 24, 2019).

        In 2008, environmental advocacy groups sued FWS to protest the 
        exclusion of 13,000 acres of national forest land in Michigan 
        and Missouri from the final ``critical habitat'' designation 
        for the endangered Hine's emerald dragonfly under the 
        Endangered Species Act. Initially, FWS disputed the case; 
        however, while the case was pending, the new administration 
        [Obama administration] took office, changed its mind, and 
        settled with the plaintiffs on February 12, 2009. FWS doubled 
        the size of the critical habitat area from 13,000 acres to more 
        than 26,000 acres, as sought by the advocacy groups. Thus, FWS 
        effectively removed a large amount of land from development 
        without affected parties having any voice in the process. Even 
        the Federal Government did not think FWS was clearly mandated 
        to double the size of the critical habitat area, as evidenced 
        by the previous administration's willingness to fight the 
        lawsuit.\7\
---------------------------------------------------------------------------
    \7\ ``Sue and Settle: Regulating Behind Closed Doors,'' U.S. 
Chamber of Commerce (May 2013), https://www.uschamber.com/sites/
default/files/documents/files/SUEANDSETTLEREPORT-Final. pdf (accessed 
July 24, 2019) at pp. 21-22.

    The Fish and Wildlife Service may very well have agreed upon a 
listing and a critical habitat area that was not substantiated by the 
science. Even assuming it were, this type of closed process undermines 
scientific integrity because little faith can be placed in how the 
agency decision was reached. President Obama, in his scientific 
integrity memorandum, was right to discuss the public's trust both in 
---------------------------------------------------------------------------
the science and the scientific process.

    EPA proposed its water rule before its science report was 
finalized. The Obama administration's EPA developed a report called the 
``Connectivity of Streams and Wetlands to Downstream Waters: A Review 
and Synthesis of the Scientific Evidence.'' \8\ In January, 2015, the 
EPA announced the release of this final report in a fact sheet.\9\ At 
the end of the document, it states:
---------------------------------------------------------------------------
    \8\ Environmental Protection Agency, ``Connectivity of Streams and 
Wetlands to Downstream Waters: A Review and Synthesis of the Scientific 
Evidence,'' EPA/600/R-14/475F (January 2015), http://ofmpub.epa.gov/
eims/eimscomm.getfile?p_download_id=523020 (accessed July 24, 2019).
    \9\ Environmental Protection Agency, ``Connectivity of Streams and 
Wetlands to Downstream Waters: A Review and Synthesis of the Scientific 
Evidence,'' Federal Register, Vol. 80, No. 10 (January 15, 2015), p. 
2100, https: / / www.federalregister.gov/ documents / 2015 / 01 / 15 /
2015-00 339/connectivity-of-streams-and-wetlands-to-downstream-waters-
a-review-and-synthesis-of-the-scientific (accessed July 24, 2019).

        Now final, this scientific report can be used to inform future 
        policy and regulatory decisions, including the proposed Clean 
        Water Rule being developed by EPA's Office of Water and the 
        U.S. Army Corps of Engineers.\10\ [Emphasis added.]
---------------------------------------------------------------------------
    \10\ Environmental Protection Agency, ``Fact Sheet: Connectivity of 
Streams and Wetlands to Downstream Waters,'' http: / / ofmpub.epa.gov / 
eims / eimscomm.getfile?p_download_id=521414 (accessed July 24, 2019).

    There was a problem though. This scientific report was finalized 
after the proposed rule was published. As a result, the proposed rule 
was not informed by the report, and the public ended up providing 
comments on a proposal that did not take into account the ``scientific 
basis needed to clarify CWA jurisdiction,'' as the EPA explained was a 
purpose of the report.\11\
---------------------------------------------------------------------------
    \11\ Daren Bakst, ``EPA Inadvertently Makes Case against Its Own 
Power Grab,'' The Daily Signal (January 23, 2015), https://
www.dailysignal.com/2015/01/23/epa-inadvertently-makes-case-power-grab/ 
(accessed July 24, 2019).
---------------------------------------------------------------------------
    Further, those involved in developing the final report would have 
likely felt constrained in making changes that put into question the 
substance of the proposed rule; if a final rule is significantly 
different than a proposed rule, this can threaten an entire rulemaking 
and require the process to start over.\12\ According to the D.C. 
Circuit Court of Appeals, ``Given the strictures of notice-and-comment 
rulemaking, an agency's proposed rule and its final rule may differ 
only insofar as the latter is a `logical outgrowth' of the former.'' 
\13\
---------------------------------------------------------------------------
    \12\ To learn more about this issue, please see e.g. Daren Bakst, 
``EPA and the Corps Ignoring Sound Science on Critical Clean Water Act 
Regulations,'' Heritage Foundation, Issue Brief No. 4122 (January 8, 
2014), https://www.heritage.org/environment/report/epa-and-the-corps-
ignoring-sound-science-critical-clean-water-act-regulations (accessed 
July 24, 2019).
    \13\ Environmental Integrity Project v. U.S. Environmental 
Protection Agency, 425 F.3d 992 (D.C. Cir. 2005). There were other 
problems as well with the rule and the report, including the EPA 
deciding not to reopen the comment process on the final report. See 
Virginia Albrecht, Kerry McGrath, and Deidre Duncan, ``Insight: Court 
Says Water Rule Unlawful; Patchwork of Rules Left,'' Bloomberg 
Environment (June 20, 2019), https://news.bloombergenvironment.com/
environment-and-energy/insight-court-says-water-rule-unlawful-
patchwork-of-rules-left (accessed July 24, 2019).

    Dietary Guidelines veers off mission. Sometimes scientific 
integrity is undermined because of the scientists. They may go beyond 
the science in their work and even into unrelated substantive areas. 
This happened during the last Dietary Guidelines process. The Dietary 
Guidelines Advisory Committee (DGAC) was working on recommendations to 
provide the Departments of Agriculture (USDA) and Health and Human 
Services (HHS) regarding the 2015 Dietary Guidelines for Americans.\14\
---------------------------------------------------------------------------
    \14\ U.S. Department of Health and Human Services and U.S. 
Department of Agriculture, ``2015-2020 Dietary Guidelines for 
Americans. 8th Edition. December 2015,'' http://health.gov/
dietaryguidelines/2015/guidelines/ (accessed July 24, 2019).
---------------------------------------------------------------------------
    Instead of focusing on dietary and nutritional factors, the DGAC 
started to work on issues such as climate change and sustainability, 
and allow those issues to inform their advice. It would have been 
misleading to develop Guidelines not focused solely on nutritional 
objectives, and even potentially dangerous. For example, if the best 
nutritional advice recommends increasing meat consumption, but the DGAC 
deemed that environmental considerations suggest reducing meat 
consumption, it is not clear which objective would win out. Quite 
simply, there are many instances when environmental factors will not 
align with nutritional benefits for humans.\15\
---------------------------------------------------------------------------
    \15\ Daren Bakst, ``Extreme Environmental Agenda Hijacks Dietary 
Guidelines: Comment to the Advisory Committee,'' Heritage Foundation 
Commentary (July 17, 2014), https://www.heritage.org/public-health/
commentary/extreme-environmental-agenda-hijacks-dietary-guidelines-
comment-the (accessed July 24, 2019).
---------------------------------------------------------------------------
    These actions threatened the legitimacy of the Dietary Guidelines 
because the advisory committee that was supposed to work on science 
lost its focus.
                misconceptions about science and policy
    The above discussion has highlighted issues that are connected to 
scientific integrity. There are some issues though that may get put 
into the scientific integrity discussion, but their inclusion is 
unwarranted and actually can be harmful. The most prominent example is 
the conflating of science and policy.
    There is a misconception permeating public discourse that 
policymakers should look to scientists for the answers, even answers to 
policy questions. There is plenty of legitimate concern about 
scientific integrity, but criticizing policymakers for looking beyond 
the science to answer policy and legal questions is not one of those 
legitimate concerns.
    Science does not answer policy questions. Science can inform policy 
decisions by providing answers to objective questions, without making 
value judgments. Policy decisions though require value judgments and 
subjective decision making. For example, science can inform 
policymakers about the likelihood that a product may cause harm to 
humans, but it does not answer the inherent value question as to what 
is an acceptable level of risk.
    There is also the flawed assumption that scientists only answer 
science questions and their conclusions will be independent of personal 
opinion. This should be the case when scientists are expected to be 
answering science questions, but too often, it is not. The Dietary 
Guidelines example above illustrates how scientists sometimes 
inappropriately undermine the integrity of the science. They may use a 
scientific process and the guise of science to actually conduct policy 
analysis with policy conclusions, or allow their own beliefs to 
inappropriately influence what are supposed to be scientific 
conclusions.

    Susan Dudley, who is Director of the GW Regulatory Studies Center, 
explained these concerns in 2017 congressional testimony:

        It is this tendency to ``camouflag[e] controversial policy 
        decisions as science'' that Wendy Wagner called a ``science 
        charade'' and it can be particularly pernicious. For instance, 
        a 2009 Bipartisan Policy Center (BPC) 2009 report, Improving 
        the Use of Science in Regulatory Policy, concluded that ``a 
        tendency to frame regulatory issues as debates solely about 
        science, regardless of the actual subject in dispute, is at the 
        root of the stalemate and acrimony all too present in the 
        regulatory system today.'' Both of these problems, hidden 
        policy judgments and the science charade, can be the result of 
        officials falling prey to the ``is-ought fallacy'': incorrectly 
        mixing up positive information about what ``is'' with normative 
        advice about what ``ought to be.'' \16\ [Citations omitted].
---------------------------------------------------------------------------
    \16\ U.S. Senate. Hearing on Agency Use of Science in the 
Rulemaking Process: Proposals for Improving Transparency and 
Accountability. March 9, 2017. 115th Cong. 1st sess. (Statement of 
Susan E. Dudley, Director, GW Regulatory Studies Center). https://
www.hsgac.senate.gov/imo/media/doc/DUDLEY%20TESTIMONY.pdf (accessed 
July 24, 2019).

    When scientists integrate policy judgments into their scientific 
work, this hurts scientific integrity. More importantly, ``science'' 
that has such a policy focus is not even science.
            recommendations to improve scientific integrity
    There have been efforts to improve scientific integrity. As 
mentioned, President Obama issued a 2009 memorandum on scientific 
integrity. The Trump administration has also taken significant steps as 
well. The EPA has proposed an important rule to address secret science 
\17\ and issued a directive to end the practice of sue and settle.\18\ 
On April 24, 2019, the Office of Management and Budget (OMB) issued a 
memorandum \19\ to help improve the implementation of the Information 
Quality Act (IQA) by updating 2002 OMB Guidelines on the IQA.\20\
---------------------------------------------------------------------------
    \17\ Environmental Protection Agency, ``Strengthening Transparency 
in Regulatory Science,'' Federal Register, Vol. 83, No. 83 (April 30, 
2018), pp. 18768-18774, https: / / www.federalregister.gov / documents 
/ 2018 / 04 / 30 / 2018-09078 / strengthening-transparency-in-
regulatory-science (accessed July 24, 2019).
    \18\ Environmental Protection Agency, ``Administrator Pruitt Issues 
Directive to End EPA `Sue & Settle','' News Release (October 16, 2017), 
https://www.epa.gov/newsreleases/administrator-pruitt-issues-directive-
end-epa-sue-settle (accessed July 24, 2019).
    \19\ Office of Management and Budget, ``Memorandum for the Heads of 
Executive Departments and Agencies: Improving Implementation of the 
Information Quality Act,'' Executive Office of the President (April 24, 
2019), https://www.whitehouse.gov/wp-content/uploads/2019/04/M-19-
15.pdf (accessed July 24, 2019).
    \20\ Guidelines for Ensuring and Maximizing the Quality, 
Objectivity, Utility, and Integrity of Information Disseminated by 
Federal Agencies, 67 FR 8452 (Feb. 22, 2002), https://
www.federalregister.gov/documents/2002/02/22/R2-59/guidelines-for-
ensuring-and-maximizing-the-quality-objectivity-utility-and-integrity-
of-information.

    Strengthen the Information Quality Act. The IQA, enacted in 2000, 
makes it possible for the public to serve as a check on government 
dissemination of information and the soundness of agency science.\21\ 
The text of the IQA requires Federal agencies to ``issue guidelines 
ensuring and maximizing the quality, objectivity, utility, and 
integrity of information (including statistical information) 
disseminated by the agency.'' \22\
---------------------------------------------------------------------------
    \21\ Pub. L. No. 106-554, Sec. 1(a)(3) [Appendix C], Sec. 515, 
https://www.congress.gov/106/plaws/publ554/PLAW-106publ554.pdf 
(accessed July 24, 2019).
    \22\ Ibid.
---------------------------------------------------------------------------
    The IQA can help to ensure the accuracy of the information 
disseminated and promote transparency of the science used by agencies. 
The potential of the IQA to ensure scientific integrity has been 
undermined though by insufficient agency accountability and judicial 
decisions holding the IQA does not authorize judicial review.\23\
---------------------------------------------------------------------------
    \23\ See e.g. William Kelly, Jr., ``A Closer and More Current Look 
at the `Information Quality Act,' Its Legislative History, Case Law, 
and Judicial Review Issues,'' SSRN Electronic Journal, 10.2139/
ssrn.3122670 (March 2018), https://papers.ssrn.com/sol3/
papers.cfm?abstract_id= 3122670 (accessed July 24, 2019) and Curtis 
Copeland and Michael Simpson, ``The Information Quality Act: OMB's 
Guidance and Initial Implementation,'' Congressional Research Service 
(August 19, 2004), https://fas.org/sgp/crs/RL32532.pdf (accessed July 
24, 2019).
---------------------------------------------------------------------------
    One of the best ways to promote public trust in the science and the 
scientific process is to allow the public to have a means to directly 
challenge the science. There needs to be teeth put into IQA 
enforcement. This would involve requirements that agencies will respond 
thoughtfully and in a timely manner to public requests under the IQA. 
There would also be judicial review to ensure, in part, that agency 
science meets the established IQA guidelines, especially when informing 
policy decisions.

    Promote Transparency of the Science. In explaining its secret 
science rule, the EPA stated the, ``EPA will ensure that the regulatory 
science underlying its actions is publicly available in a manner 
sufficient for independent validation. Where available and appropriate, 
EPA will use peer-reviewed information, standardized test methods, 
consistent data evaluation procedures, and good laboratory practices to 
ensure transparent, understandable, and reproducible scientific 
assessments.'' \24\
---------------------------------------------------------------------------
    \24\ Environmental Protection Agency, ``Strengthening Transparency 
in Regulatory Science,'' Federal Register, Vol. 83, No. 83 (April 30, 
2018), pp. 18768-18774, https: / / www.federalregister.gov / documents 
/ 2018 / 04 / 30 / 2018-09078/strengthening-transparency-in-regulatory-
science (accessed July 24, 2019).

    If there is going to be public trust in the science, Federal 
agencies, not just the EPA, should utilize those scientific studies 
where the data and methodology is publicly available. This should be 
done in a manner that properly protects privacy and confidential 
information.
    Depending on journal peer review processes alone is insufficient. 
There can be a big difference in the quality of the peer review 
processes across journals. In addition, the independence of peer review 
is not something that can merely be assumed, especially when many of 
the peers could be close colleagues. It is one thing when the peer 
review process is used for strictly academic purposes, but once studies 
are being used as the basis for public policies that have serious real-
world impacts on the lives of Americans, the standards must be 
strengthened.

    Concern over peer review is not merely about independence but also 
about its limitations. Dr. George Wolff, a former Chairman of EPA's 
Clean Air Scientific Advisory Committee has explained:

        In the development of regulations based on environmental 
        studies, numerous subjective assumptions and choices must be 
        made regarding the selection of data and models that have a 
        profound impact on the strength of any statistical associations 
        and even whether the associations are positive or negative. The 
        appropriateness of the assumptions and choices are not 
        adequately evaluated in the standard peer review process. That 
        is why it is essential that the data and models be placed in 
        the public domain for a more rigorous evaluation by qualified 
        experts. The proposed regulation, Strengthening Transparency in 
        Regulatory Science [the proposed EPA rule], will provide an 
        opportunity for such evaluations.\25\
---------------------------------------------------------------------------
    \25\ Environmental Protection Agency, ``EPA Administrator Pruitt 
Proposes Rule to Strengthen Science Used in EPA Regulations,'' News 
Release (April 24, 2018), https://www.epa.gov/newsreleases/epa-
administrator-pruitt-proposes-rule-strengthen-science-used-epa-
regulations (accessed July 24, 2019).

    It is also important to recognize that agency officials themselves 
who may have access to the data and methodology will benefit from 
hearing different views on the data and methodology, including from 
other scientists. This is another way that public participation in the 
rulemaking process can help inform and shape the decisions made by the 
---------------------------------------------------------------------------
agencies.

    Scientific Integrity Concerns Should Focus on Science Questions 
Only. As has been mentioned, questions that involve policy and value 
judgments are not science questions. Therefore, for example, agencies 
should only ask science advisory committees to answer science questions 
only. Agency staff should ensure that the charge to such committees is 
on point and committee members do not veer off their mission, 
especially into policy.

    This issue also has implications for Congress. Legislators should 
not require agencies to answer questions on science alone when such 
questions are not purely scientific in nature. For example, the listing 
of threatened and endangered species should be based solely on the 
science, but since listings can trigger regulatory requirements, they 
involve non-science related concerns. To promote scientific integrity, 
the listing decision should be decoupled from any regulatory 
implications.
Other Important Recommendations

    <bullet> Agency scientists should be free to publish in 
            professional journals, but there should be clear 
            disclaimers when their research does not represent the 
            agency's position. Other agencies using this research, 
            especially in rulemaking, should not mischaracterize 
            research as agency research when it is just the research of 
            agency employees.\26\
---------------------------------------------------------------------------
    \26\ This is a problem I have seen firsthand, with both the CDC and 
the FDA mischaracterizing a study done by CDC employees. See e.g. Daren 
Bakst, ``Request for Correction of Information Disseminated to the 
Public that Improperly Attributed a Study to the Centers for Disease 
Control and Prevention (CDC)'' to the Food and Drug Administration 
Office of the Ombudsman (May 21, 2015), https://aspe.hhs.gov/system/
files/pdf/105946/55aFDA.pdf (accessed July 24, 2019).

    <bullet> Agencies should not be allowed to avoid protections that 
            can promote scientific integrity in the rulemaking process 
---------------------------------------------------------------------------
            by using guidance documents instead of rules.

    <bullet> Agencies should appropriately qualify any conclusions, 
            including where there might be doubts regarding the 
            science.

    <bullet> Agencies should not quash dissenting opinions by agency 
            scientists. Advisory committee reports should clearly 
            detail where dissenting opinions existed among the members.

    <bullet> Agencies should examine different assumptions, providing 
            clear answers as to why certain choices were made over 
            others.

    <bullet> Agencies should continuously review the studies and models 
            used and welcome information that could improve their 
            understanding of such studies and models.

    <bullet> Agencies should not put the interests of agency scientists 
            over the interests of serving the public. This simply means 
            that the interests of Federal scientists should be part of 
            the scientific integrity discussion to the extent that it 
            improves the science and the scientific process. This also 
            means that legitimate agency concerns such as ensuring that 
            any science has been properly peer reviewed does not get 
            ignored out of a desire to be too deferential to agency 
            scientists.
                               conclusion
    The importance of scientific integrity should not be 
underestimated. Some of the most important laws impacting the lives of 
Americans are often justified because of the science used by Federal 
agencies, including the Department of the Interior.
    Congress has delegated significant responsibility to agencies 
(often too much). The scope of agency power is concerning, especially 
when this power is too often unchecked. In a republic where those 
making laws are supposed to be accountable to the people, this 
excessive delegation is antithetical to principles of separation of 
powers and representative government.
    One way to help ensure that agencies are not merely doing whatever 
they want is to have processes and protections in place so that when 
the Federal Government is disseminating scientific information or using 
science to make policy decisions, the science is credible and can be 
trusted.

                                 ______
                                 

    The Chairman. Thank you very much.
    Let me now recognize our final witness, Dr. Maria Caffrey. 
Five minutes are yours. Welcome.

  STATEMENT OF MARIA CAFFREY, Ph.D., FORMER PARTNER, NATIONAL 
                 PARK SERVICE, DENVER, COLORADO

    Dr. Caffrey. Good afternoon, Chairman Grijalva and 
distinguished members of the Committee on Natural Resources. I 
sit before you today to talk about one of the most painful 
periods of my entire life in the hope that protections will be 
put in place so that what happened to me will not happen to any 
other scientist ever again.
    I interned for 1 year at the National Park Service around 
2006. I was invited to rejoin the organization in 2012 
following the completion of my PhD to work on climate change 
issues. I recognized the need for a consistent data set 
estimating how sea level rise and storm surge, driven by human-
caused emissions of greenhouse gases, will affect coastal parks 
over the next century. I wrote a proposal for a multi-year 
project to produce such estimates, and NPS funded it. It was a 
very fulfilling time in my career.
    I handed in the first draft of a scientific report 
describing my results in the summer of 2016. Following a normal 
but rigorous peer review process, the report was finally ready 
for release in early 2017. At this point, however, the head of 
the Climate Change Response Program, also known as CCRP, told 
me to wait since we were transitioning to a new administration 
and awaiting new instructions on messaging. So, I waited and 
waited. Eventually, I was given a release date of May 2017. The 
report was assigned a publication number and I was given proofs 
of the final product. But when May arrived, NPS delayed the 
release again.
    I was at home on maternity leave in early 2018 when I 
received an e-mail from a colleague, warning me that my report 
was being altered without my knowledge. When I followed up, I 
was told they were minor edits that had been requested by the 
Associate Director of the National Park Service.
    However, when I saw the edits, it was very clear that any 
mention of the human causes of climate change had been scrubbed 
from the document. When I raised this with the head of CCRP, 
she attempted to excuse it, arguing that using the more 
technical term ``anthropogenic'' in lieu of ``human-caused'' 
would be too confusing for park staff to understand. However, 
when I suggested simply replacing ``anthropogenic'' with 
``human-caused,'' she rebuffed me and told me to delete any 
mention of the human role in the current climate crisis.
    These references to human-caused climate change in my 
report were integral. The entire premise of the work was 
estimates of sea level rise and storm surge based on four 
different scenarios under different potential levels of future 
human-caused greenhouse gas emissions. Failing to mention 
anthropogenic climate change in my report would have eliminated 
crucial context and affected the scientific conclusions of the 
report.
    When I pushed back on attempts to censor my work, multiple 
members of senior NPS staff expressed concern that if I did not 
remove references to human-caused climate change, the CCRP 
program could be closed or re-staffed. These same senior staff 
members threatened not to publish my report, or to publish it 
without my name on it and edit it as they saw fit.
    Eventually, these officials backed down when Freedom of 
Information requests were filed by media outlets. NPS released 
my report with the references to anthropogenic climate change 
included rather than be the focus of bad publicity. I filed a 
scientific integrity complaint, and the Office of the Inspector 
General launched an investigation, but I was told there was no 
violation to my scientific integrity because the report had 
ultimately been published with the terms I fought for in it. No 
harm, no foul.
    Except there was a significant, long-lasting cost to me. My 
funding at CCRP ended, even though I had been successfully 
managing multiple ongoing projects. I moved across the hall to 
the NPS Water Resources Division at a significant pay cut in a 
bid to start anew just so I could continue my work.
    However, when my funding came up for renewal in February 
this year, I was told they also did not have funds to continue 
my work, which conflicted with information I was given by my 
branch chief. At the direct request of my immediate supervisor, 
who said he still needed my help, I even offered to volunteer. 
But I was told that my services were no longer needed. I had 
become an outcast for standing up.
    I wrote my report as I would for any publication. I was 
only concerned with offering the best available science, not 
what the political consequences of my work could be. The 
personal toll of this has been substantial. I had to remove my 
daughter from day care, and I am now faced with the prospect of 
having to split up my family so I can continue my career in 
another state.
    I am doing this because we need more protections for 
Federal scientists. I am certain I am not alone in experiencing 
this violation. Thank you for your time.

    [The prepared statement of Dr. Caffrey follows:]
                Prepared Statement of Dr. Maria Caffrey
                        introduction and summary
    My name is Dr. Maria Caffrey. I received my PhD in geography from 
the University of Tennessee, and my recent research has focused on the 
potential impacts in U.S. national parks of sea level change and 
flooding resulting from anthropogenic (i.e. human-caused) climate 
change.
    In 2013, the National Park Service (``NPS'') named me Principal 
Investigator on a project to examine how sea level rise and storm surge 
would impact coastal national parks under a series of different future 
climate change scenarios, with the primary deliverable being a 
published scientific report (``the Report''). The Task Agreement that 
governed my project explicitly stated that my first major objective 
would be to use the various scenarios for anthropogenic emissions of 
greenhouse gases contained in the most current report of the 
Intergovernmental Panel on Climate Change (``IPCC'') to develop 
estimates for what amounts of sea level rise and storm surge coastal 
parks would experience under those various scenarios. Since those 
scenarios are based on different assumed levels of future human 
greenhouse gas emissions, my Report was always inherently going to be 
an assessment of how human-caused climate change will affect coastal 
parks that the NPS is charged with preserving.
    For this reason, when I handed in my first draft of the Report in 
August 2016, it referred to the fact that climate change is 
anthropogenic in nature, i.e. caused by human activity. The fact that 
future climate change will be driven by human activity is a fundamental 
premise of the Report's analysis of different emissions scenarios, as 
well as its conclusions about how varying levels of anthropogenic 
greenhouse gases in the future will affect sea level rise in the 
national parks.
    As the time for the Report's publication approached in late 2017 
and early 2018, my supervisors at NPS and other senior staff there 
repeatedly attempted to censor this scientific work by coercing me 
either into accepting the removal of references to anthropogenic or 
human-caused climate change from the Report, or into removing those 
references myself. I disclosed this attempted censorship to the NPS 
Scientific Integrity Officer, to the Department of the Interior's 
Office of Scientific Integrity, the Department of the Interior's 
Inspector General, and to a reporter at NPR's Reveal. As a result of my 
disclosure, my access to NPS funding was gradually cut off until 
ultimately, in March 2019, my last attempt at continued NPS funding 
failed and it became clear that I would no longer have a position at 
NPS. It is as a result of this that on July 22, 2019, I filed a 
whistleblower complaint with the Office of Special Counsel.
                           factual background
    I first worked at NPS in the Geologic Resources Division around 
2006 during the George W. Bush administration. I returned to NPS as a 
partner for the same division in January 2012.
    Climate change is an increasingly urgent issue for park managers as 
rising sea levels threaten to affect or even completely engulf coastal 
parks. Sea level rise and storm surges pose significant risks to 
infrastructure, archeological sites, and various historic structures in 
coastal parks. I became interested in returning to NPS when I 
recognized that NPS was lacking vital coastal climate data necessary 
for it to develop appropriate management plans for future climate 
impacts on coastal parks. I therefore designed a project that would 
generate data relating to future sea level and storm surges for all 
coastal NPS units under a variety of different greenhouse gas (GHG) 
emissions scenarios. To develop this data would help not only the NPS, 
but also the public that uses the national parks, understand how 
climate change could affect parks in the future and how the parks need 
to be protected. I wrote the proposal for funding to pursue this 
project myself. As referenced above, the proposal explicitly involved 
using anthropogenic greenhouse gas emissions scenarios contained in the 
most recent IPCC report, which represent potential human fossil fuel 
consumption over the next century. NPS accepted and funded my proposal 
without any changes. In August 2013, Leigh Welling, the then-Director 
of Climate Change Response Program at the NPS, named me Principal 
Investigator on the project, and I began work.
    From January 2, 2012 until February 15, 2019, my salary was paid 
entirely with NPS funds at the direction and with the approval of NPS 
employees.\1\ I had an NPS phone number and an NPS partner email 
address, as well as an NPS partner I.D. In addition, during that entire 
time, the computers, monitors, printers and other equipment I used to 
do my work were issued to me by NPS. From the time that I returned to 
NPS as a partner in January 2012, my office was located in an NPS 
building in Colorado. I was issued NPS business cards, and I appeared 
on behalf of NPS at public events, such as the Denver Museum of Nature 
and Science outreach days. My immediate supervisors on a day-to-day 
basis, as well as those at higher levels who were responsible for 
approving and overseeing my projects and reviewing my performance, were 
all NPS employees. It was one of my NPS supervisors who reviewed and 
approved my vacation requests. All my work was conducted using my NPS 
computer, and the NPS posted all my reports on one of its websites, 
irma.nps.gov.
---------------------------------------------------------------------------
    \1\ Note that during certain periods in 2012 and from October 2018 
until February 15, 2019 those funds were paid via a non-profit 
organization called Conservation Legacy. Nonetheless, my salary during 
this time was paid entirely with NPS funds, at the direction and with 
the approval of NPS employees.
---------------------------------------------------------------------------
    One of the primary intended products of my project was a written 
technical report (``Report'') that was intended for an audience with a 
scientific background. This Report would examine how numerous coastal 
parks would be affected by sea level rise under several different 
climate change scenarios. Those scenarios largely depend on levels of 
human-caused greenhouse gas emissions--i.e., anthropogenic climate 
change. The purpose of analyzing these scenarios in the Report was to 
inform the Park Service's planning and adaptation strategies for its 
resources going forward. The intention for me to develop this technical 
scientific Report was memorialized in a Task Agreement signed by both 
NPS and the University of Colorado Boulder in August 2013, which 
contained multiple references to the fact that the Report was intended 
to follow a similar format to the reports of the IPCC, which are highly 
technical documents that convey information using scientific terms.\2\ 
The NPS even linked to the IPCC report in its data store.\3\
---------------------------------------------------------------------------
    \2\ When I wrote the proposal, NPS also required that it have a 
public education component. I met that requirement by proposing to 
design three waysides and a public-facing website that would educate 
the public on the challenges of coastal climate change.
    \3\ https://irma.nps.gov/DataStore/Reference/Profile/2215238.
---------------------------------------------------------------------------
    As a scientist and the Report's chief author I concluded that 
discussing anthropogenic climate change in the Report was 
scientifically relevant and important for two primary reasons. First, 
based on my PhD training in paleoenvironmental change, the term 
``anthropogenic climate change'' is a scientific term specifically used 
to indicate future climate change as distinct from any discussions 
about non-human-caused climate change occurring in the past. Indeed, 
``anthropogenic climate change'' is a standard term used in the IPCC 
reports, which, under the Task Agreement, my Report was specifically 
intended to be modeled after. Eliminating this term from the Report 
would therefore alter its scientific meaning. Second, as already 
described, the Report presents several different climate change 
scenarios and examines the projected impact of sea level rise on 
coastal parks under each of those scenarios. Presenting these scenarios 
without any reference to the fact that which scenario plays out will 
depend on the amount of greenhouse gases humans put into the atmosphere 
in the future would have eliminated crucial context and made the 
scientific conclusions of the Report less clear.
    I researched and drafted the Report myself, although throughout the 
course of my work on the sea level rise project I met periodically with 
communications and science teams comprised of NPS employees who gave me 
input and feedback as my work progressed. The Report ultimately 
projected the effects of sea level rise at 118 coastal national parks 
in three different time frames (2030, 2050, and 2100), and under four 
different greenhouse gas emissions scenarios. While the work in the 
Report was my own, I offered both Rebecca Beavers, the Coastal Geology 
and Coastal Adaptation Coordinator for NPS's Climate Change Response 
Program (CCRP), and Cat Hawkins Hoffman, the National Adaptation 
Coordinator the CCRP, co-authorship because they helped secure the 
funding for this project from NPS and because my direct supervisor, Ms. 
Beavers, wanted to achieve more ``ownership'' over the Report by adding 
NPS co-authors. Ms. Beavers also attended all of the science- and 
communication-team meetings that had been held to allow NPS staff to 
have input into the products of the projects carried out under the task 
agreement. Finally, I offered Patrick Gonzalez, NPS's principal climate 
change scientist, co-authorship on the paper because he had offered me 
useful advice as I conducted my research and developed my Report.
    I handed in my first draft of the Report to Ms. Beavers in August 
2016. Over the course of the fall of 2016 and early 2017 the Report 
went through the normal editing and peer review process. As is standard 
practice, the peer review of my Report involved numerous scientists, 
some who were NPS employees and some from outside NPS. Initially, this 
process proceeded without incident. I received input from these 
reviewers, with both Ms. Beavers and Ms. Hoffman providing relatively 
minor input about wording, as was expected in their roles in CCRP. 
During this period, neither Ms. Beavers nor Ms. Hoffman raised any 
concerns about the references in the Report to anthropogenic climate 
change. In April 2017, after the review process was complete and I had 
incorporated the substantive comments and suggested edits I had 
received as appropriate, a ``final'' version of the Report went out for 
copy editing. This version of the Report included references to 
anthropogenic climate change.
    Under normal circumstances, I would have expected the Report to 
have been published in early 2017. When this did not happen, I 
initially assumed any delays were due to new staff still learning the 
ropes after the change in administration.
    Beginning in about May 2017 I began to question the real cause of 
the delay as NPS continued to push back the release of my Report. In 
May or June 2017, Ms. Beavers told me that NPS was delaying the release 
in order to coincide with the release of another report. Then in August 
2017, she told me that it was delayed again because Hurricane Harvey 
had hit and NPS did not wish to release a report focusing on sea level 
rise and storm surge at a time when hurricane activity was so much in 
the news. In September 2017, CCRP's Communications Coordinator, Larry 
Perez, told me that NPS Associate Director Ray Sauvajot had directed 
that the release of my Report be once again delayed. This time I did 
not receive any clear explanation as to the reason for the delay. 
Finally, in November or December 2017, Larry Perez told me that he 
anticipated that the Report would be released in January 2018, with no 
further edits. This was my expectation when I left for maternity leave 
in December 2017.
    Instead, around the time I left on my maternity leave, NPS began 
making explicit attempts to get me to remove references to 
anthropogenic or human-caused climate change from my Report. The most 
concerning of these attempts fell into a few distinct categories.
    First, my NPS supervisors and other senior NPS employees repeatedly 
threatened that if I refused to remove references to anthropogenic 
climate change (or to accept their removal by other NPS employees), NPS 
would not release my Report or would release it without the references 
to anthropogenic climate change and without me listed as an author. For 
example, in December 2017, Ms. Beavers came to my office and pressured 
me to remove references to the human causes of climate change from the 
Report's executive summary by suggesting that if I refused to do so, 
NPS would not release the Report at all. Specifically, during this 
encounter she told me: ``It's better for you to make the changes than 
for this report to not go out at all. How would you feel if the parks 
don't get this? It's more important they get it.'' Ms. Beavers repeated 
this threat in a phone call with all the co-authors sometime in 
February or early March 2018. Another NPS employee who was eventually 
recruited to attempt to mediate the dispute over the Report, Brendan 
Moynahan, also made this same threat in a phone call on April 6, 2018, 
telling me that unless I agreed to whatever changes to the Report he 
deemed appropriate, he would release the Report with the content as he 
decided it should be and would remove my name.
    The seriousness of this threat to my career is difficult to 
overstate. The phrase ``publish or perish'' is a common maxim among 
researchers. I dedicated several years to this research. For those 
years of work to fail to result in any publication, or for NPS to 
publish my research without properly crediting me as an author, would 
have been extremely damaging to my publication record and therefore to 
my ability to advance in my career. It is inconceivable that Ms. 
Beavers and Mr. Moynahan were not aware of the seriousness of the 
threats to my career when they made these statements.
    Second, unable to convince me to remove references to anthropogenic 
climate change myself, NPS employees attempted at various points to 
remove those references from my Report themselves, without my 
authorization. The first time this happened was while I was out on 
maternity leave from December 24, 2017 to March 5, 2018. On February 
27, 2018, I learned that Ms. Hoffman and Ms. Beavers removed all 
references to anthropogenic climate change from the Report--on which, 
again, I was the principal author--without consulting me. Ms. Hoffman 
did the same thing a few months later, after numerous failed attempts 
by her and others to coerce me into altering my Report. On March 27, 
2018, again without my prior knowledge or authorization, she rewrote 
the introduction and conclusion sections of the Report to relegate the 
terms she did not like to a subsection on the second or third page.
    This was beyond anything I had ever experienced before from any of 
my NPS colleagues. It went well past the kind of minor wordsmithing 
that it would have been reasonable for Ms. Hoffman to do and into the 
realm of substantively altering my Report without my approval. This was 
particularly inappropriate and shocking since Ms. Hoffman does not have 
a PhD or any formal training in climate change. It also seemed 
inconsistent with her previous actions, since she had already approved 
the text when we had originally planned to publish the Report in 2017. 
It is my belief that Ms. Hoffman was responding to pressure from the 
Administration to censor discussion of human-caused climate change 
within NPS. She initially tried to excuse the censorship of my work by 
saying that she was simply trying to eliminate the word 
``anthropogenic'' because it was too confusing a term for park staff to 
understand. However, when I suggested simply replacing 
``anthropogenic'' with ``human-caused'' she rebuffed me and told me to 
delete any mention of the human role in the current climate crisis. It 
became inescapably clear that what was happening was not a normal 
editorial disagreement about word choice, but rather an attack on the 
scientific integrity of my work for political reasons.
    Finally, Mr. Sauvajot subjected me to verbal and even physical 
intimidation. This took place during an in-person meeting with Mr. 
Sauvajot and several others in Fort Collins, Colorado on March 8, 2018. 
During this meeting, Mr. Sauvajot was extremely aggressive and 
threatening toward me as I attempted to explain why I believed it was 
so important that NPS not remove the references to anthropogenic 
climate change from my scientific Report. He became very agitated as I 
held to my position that it was inappropriate to remove the references 
at issue from the report. He raised his voice to me so much that I 
became alarmed, he turned red, and he smacked a stack of papers on a 
table. This behavior was very intimidating and unnerving to me. Mr. 
Sauvajot said during this meeting that it was now a verbal policy in 
NPS that the term ``anthropogenic climate change'' should not be used 
in scientific reports, that he was simply following orders, and that 
``this is just the way it is right now.'' He also said that he believed 
that he might be reassigned and replaced with someone who ``would not 
be as nice to me'' as he was if the Report was published with the 
references to anthropogenic climate change in it. Ms. Hoffman followed 
this statement by suggesting that publication of my Report with those 
references could result in the entire Climate Change Response Program 
being terminated. The implication that a scientific report funded by a 
Federal agency for the purpose of informing that agency's stewardship 
of important natural resources should be altered in order to conform to 
the political whims of the current presidential administration is 
deeply concerning.
    Crucially, I was not alone in believing that the references in the 
Report to the anthropogenic or human-caused nature of climate change 
were scientifically relevant and important context for understanding 
the different future emissions scenarios the Report set out. Patrick 
Gonzalez, who was initially a co-author on the Report, shared this 
belief and willingly expressed it throughout this process. Mr. Gonzalez 
argued strenuously that the attempts described above to pressure me 
into removing those references or to remove them without my 
authorization constituted a violation of scientific integrity. Mr. 
Gonzalez eventually removed himself as a co-author on the Report--even 
though the references were ultimately kept in--because he did not wish 
to have his name associated with what he saw as a violation of 
scientific integrity.
                              disclosures
Internal Reporting
    As the situation continued to escalate through the spring of 2018, 
my unpaid affiliation with the University of Colorado Boulder resulted 
in me being asked to respond to requests under the Colorado Open 
Records Act (CORA) relating to my work on the Report. At this point I 
became concerned that if the references to anthropogenic climate change 
were removed I could potentially appear to be complicit in an attempt 
to censor the Report and omit important scientific information. 
Therefore, on April 2, 2018, I contacted the University of Colorado 
Boulder's Office of Research Integrity and Compliance and described to 
them what I had been experiencing. Two of their employees--Joe Rosse, 
the Associate Vice Chancellor of Research Integrity and Compliance, and 
Denitta Ward, the Assistant Vice Chancellor--subsequently participated 
in some of the discussions about the Report led by NPS staff, although 
they did not play any substantive role in the decision making around 
what was ultimately an NPS report.
    I also contacted the NPS Scientific Integrity Officer, Sara Newman, 
and on June 1, 2018, I filed a scientific integrity complaint with 
DOI's scientific integrity office in which I described in detail the 
coercion, manipulation and attempted censorship of my scientific 
research in what I continue to believe to be clear violation of the NPS 
and DOI scientific integrity policies. Under established DOI and NPS 
procedures, the subjects of my scientific integrity complaint--
specifically Ray Sauvajot, Cat Hoffman, Rebecca Beavers, and Brendan 
Moynahan--would have been notified that I had filed the complaint. As a 
result, I believe that the fact of my having filed the complaint likely 
became common knowledge in my branch at NPS.
    Finally, I contacted DOI's Office of the Inspector General (OIG). I 
spoke with Agent William (Bill) Wiser of that office on April 30 about 
the situation surrounding my Report. Based on my conversation with 
Agent Wiser I understood that at this point OIG had already begun an 
investigation into the handling of my Report. I provided Agent Wiser 
with various pertinent documents as well as a copy of my scientific 
integrity complaint once I filed it.
External Reporting
    I also discussed the events described above with a journalist, 
Elizabeth Shogren of NPR's Reveal, with whom I had worked for an 
unrelated article in 2013, and who contacted me on February 1, 2018 to 
inquire about the status of my Report. She also filed multiple Freedom 
of Information Act and CORA requests for my records. Reveal published 
stories by Ms. Shogren on my situation on April 2, 2018 \4\ and May 18, 
2018.\5\ Reveal also released a podcast episode on this topic on 
January 5, 2019.\6\ Reveal's reporting brought some external attention 
to the situation surrounding my Report; in particular, on April 5, 
2018, five members of the House Committee on Natural Resources sent a 
letter to the Inspector General for the Department of the Interior, 
Mary Kendall, requesting an investigation into whether the scientific 
integrity policy at the National Park Service was being adequately 
enforced, specifically citing Ms. Shogren's article. The next day five 
U.S. Senators did the same thing.
---------------------------------------------------------------------------
    \4\ https://www.revealnews.org/article/wipeout-human-role-in-
climate-change-removed-from-science-report/.
    \5\ https://www.revealnews.org/blog/national-parks-report-finally 
released-uncensored/.
    \6\ https://www.revealnews.org/episodes/silencing-science/.
---------------------------------------------------------------------------
    I believe that it was only because of Ms. Shogren's reporting and 
the attention it generated that my Report was ultimately published in 
May 2018 with references to anthropogenic climate change included in 
it, and with me appropriately credited as the lead author.
    Unfortunately, despite calls from Congress for a rigorous 
investigation, neither my scientific integrity complaint nor my 
disclosure to the OIG's office were taken seriously. A little over a 
month after I filed my scientific integrity complaint, I received a 
letter from the NPS Scientific Integrity Officer, Sara Newman, closing 
it. The letter stated simply that ``[b]ecause the report was published 
with references to anthropogenic climate change, there was no loss of 
scientific integrity.'' Ms. Newman and her office completely failed to 
address the serious instances of attempted coercion, censorship, and 
manipulation by NPS staff in relation to my Report detailed in my 
complaint. More than that, Ms. Newman told me over the phone on 
December 12, 2018--after her office had already closed my complaint--
that she was unaware of many important details contained in it, 
particularly those related to the meeting with Mr. Sauvajot in March 
2018 in which he was extremely aggressive and threatening.
    Ms. Newman further told me that, while she knew about the incident 
from phone calls we had before I filed my scientific integrity 
complaint, she had never officially seen or heard my description of 
this incident (which I described in detail in my scientific integrity 
complaint) and she had read only a three-page summary that she had 
received from the OIG. She suggested that what I was describing should 
have been treated quite seriously. Thus, Ms. Newman apparently signed 
off on closing my complaint, which her office was responsible for 
handling, without having actually read it, much less having fully 
investigated it. This is extremely troubling.
    The investigation conducted by the DOI's OIG similarly lacked any 
rigor or seriousness. I had only one brief phone conversation with 
Agent Wiser in which we discussed the substance of my complaint. On 
that phone call, which took place on April 30, 2018, I began to relay 
to Agent Wiser the circumstances of my case and to attempt to explain 
to him why I believed I had been subjected to various forms of 
coercion, intimidation and harassment by NPS personnel in an attempt to 
make me alter the content of my scientific Report. However, I was only 
able to relay a few sentences before Agent Wiser cut me off, telling me 
that he had ``heard enough.'' Agent Wiser never contacted me to request 
any additional information. We exchanged a few more emails, in which he 
repeatedly emailed me a complaint form that did not work and that I 
could not use, but in which he did not seek any additional information. 
In August 2018 the OIG publicly posted a summary of the statement it 
ultimately provided to NPS, which simply said that ``because the report 
was published without edits, we closed our investigation.''
                              retaliation
    After I made my disclosures, I experienced reprisal from multiple 
NPS supervisors at NPS, ultimately ending in my termination.
    First, as part of the sea level rise project I was initially funded 
by NPS to do, in addition to the Report itself, I was tasked with 
developing an interactive website for nps.gov that would allow users to 
see what the scenarios described in the Report would look like. We 
referred to this website informally as ``the viewer.'' I worked closely 
with others at NPS over the course of approximately 3 years to develop 
the viewer, including writing the proposal for funding to be 
transferred from CCRP to the Denver Service Center that provided the 
web server for the viewer. Prior to the conflict over the inclusion of 
references to anthropogenic climate change in the written Report, Ms. 
Hoffman had repeatedly turned to me for updates on the viewer project. 
For all these reasons, my understanding was that I was the lead on the 
project. However, in spring 2018, Doug Wilder, a GIS (Geographic 
Information Systems) Lead at NPS who was co-authoring the viewer with 
me, told me that he had been prohibited by his supervisor from sharing 
drafts of the project with me directly. Ms. Beavers essentially took 
control of the project, despite the fact that she had not attended any 
of the meetings on the project or contributed to it substantively. I 
was cut off from working on the project on which I had been the lead 
and eventually told that my input was no longer needed.
    Much more crucially, my funding from NPS--and consequently my 
position there--has been eliminated, despite the fact that my most 
recent immediate supervisors have been very pleased with my work, 
sought to keep my position intact, and asked me to keep doing work for 
them even after my funding was eliminated because my work was essential 
to the projects I was on.
    The funding for the sea level rise project itself ended in October 
2017. Under normal circumstances, Ms. Hoffman, as the head of the 
Climate Change Response Program under whose auspices I conducted the 
sea level rise research, would have allocated more funding for me. In 
the past I had requested, and received, extensions of the funding for 
the sea level rise viewer. The original Task Agreement authorizing and 
funding my project was modified repeatedly over several years to 
provide additional funding when the original term of the agreement ran 
out without any difficulty.
    I had every reason to expect this to continue. For one thing, there 
was still work to do on the sea level rise viewer, another important 
part of the overall sea level rise project. The viewer project included 
a separate report that was to be released through the NPS's Data 
Series, a series of non-scholarly reports intended to allow for the 
timely release of data sets and summaries.\7\ I had been successfully 
leading this Data Series project, but Ms. Beavers removed me from it 
and took it over. To this day Mr. Wilder, the GIS expert I worked on 
the viewer with, still periodically contacts me for assistance with the 
viewer because he needs my technical expertise to finish the edits on 
the project. In addition, I still had several outstanding requests for 
information and assistance from coastal parks. While this was not 
strictly part of my sea level rise project, it was something that I did 
in the regular course of my duties as a sea level rise expert for the 
NPS.
---------------------------------------------------------------------------
    \7\ https://www.nps.gov/im/reports-nrds.htm.
---------------------------------------------------------------------------
    Nonetheless, and despite the obvious continued demand for my work 
and input, my funding dried up following my dispute with NPS over my 
scholarly Report that was the primary product of the sea level rise 
project. Instead, NPS pushed me onto a series of low-paying projects 
that were inappropriate for a scientist of my experience and did not 
make use of my sea level expertise. First, Ms. Beavers suggested I 
apply for a short-term project with a colleague in the Biological 
Resources Division that would pay me approximately $5,000 for 3 months 
work on a project assessing the impact of climate change on turtle 
ecology. I accepted this project only because it would allow me to stay 
on at NPS for the time being, and it would pay me until I left for 
maternity leave.
    I hoped that by the time I returned, the Report would be published 
and the situation would have blown over. As I have already described in 
detail, this was not to be. Ms. Hoffman told me that she could not 
provide me with any more funding from the Climate Change Response 
Program, and indeed I was essentially cut off from communication from 
that entire division. The only way I could stay at NPS at that point 
was to accept an internship position in another division at NPS, the 
Water Resources Division (WRD). I was able to secure a very limited 
amount of funding--approximately $25,000--from WRD. Under this new 
arrangement, I began work on projects related to wetlands mitigation 
banking, something which, like turtle ecology, was well outside my main 
area of scientific expertise. Taking this position also required me to 
accept an intern title that was not appropriate for a PhD scientist of 
my experience. Indeed the intern program I was receiving funds through 
was specifically intended for scientists ages 18-35, younger than I was 
at the time when NPS entered me into it. Finally, I had to accept a 
significant reduction in my annual salary, from approximately $70,000 
to approximately $25,000. I was being retaliated against for speaking 
up.
    Nonetheless, I was able to work successfully with my new colleagues 
and supervisors in WRD, and my efforts were essential to the 
advancement of the wetland mitigation banking project I led. In 
addition, I began working on a new grant proposal for $130,000 for work 
on a project that would create a database of degraded wetlands within 
park lands that could be used as part of a wetland mitigation strategy.
    The $25,000 stipend in WRD ran out on February 15, 2019. Alan 
Ellsworth, Chief of WRD's Aquatic Systems Branch, very much wished to 
retain me and went to great lengths to find a way to continue that 
funding. Moreover, it was common knowledge within the division that 
there is a significant amount of unused funding--I was told by a 
colleague, as of mid-February 2019, this was approximately $300,000. 
This is such a well-known, recurring issue that employees often refer 
to the need to spend unused funds at the end of each fiscal year (in 
order to avoid losing them) on things like extra iPads and computer 
monitors as ``Christmas.''
    Nonetheless, the Chief of WRD, Forrest ``Ed'' Harvey, not only 
refused to sign off on the purchase order requested by my immediate 
supervisors that would have allowed them to retain me, he refused to 
provide any explanation as to why he would not provide the requested 
funding or even to acknowledge my supervisor's inquiries about it. 
Although Mr. Harvey was not directly involved in my work on the sea 
level rise project, he would have been in frequent communication with 
those who were, particularly Mr. Sauvajot and Ms. Hoffman. Given that, 
as well as the fact that news of the controversy around my Report was 
widely known among my NPS colleagues, it is a virtual certainty that 
Mr. Harvey was well aware of what happened and had received the message 
that I was no longer welcome at NPS.
    Mr. Harvey also prevented me from pursuing the new $130,000 grant 
proposal I had developed and both my direct supervisor, Kevin Noon, and 
the Aquatic Systems Branch Manager, Alan Ellsworth had approved. In 
order to have a chance to have that proposal accepted, it would have 
had to be submitted to DOI for review no later than March 3, 2019. 
Before that could happen, however, Mr. Harvey himself would have had to 
review it and approve me sending it to DOI for consideration. He 
refused to do so, thus effectively preventing me from pursuing funding 
and terminating my position at NPS. It was therefore on March 3, when 
the deadline for DOI review passed, that I officially knew I would be 
unable to obtain any more funding to maintain my position at NPS. 
Again, Mr. Harvey refused to even acknowledge my repeated inquiries 
about the status of my proposal, much less provide any substantive 
explanation as to why he would not allow it to go forward. This all 
happened despite my having obtained good performance reviews.
    Further evidence that the lack of interest by NPS management in 
retaining me was unrelated to budgetary constraints may be found in the 
fact that my immediate supervisor at WRD, Kevin Noon, a wetlands 
scientist, told me that he could not continue the wetlands mitigation 
banking project I had been working on without me and sought to keep me 
on as a volunteer after my position ended because he needed my 
services. At Mr. Noon's request, I submitted a volunteer application he 
provided to me since I wished to help him out. Although it is common 
practice for NPS employees to arrange volunteers, and under normal 
circumstances I would have expected this request to be approved without 
issue, Ed Harvey apparently denied this request--I was told that there 
would be no need for my pro bono services without any further 
explanation, despite the fact that Mr. Noon had made it explicitly 
clear that he did indeed need my services in particular to finish the 
wetlands mitigation banking project.
                               conclusion
    It is abundantly clear that the management at NPS gradually cut off 
my access to funding and eventually terminated me--not because my 
supervisors were unhappy with the quality of my work, did not wish to 
work with me, or did not have a need for my work, and likewise not 
because funding was an issue (my services were mysteriously not needed 
even when I was willing to offer them for free in the face of an 
explicit need for them)--but rather as retribution for my having made 
disclosures about the attempted censoring of references to 
anthropogenic climate change in my Report on sea level rise.
    Losing my position at NPS has been extremely difficult for me, both 
financially and emotionally. I have struggled to find other employment, 
despite months of considerable effort on my part to do so. I have only 
last week begun work in the first temporary position I have been able 
to obtain since I left NPS. I even had to contend with a challenge to 
my right to receive unemployment benefits. Although the challenge was 
withdrawn once I obtained counsel, this only added to the stress and 
difficulty of my situation. I have even had to begin considering 
whether to move my baby daughter away from her father so that I can go 
someplace where I can find permanent employment. I hope that this 
Committee will treat this situation with the seriousness it deserves 
and find a way to remedy it.

                                 ______
                                 

    Questions Submitted for the Record to Dr. Maria Caffrey, Former 
                     Partner, National Park Service
                  Questions Submitted by Rep. Grijalva
    Question 1. You stated that your role at NPS was a Partner, not a 
contractor. Could you provide additional information about what that 
means?

    Answer. Yes, I was a National Parks Service (NPS) Partner and not a 
contractor. The distinction is important because, unlike a contractor, 
I functioned the same as a full-time NPS employee. I worked exclusively 
and full-time for the NPS, in an office in an NPS building surrounded 
by NPS employees. All of my supervisors were NPS employees. I 
participated in departmental meetings and decisions just as all the 
other NPS employees I worked with did. All of my work was performed in 
my NPS office using computers, phones and other equipment provided by 
NPS. NPS also provided me with an NPS Partner email address--which, 
importantly, is not provided to contractors--as well as with NPS 
business cards. As part of my job duties I occasionally represented NPS 
at public events. Although my funding did need to be renewed 
periodically, that renewal happened routinely throughout my tenure at 
NPS. Additionally, and very crucially, both I and my supervisors and 
co-workers at NPS had every reasonable expectation that it would 
continue to happen indefinitely into the future. Indeed, at the time of 
my termination, I was managing multiple on-going projects for which my 
supervisors and colleagues were counting on my continued participation, 
and which have been difficult or impossible to continue without my 
input.
    This is all quite different from the role of contractors, who 
generally do not function as full-time NPS employees, are not 
indefinitely provided offices in NPS buildings and fully equipped by 
NPS, do not participate in internal NPS departmental meetings, 
deliberations and decisions, do not represent NPS at public facing 
events, and are funded for discrete projects with no expectation of 
indefinite funding.
    I appreciate the opportunity to clarify my comments on this subject 
during the hearing, where I did not have the opportunity to give a 
nuanced response. As should be clear from my comments above, I worked 
full-time at NPS and effectively functioned as a salaried employee.

    Question 2. Can you provide more information about the scientific 
integrity complaint you filed and your experience with the complaint 
process?

    Answer. I filed a scientific integrity complaint on June 1, 2018. 
Both the Department of Interior (DOI) and NPS have Scientific Integrity 
Policies in place, and both of them prohibit DOI and NPS employees from 
engaging in censorship or coercive manipulation. My scientific 
integrity complaint focused on all the instances in which various NPS 
employees had repeatedly attempted to censor my work because it 
discussed human-caused climate change, and in which those same 
employees had repeatedly used harassing tactics to attempt to coerce 
and manipulate me into accepting the censorship or into censoring my 
work myself.
    As is the required procedure, I filed the complaint with the 
Department of Interior's Scientific Integrity Office. From there, it 
was directed to the Scientific Integrity Officer for the NPS, Sara 
Newman. Unfortunately, Ms. Newman and her office never appeared to take 
my complaint seriously. A little more than a month after I filed, I 
received a letter from Ms. Newman stating that she was closing my case 
because my report was ultimately published with the references to 
anthropogenic climate change included. Subsequent conversations with 
Ms. Newman, together with agency counsel, further elucidated that her 
office had reached this outcome by adopting an extremely literal and 
overly narrow interpretation of the Scientific Integrity Policy, 
concluding that because the work product had not ultimately been 
affected, the attempted censorship and the intimidation and coercion 
tactics I had been subjected to could not constitute a loss of 
scientific integrity and were of no concern to them. This seems 
extremely far from the spirit, if not indeed the explicit written 
intent, of the relevant policies.
    It is worth noting that DOI's Office of the Inspector General had 
also become aware of my situation, and I did communicate with them 
about it. The involvement of both the OIG and the NPS Office of 
Scientific Integrity became very muddled, however; there seemed to be 
considerable confusion as to which office should defer to the other, 
and ultimately it seemed that neither investigative body felt empowered 
to do anything about my situation. I was particularly frustrated when, 
several months after the SIO had summarily dismissed my complaint, Ms. 
Newman told me in a phone call that she had only ever read a 3-page 
summary of my (much more detailed) scientific integrity complaint that 
she received from the OIG, and she confessed being unaware of many 
important details of what I had reported. Most distressingly, she said 
she had not read my description in my Scientific Integrity Complaint of 
a meeting in March 2018 with an Associate Director of the NPS, Ray 
Sauvajot, in which Mr. Sauvajot had been extremely aggressive and 
threatening toward me in attempting to convince me to accept the 
deletions of the phrase ``anthropogenic climate change'' from the 
report. Ms. Newman suggested in this after-the-fact conversation that 
such an incident should have been treated quite seriously. Thus, from 
what I could discern, neither she nor anyone else in her office ever 
read my full complaint before dismissing it.

    Question 3. You stated that the sea level rise report was not 
released as originally written. Can you provide additional information 
about this?

    Answer. This is correct. While it is true that my report was 
released with the references to anthropogenic climate change restored, 
there was an important change from the original finished report: on the 
original report, Dr. Patrick Gonzalez (National Park Service Principal 
Climate Change Scientist) was listed as a co-author. On April 18, 2018, 
Dr. Gonzalez removed his name as a co-author of the sea level rise 
report to protest the violations of scientific integrity by the 
National Park Service. During the hearing, I inadvertently misstated 
his reason for removing his name. It was not out of fear for his work, 
it was to protest the National Park Service violations.

    Question 4. You mentioned other violations of scientific integrity 
at NPS. Can you provide additional information about any of those other 
incidents?

    Answer. Dr. Gonzalez, mentioned above, also faced attempts by NPS 
to get him to remove mentions of anthropogenic climate change from an 
unrelated manuscript he submitted to a scientific journal. Dr. Gonzalez 
was successful in protesting this violation of scientific integrity, 
and did not change a word; the scientific journal published his article 
intact. I am sure that Dr. Gonzalez and I are not the only scientists 
at NPS who have experienced this violation.

    Question 5. In May, this Committee held a hearing to examine the 
President's budget at the Department of the Interior, at which 
Secretary Bernhardt testified. During the hearing, Secretary Bernhardt 
said he's ``not losing any sleep over climate change.''

    5a. Your report examined the impacts of sea level rise and storm 
surges on National Parks. Given the findings of your report, do you 
believe Secretary Bernhardt understands and appreciates the severity of 
the impacts of climate change on public lands managed by the Department 
of the Interior?

    Answer. No, I do not believe he does. As the introduction to my 
report explains, global sea level rise and the impact of storm surge 
caused by stronger and more frequent storms, both driven by 
anthropogenic climate change, will have significant negative effects on 
coastal parks in the future. Not only are these parks important from an 
environmental perspective--many of them are important habitats for 
nesting shorebirds or sea turtles, for example--they are also important 
from an archeological and cultural perspective, housing historical 
forts, lighthouses and other structures, as well as attendant 
artifacts. They further provide important places for public recreation 
and enjoyment.
    DOI, and under it the NPS, are charged with maintaining and 
preserving these lands for the benefit of the public and for future 
generations. While my report is just one contribution to the scientific 
literature on climate change among many, my research unequivocally 
concluded that climate change poses a substantial threat to coastal 
parks in the future, and that our choices about fossil fuel emissions 
will affect what level of threat these parks face.

    5b. How do you think his statement impacts the employees of the 
Climate Change Research Program within which you worked?

    Answer. I think statements such as the one mentioned above have 
absolutely affected the employees of the CCRP. Even if there has not 
been any explicit directive not to work on climate change, this 
statement and others like it have unequivocally created an environment 
in which well-meaning agency employees are afraid that if they do 
research around climate change, write grant proposals for work relating 
to climate change, or even mention climate change in their work they 
may be punished--they may be reassigned, even relocated far from their 
homes and their families; their programs may be defunded or eliminated. 
This fear absolutely affected the people I worked with in CCRP, some of 
whom explicitly referenced such concerns in their attempts to get me to 
self-censor and remove references to climate change from my scientific 
report.

                    Questions Submitted by Rep. Cox
    Question 1. Why is it important for us to have accurate science 
about the effects of climate change on our national parks?

    Answer. If we do not have accurate science on how climate change 
will affect our national parks, then we cannot even hope to take 
appropriate steps to do what we can to protect the parks, as well as 
the monuments and artifacts they contain, from the effects of climate 
change.

    Question 2. Why is it important for us to recognize the human 
impact on climate change when we talk about our national parks?

    Answer. One reason it is important to recognize the human impact on 
climate change when we talk about our national parks is that means that 
our choices will impact how much and in what ways climate change 
actually affects national parks in the future. The mission of NPS is to 
protect and preserve the parks for future generations, and it is not 
possible to do that without acknowledging that human greenhouse gas 
emissions levels will dictate what conditions park managers need to 
anticipate.
    In addition, national parks educate visitors about relevant 
environmental issues affecting the parks. Climate change is having and 
will have huge impacts on parks, and it is impossible to meaningfully 
educate park-goers about how climate change is affecting or will affect 
what they see around them without acknowledging that it is driven by 
human activity.

    Question 3. In other words, why did you fight so hard to keep that 
piece in your report? What could Interior have done in your situation 
to better foster a culture of scientific integrity?

    Answer. I fought so hard to keep the references to anthropogenic 
climate change in my report for all the reasons described above. But, 
even more importantly, it was crucial that those references be included 
in my report because they were scientifically relevant. They were 
relevant for understanding the data sets and assumptions underlying my 
work. In addition, ``anthropogenic climate change'' is a scientific 
term of art, meant to distinguish the kind of future climate change I 
was working on from non-human-caused climate change in the geologic 
past. Thus, I was not engaged in a policy battle but was rather 
fighting for the scientific integrity and accuracy of my work.
                  Question Submitted by Rep. Horsford
    Question 1. I have witnessed a concerning trend showing disregard 
for transparency and an unwillingness to facilitate communication 
between lawmakers and experts within the BLM, and other agencies in the 
DOI. On several occasions, after reaching out to local BLM officials to 
speak with experts on the ground, who have hands on experience related 
to Nevada, my staff has been redirected to DOI congressional liaisons 
in DC, who then stonewall my office from connecting with officials who 
can help us develop the most informed policy.

    1a. Dr. Caffrey, in your experience is this standard or advisable 
practice within the National Park Service?

    Answer. Open, frequent and consistent communication between 
scientists working at Federal agencies and lawmakers is essential for 
the development of evidence-based policy. This is why many of the 
scientific agencies have included provisions in their Scientific 
Integrity Policies acknowledging that the free flow of scientific 
information is an essential component of scientific integrity, and at 
least some explicitly mention the importance of open communication of 
scientific information to Congress.
    I do not believe that preventing scientific experts at agencies 
from communicating with Members of Congress who are seeking information 
in order to inform policy making is an advisable practice. On the 
contrary, I believe this undermines the scientists' work, impedes the 
agencies in carrying out their missions, and leads to bad policy 
making.

    1b. What role should Federal agencies and their experts play in 
informing Federal lawmakers?

    Answer. I can think of almost no circumstance in which Federal 
lawmakers should not at least be informed of the best possible science 
when making any decision in which it is implicated. Thus the scientific 
agencies (and the scientists who work there) should regularly and 
freely communicate with Federal lawmakers in order to ensure that 
lawmakers act with the best possible information at hand.
                                 ______
                                 
    The Chairman. Thank you very much. And I thank all of you 
for your testimony.
    We will now request Members for questions. Under Committee 
Rule 3(d), each Member will be recognized for 5 minutes. Let me 
begin by recognizing Mr. Lowenthal for any questions that you 
might have, sir.
    Dr. Lowenthal. Thank you, Mr. Chair, and thank you to all 
the members of the panel for this very informative panel today.
    I want to start off by--I really have two major questions. 
My first one is: in August 2017, the Interior Department 
canceled a half-completed study examining the potential health 
risks of surface mining activity. In September 2018, the 
Department of Agriculture canceled a 2-year study regarding the 
potential environmental effects of copper nickel mining in 
Minnesota Superior National Forest, which we know includes the 
Boundary Waters, too. So, they canceled that study.
    These are only two examples of previously approved studies 
which would have given the agencies and the public a clearer 
idea of the environmental and health impacts of certain 
extractive activities at a local site. My question is to Dr. 
Caffrey and Dr. Rosenberg and Mr. Clement, each of you or any 
of you.
    Can you please tell me, how important are studies like 
this? How much do agencies use them to inform them? Are they 
used by Congress? Others? Here were two what I considered major 
studies, just canceled halfway through. What is going to be the 
impact of this? Dr. Rosenberg?
    Dr. Rosenberg. Thank you for the question. I appreciate the 
question, Congressman. As a former agency official, I can tell 
you that studies like this are extremely important because they 
provide information from high-level scientists, in many cases 
highly trained scientists, that the agency cannot just develop 
internally.
    In one of the cases that you mentioned, on mountaintop 
removal surface mining, that study was actually requested by 
states in the Appalachian region. And it was a study being done 
by the National Academy of Sciences, which is really the 
premier scientific institution in the country.
    I have worked with the Academy for many years. I have never 
heard of a study being canceled in midstream, no pun intended, 
and particularly one that was specifically requested to help 
inform states about a public health issue like this.
    There was a second study canceled by the Department of the 
Interior that was underway at the National Academy on safety of 
offshore drilling rigs. That was also canceled in midstream 
because they said they didn't need the information. And 
frankly, the idea that the information is not needed is 
shocking to me.
    Of course, the best information is needed on critical 
issues like drinking water, safety of wells, and mining 
activities. And that should inform agency decision making. It 
does in no way dictate policy. It provides the basis for making 
good policy in the future.
    Dr. Lowenthal. Mr. Clement, do you have anything to add? Do 
you think these are important, to have this data?
    Mr. Clement. I do think it is important. Dr. Rosenberg 
covered most of the key points on those issues. I will say, 
though, that these are not just important because they can 
underpin a lot of decision making, but because people depend on 
this information being out there.
    The people of these Appalachian states requested this study 
because they were concerned. They are concerned about their 
health. The offshore oil workers have run into some noticeable 
and prominent safety issues out there, so there is a need for 
that.
    So, it is not just that they are important for policy 
making, but they are important for people and the health and 
safety of Americans.
    Dr. Lowenthal. Thank you. Dr. Caffrey, I am going to ask 
you another question because I think we have adequately heard, 
I think, what is the view of the panel.
    Along the same line, Dr. Caffrey, the Trump administration 
has opened and sought to dramatically alter several President 
Obama-era plans very shortly after they were enacted. For 
example, last year President Trump's Interior Department 
proposed a new 5-year offshore oil plan, opening as much as 90 
percent of the Nation's offshore regions to drilling. This is 
only 2 years after President Obama's plan, also a 5-year plan--
so they scrapped it, the President's plan.
    Another example is, late last year, the Trump 
administration announced that it is going to rewrite the 2012 
Obama Integrated Activity Plan for the National Petroleum 
Reserve Alaska, seeking to open up more of the areas to oil and 
gas.
    So, the President's administration is reversing well-
intentioned, well-studied, thought-out policy, not trying to 
improve them, with the final goal of advancing commercial 
interests, it seems like, rather than collecting data or basing 
it on data.
    I was hoping that you could speak to the importance of data 
collection also. Why is it so important to do so before 
reaching a conclusion?
    Dr. Caffrey. I think it is really important that we have 
this data feeding into our policy decisions. But it is also 
very important that we keep the politics out of our data. I am 
in pursuit of facts that should not be influenced in any way 
according to what the administration is at that time. When I 
worked at the National Park Service----
    The Chairman. Thank you. Time is up.
    Dr. Lowenthal. Thank you, and I yield back.
    The Chairman. Thank you.
    Who have I got? Mr. Hice.
    Dr. Hice. Thank you, Mr. Chairman. And with the Ranking 
Member's permission, I would like to request that the chart 
that he showed be added to the record.
    The Chairman. Without objection.

    [The information follows:]
Submission for the Record by Rep. Bishop

                                SLIDE 1
[GRAPHIC] [TIFF OMITTED] T7241.001


                               .eps*****

                                SLIDE 2
[GRAPHIC] [TIFF OMITTED] T7241.002


                                 .eps__
                                 

    Dr. Hice. Thank you.
    Mr. Bakst, lately we have heard a lot of blaming, if you 
will, global warming on a host of events happening around our 
world from my colleagues on the other side of the aisle, 
everything from violent events like the formation of ISIS, to 
the Syrian Civil War, to Brexit, to the crisis at our border.
    In your testimony, you talked about the importance of 
public trust in science. I could not agree with you more on 
that. But in your opinion, is there any science that would 
suggest that global warming is the cause of these events?
    Mr. Bakst. I don't want to suggest that I am a climate 
change expert, so I don't want to get into the science. But I 
will say that some of the references you made highlight a point 
that I like to make, which is that there is a big difference 
between science and policy.
    In some of these examples, I would say sometimes people of 
science will conflate the two issues. And instead of actually 
analyzing a scientific issue, they are allowing their own 
biases to get into their science. Also, instead of actually 
answering scientific questions, what they are doing is they are 
actually answering policy questions disguised as science.
    So, a lot of those opinions are very subjective and are 
getting into the policy realm. And that becomes harmful because 
the public sees that as a scientific answer when in fact it is 
really just a suggestive policy.
    Dr. Hice. I think all of us here are interested in the 
truth of science. And I think it is really dangerous when we 
start attaching things to science that there is no--at least I 
am not aware of--evidence supporting that.
    In your testimony, you also said that Congress has 
delegated significant responsibility to agencies, and the scope 
of those agencies concern you, as they do me. Do you think that 
Congress has an obligation to limit agency scope?
    Mr. Bakst. Oh, absolutely. I mean, Congress has law-making 
power under the Constitution. I think Congress delegates far 
too much power to Federal agencies, and I think there are 
questions of whether or not too much power is delegated to 
those agencies.
    Dr. Hice. So, along those lines, would you believe that 
independent studies should be looked at as well as just what 
comes from agencies?
    Mr. Bakst. Well, what I would argue in terms of the science 
context for studies, I think what is critical is when you 
establish some processes in promoting scientific integrity, 
what you are doing is you are ensuring that the agencies are 
simply not doing whatever they want to do.
    But you are creating processes, and Congress is creating 
protections and processes in place so that the public can have 
confidence in what the science is, and that the public needs to 
be able to participate in that process. And once that happens, 
then at least more faith can be placed in the science that is 
being disseminated by the agencies.
    Dr. Hice. In listening to some of our panelists today, you 
would think that the Trump administration is the only one where 
there have been issues regarding scientific integrity. That 
certainly is not the case. You referenced, I believe, the 
Carter administration as well as the Obama administration. So, 
would you agree with this as something that occurs frequently?
    Mr. Bakst. Absolutely. And in my testimony, I was just 
listing some examples. I mean, we could probably come up with 
just constant lists of examples.
    But I think that one point that I----
    Dr. Hice. Well, I think of Dr. Houser. I believe you 
referenced him.
    Mr. Bakst. Right. Dr. Houser. And it is ironic. Dr. Houser 
was actually working on Interior's Scientific Integrity team, 
and then wound up being retaliated against and getting fired--
--
    Dr. Hice. For raising the flag of falsified information.
    Mr. Bakst. Right. Exactly. So, it is ironic. And that was 
the Obama administration. But I think it is important to note 
that it is not simply political appointees or political folks 
interfering or stifling science. It is also the processes that 
exist within the Government where I highlighted an example at 
the EPA when they were developing their WOTUS rule, they were 
supposed to have a final scientific report to inform the 
proposed WOTUS rule. The problem was that the proposed rule was 
published before the final scientific report was ever 
published. So, the public is actually commenting on a proposed 
rule that is not even informed by the science. That undermines 
scientific integrity. So, there are many different ways that 
scientific integrity is impacted beyond simply some political 
appointee hurting the science.
    Dr. Hice. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Ms. Haaland, the time is yours.
    Ms. Haaland. Thank you, Chairman.
    Let's see. Mr. Clement, I would like to know a little more 
about the work you were doing for the people in Alaska and what 
the importance of that work was. If you could explain that.
    Mr. Clement. Thanks for the question. It has become very 
clear that with the loss of the sea ice in the Arctic, what 
they call the ice fence, and the melting of the permafrost, the 
coastal villages in Alaska are melting away and right now are 
vulnerable. They are probably one big storm away from being 
wiped right off the map. And these were villages that were 
located on frozen ground protected by sea ice much of the fall 
and winter. When the big storms come in in the fall now, they 
are completely exposed.
    So, we have, the GAO has estimated, over 30 villages that 
are imminently threatened and need to be relocated. There is no 
getting around the fact that the Interior Department needs to 
address that as the Federal trustee for American Indians and 
Alaska Natives.
    I was playing the role of coordinator here in Washington, 
DC, working with an interagency group. We finally got all 20-
some-odd agencies that are engaged in the Arctic to work 
together and to meet monthly and start coming up with a list of 
grant opportunities and the ways that we might be able to get 
people out of harm's way, what you can do in the executive 
branch to address immediate issues of concern and build 
momentum. We identified the Federal agency in Alaska that would 
be the point for that, which is the Denali Commission, and had 
work underway at that time.
    Ms. Haaland. Thank you. I met a woman one time who said her 
village was going to be underwater in 10 years, so doing 
everything she could.
    Also, I read an interesting article once about the fact 
that Alaska Natives didn't have a word for the actual ocean 
because it had always been frozen. That is all they ever knew 
until it started melting and they actually had to find a new 
word in their language, which I thought was interesting. But 
for me, it seems like a terrible and just tragic loss of 
culture from those communities there.
    As you mentioned in your testimony, you were reassigned 
soon after this administration came in. Who took over the work 
that you were doing for those Alaska Native communities, that 
incredibly important work? Who took that over after you were 
gone?
    Mr. Clement. They never replaced me, and that work ceased.
    Ms. Haaland. They have never replaced you?
    Mr. Clement. No. Several months later they found a 
political appointee to sit in the office, but he has since 
moved on upstairs.
    Ms. Haaland. So, somebody that doesn't realize how much in 
jeopardy these communities are from the melting ice and the sea 
wall----
    Mr. Clement. Correct.
    Ms. Haaland. Wow. Or the sea ice. Is there someone leading 
that office now? And you say no?
    Mr. Clement. That is still vacant.
    Ms. Haaland. OK. And do you believe policy decisions for 
that work could still be made with the same level of scientific 
expertise with no one there?
    Mr. Clement. There is no one there to provide that, yes.
    Ms. Haaland. OK. So, in your opinion, what will be the 
impact of that office no longer having anyone there, much less 
any scientific leadership that sounds badly needed for those 
people, those Americans living in Alaska? Is there work that 
was underway that is no longer being continued much, I guess, 
the same way we were just talking about research that stops in 
the middle of it?
    Mr. Clement. That is right, yes. The organizing that was 
taking place has ceased now. There is work happening in the 
state, but they are getting no traction or budgetary support 
from Washington, DC, which, as a lot of bureaucrats know, is 
the kiss of death for the work that you are doing.
    But, of course, agency staff in the state of Alaska are 
still trying to do everything they can, in some cases 
volunteering to step up to try to help these folks. But they 
are getting no support from Washington.
    Ms. Haaland. When you were reassigned, you were transferred 
to the Office of Natural Resources Revenue, which is something 
that is not your wheelhouse at all.
    Why do you believe this reassignment was done? Out of 
retaliation? And was it simply a policy decision by leadership?
    Mr. Clement. I don't see any chance that that was a policy 
decision. I think it was purely punitive and retaliatory, for 
two reasons. One, of course, to take the climate advisor and 
put him in the office that collects royalty checks is clearly 
an indication they wanted me to quit.
    But also, the very next week, Secretary Zinke came to the 
Hill and testified during a budget hearing that indeed he did 
want to use reassignments to trim the work force at DOI by 
4,000 people. I don't think he realized that reassignments do 
not trim the work force unless you are getting people to quit, 
and that is unlawful.
    Ms. Haaland. So, I just have a few seconds. Why do you 
believe your reassignment was a violation of scientific 
integrity?
    Mr. Clement. To purge the language of climate change from 
the agency entirely is a direct assault on the science that we 
all know is very prominent and very clear on the risks to the 
mission of the agency that we need to act now, and to get 
people out of harm's way, in this case.
    Ms. Haaland. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. Mr. McClintock, the time is yours.
    Mr. McClintock. Thank you, Mr. Chairman. I think we can at 
least all agree that science requires extensive and 
unadulterated data, detailed analysis, respectful debate, and 
also successful replication. It is often contentious, but it 
requires full freedom of discussion, full transparency, to 
arrive at the truth.
    So, we should take seriously any constraints on scientific 
research and analysis. But as Mr. Bakst, I think, very, very 
well points out, we should not confuse science with policy. Mr. 
Clement, frankly, you seem to be somebody who has totally 
blurred the two.
    Science is fact. Policy is opinion. When we mix the two, we 
run the risk of politicizing and degrading the science that 
ought to provide the factual foundations that assures good 
policy making. I think the global warming debate is Exhibit A.
    That is certainly what we saw in the last administration, 
where scientific data was withheld and policy was 
misrepresented as science. And, frankly, I am very proud that 
the scientific integrity complaints have nose dived under this 
administration. Nevertheless, we should be on guard if the same 
objections are raised in this, or for that matter any, 
administration.
    Mr. Bakst, scientists can often disagree, and it seems to 
me the best remedy to that disagreement is to put all the data 
out there. Put it side by side so that it can be discussed, 
challenged, criticized, confirmed, rejected, or reconciled.
    How do we assure that all conflicting views can be 
presented together so that they can be resolved through 
analysis?
    Mr. Bakst. Well, that is why transparency is so important. 
It is not simply policy makers and others criticizing the 
Federal science out there. Science overall is having an issue 
regarding replicating other studies. It is actually one of the 
biggest problems, is that studies are done and then you cannot 
replicate it so you don't have any faith in what the underlying 
study was. This is a big problem in many different fields, such 
as in psychology.
    Mr. McClintock. And replication is an essential part of 
scientific inquiry, is it not? Until you can successfully 
replicate a theory, it is only a theory.
    Mr. Bakst. It is. And when we are dealing with information 
that is disseminated by the Federal Government, let me tell 
you, it is a lot more--is thought more important and has much 
greater weight.
    Mr. McClintock. So, transparency, sunlight, the ability of 
the data to be seen by all and analyzed by all. We actually 
passed a number of bills to do that in past Congresses. They 
didn't make it into law, unfortunately. But maybe that is one 
thing that we can now all agree on, is transparency is 
absolutely essential to the process.
    And, again, in the distinction you make between science and 
policy, is there any way to untangle them? For example, we 
heard one Member doesn't like mining, so he doesn't like the 
data that would tend to support it. Well, that is natural. We 
all have biases. Scientists have biases, too.
    It seems to me the only way is to keep a firewall. And 
since we all have these biases, maybe we need to develop a 
protocol where conflicting data can be posted side by side. 
That touches on your transparency, but I think we need to go 
further than that.
    Mr. Bakst. Right. I think one of the beauties--like the 
Information Quality Act and some of the efforts that are out 
there, like with the EPA and the secret science, is trying to 
make sure that you simply--it is not just simply having access 
to the science. You need to know what the underlying 
assumptions were.
    Mr. McClintock. Yes.
    Mr. Bakst. You need to have the codes, if they are 
available, the data.
    Mr. McClintock. Well, that has been our frustration with a 
lot of the rulemaking by the bureaucracies, is we get the rule 
and they will not give us the supporting data to justify the 
rule. And it mixes fact with opinion, science with policy.
    Mr. Bakst. And plus once, if certain conclusions are made 
by an agency, they should clarify, first of all, what the 
certainties that exist are. And they should also explain why 
they didn't make other assumptions. Why did they reject other 
assumptions?
    By having the public involved in this process, and other 
scientists, for that matter, this can help to challenge a lot 
of the underlying science and point out the fact that maybe 
some of the science is in fact policy.
    Mr. McClintock. I would just add--that is absolutely 
essential to us as policy makers because we have to have a 
solid foundation in order to make proper decisions. My mentor 
was a fellow named Ed Davis, who was the chief of the LAPD back 
in its golden age. And he had a maxim. He said, ``Decision 
making is easy. Fact gathering is hard.''
    If you are having trouble making a decision, it is because 
you don't have enough facts or enough analysis of those facts. 
And I have found that to be true. So, I think the points you 
raise are absolutely central to our responsibility in the 
legislative branch.
    The Chairman. Ms. DeGette, the time is yours.
    Ms. DeGette. Thank you, Mr. Chairman.
    I find this conversation extremely interesting. And I want 
to ask you about it, Dr. Caffrey. When you were developing your 
report, were you developing a political report?
    Dr. Caffrey. Absolutely not. That never entered my mind at 
all.
    Ms. DeGette. What were you doing exactly?
    Dr. Caffrey. I was putting together sea level and storm 
surge estimates so that we could protect our natural resources 
and our cultural resources in the best way that we could.
    Ms. DeGette. So, it was a scientific study. Is that right?
    Dr. Caffrey. That is correct.
    Ms. DeGette. When you do a scientific study--because you 
are a scientist--do you go into that with a preconceived idea? 
For example, when you are looking at the storm surges, do you 
go into that with a preconceived idea of how that is being 
caused?
    Dr. Caffrey. I mean, I have my science training that tells 
me the mechanisms that cause a storm surge, or a sea level 
rise. But no preconceived ideas beyond that.
    Ms. DeGette. Did anybody tell you to do a scientific study 
that said that these surges were caused by human activity?
    Dr. Caffrey. No.
    Ms. DeGette. That was the scientific result?
    Dr. Caffrey. That was the science. That is fact.
    Ms. DeGette. OK. Now, just describe for me very briefly how 
you came to the determination that human activity played a part 
in this.
    Dr. Caffrey. Yes. I used data from the Intergovernmental 
Panel on Climate Change that I used to form my sea level rise 
estimates. And then we down-scaled those data from 2100 and 
2050 to estimates for 2030 as well.
    Ms. DeGette. As I heard you in your opening statement, you 
said that you were told to remove--I forget the word, but----
    Dr. Caffrey. Anthropogenic.
    Ms. DeGette. Anthropogenic. You were told to remove that 
word not because it was an inaccurate scientific term but 
because I think you said it would confuse the people at the 
Park Service. Is that correct?
    Dr. Caffrey. That is correct. This was a report that was 
written for scientists at the Park Service, though, who should 
have training to----
    Ms. DeGette. OK. But irrespective of that, they didn't say 
that the cause, the anthropogenic cause, was incorrect. They 
said they wanted you to take it out because it would confuse 
people.
    Dr. Caffrey. Yes. Remove it completely.
    Ms. DeGette. Now, if you had removed that term, or the more 
commonly known ``human-caused,'' would that have impacted the 
scientific results of your study? And if so, why?
    Dr. Caffrey. Completely. It removes the meaning from my 
study. I prepared four different climate scenarios for those 
three different time periods. So, those scenarios hang on how 
much greenhouse gases we produce in the future. If I am not 
allowed to talk about greenhouse gas in the future, then I 
cannot put any of these estimates together.
    Ms. DeGette. So, as a policy maker--you were not developing 
a policy about what should be done, you were just saying what 
the science is. Would that be accurate?
    Dr. Caffrey. Correct. I was using the standard scenarios.
    Ms. DeGette. So, as a policy maker, when I am trying to 
develop policy around climate science and what I should do, I 
have to rely on your studies being scientifically accurate. Is 
that right, from your understanding of what I do?
    Dr. Caffrey. Correct.
    Ms. DeGette. So, you were not trying to do a policy. You 
were trying to do a scientific study.
    Dr. Caffrey. Correct.
    Ms. DeGette. Dr. Rosenberg, would you agree with sort of 
the paradigm I am setting? It is not like scientists are 
preparing policy documents. They are trying to use science.
    Dr. Rosenberg. Yes. I think that is exactly right. I think 
that there has been a confusion in some of the discussion of 
saying scientists are straying into policy when they are 
producing results that are policy-relevant. But they are not 
setting policy.
    Ms. DeGette. Yes. And it is not like somebody is telling a 
scientist to do their study a certain way to get a policy 
result.
    Dr. Rosenberg. Yes.
    Ms. DeGette. If they are, that would not be sound science. 
Right?
    Dr. Rosenberg. Correct. If that was happening, that is a 
violation of--I would view that as censoring or manipulating 
the scientific evidence and violation of scientific integrity.
    Ms. DeGette. OK.
    Dr. Rosenberg. That is not what we are talking about in 
general.
    Ms. DeGette. Right. Mr. Clement, nobody told you that the 
research you were doing was not scientifically sound, did they?
    Mr. Clement. No. That is right. In fact, I was just looking 
at the conditions and hearing from the villages what was 
happening to them.
    Ms. DeGette. OK. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Gosar, the floor is yours. Mr. Gosar? Are you yielding?
    Dr. Gosar. She is next.
    The Chairman. Oh, I am just going by the people that are 
sitting----
    Miss Gonzalez-Colon. Thank you, Mr. Grijalva.
    The Chairman. Mr. Gosar, he is the one who recognized you. 
No. I am just kidding.
    [Laughter.]
    Miss Gonzalez-Colon. Anyway, we have many things in Puerto 
Rico, so I will yield to my friend, Mr. Gosar.
    Dr. Gosar. I thank the gentlewoman from Puerto Rico. 
Fabulous.
    Mr. Chairman, this hearing is yet another example of 
Democrats on this Committee wasting time on political theater. 
Unlike the Obama administration that manipulated models and 
skewed science to justify their means, the Department of the 
Interior under the Trump administration, highlighted by 
Secretary Bernhardt's decision to assign a career scientist to 
his staff as a dedicated science advisor, and the Department 
Secretarial Order No. 3369, which makes clear agency decisions 
that are based on best available sciences.
    If we want to scrutinize science manipulation, then we 
should point the finger where it belongs. And that is at the 
Obama administration, who time and time again utilized bad 
science to rationalize their environmental attacks on jobs and 
private property rights.
    Let's not forget Dr. Houser, the Reclamation Science 
Integrity Officer, who was shoved out the door when he started 
reporting fraudulent science being used to justify pursuits by 
environmental groups that want to tear down dams.
    Mr. Bakst, is the idea of policy differences and priorities 
among various administrations incompatible with the idea of 
science integrity?
    Mr. Bakst. Absolutely, it is not. Every administration is 
going to have certain priorities. They are going to place 
priority over some research over others. This is the reality. 
It is not a criticism of any party. It is just what is going to 
happen.
    The fact that one administration is not focusing research 
on one area versus another is not a scientific integrity 
problem. The problem only comes in when the Government actually 
is asking people to look into the science, and then meddles in 
the science, and does not allow the scientists to do their 
jobs.
    But establishing different priorities and deciding to 
relocate offices or defund certain areas is not necessarily by 
itself indication of scientific integrity. We would expect and 
hope that different administrations have different policy 
priorities.
    Dr. Gosar. So, I mean, we just heard from Mr. Clement that 
to reassign somebody to get them to quit rather than to be 
fired, which is illegal, how did that work for Mr. Houser? How 
did that work for him? Was he fired?
    Mr. Bakst. Mr. Houser was fired.
    Dr. Gosar. And what was his position?
    Mr. Bakst. Well, he was working on scientific integrity for 
Interior. He criticized science.
    Dr. Gosar. Yes. So, I would like to submit for the record 
the critique of the DOI scientific integrity by Dr. Houser.
    The Chairman. Without objection.

    [The information follows:]

Submission for the Record by Rep. Gosar

            Critique of the DOI Scientific Integrity Policy

                          (305 DM 3, 1/28/11)
                             August 8, 2012
                 Dr. Paul R. Houser, Hydrometeorologist

Introduction: I served as a member of the Department of Interior (DOI) 
and the Bureau of Reclamation (BOR) Scientific Integrity Policy writing 
team which assembled this policy. After this Policy was adopted I 
served as the BOR Scientific Integrity Officer (BSIO). In that 
capacity, I was the official who processed a significant scientific 
integrity allegation (Judge Wanger's September 2011 allegations on 
Delta-Smelt issues).

At the same time, I have personally experienced that Policy from 
another perspective. I was the subject of whistleblower retaliation 
related to scientific integrity. In this connection, I authored and 
filed a scientific integrity allegation under this Policy concerning 
Klamath Dam removal.

From these experiences on both sides of the divide, I am in a unique 
position to offer a critique of the DOI's Scientific Integrity Policy.
I. Lack of Independence and Consistency in Allegation Inquiry Process

Section 3.8 crudely outlines the process for inquiries into allegations 
of scientific and scholarly misconduct and contains a number of flaws 
related to the formality of the inquiry process, due process, 
independence, and accountability that allows the Department to make up 
the procedures as it likes.

        A. Too Much Discretion. The inquiry process called for in the 
        Policy is largely controlled by the DSIO and the Bureau 
        Scientific Integrity Officer (BSIO) who have the authority to 
        summarily dismiss the allegation after reviewing the submitted 
        information. If they determine that an investigation is 
        warranted, then they can perform fact finding, and convene a 
        panel of experts to advise them on the merits of the 
        investigation. As written, these procedures give too much 
        discretion to the DSIO and the BSIO to decide the fate of the 
        allegation and the procedures by which it should be 
        investigated. These procedures should be significantly improved 
        with appropriate oversight, checks and balances.

        B. Lack of Independence. The oversight independence of the DSIO 
        and the BSIO's are dubious since they report to the regular 
        chain-of-command. Additionally, the inquiry process calls for 
        involving the subject's manager and Departmental leadership in 
        the process with little regard for conflicts of interest. The 
        policy needs to establish a separate oversight function that 
        does not report to political appointees or is itself subject to 
        Departmental politics.

         The DSIO, BSIO's and the Department leadership are naturally 
        biased in favor of the Department, and against the allegation: 
        they naturally want the Department to be found to uphold 
        scientific integrity. However, this bias can also purturb the 
        inquiry process. One example: pre-written questions asked of 
        expert panels can naturally lead the panel to a pre-determined 
        conclusion.

         DOI often convenes these panels via sole-source contracts to 
        companies (e.g. ATKINS) that want repeat business; if the panel 
        hired by the company does not find in favor of the Department, 
        it may risk future business. Therefore, it is imperative that 
        the Policy directly address these biases and conflicts of 
        interest, and establish the DSIO and BSIO's with truly 
        independent oversight.

        C. Preeminence of Departmental Mission. The scientific 
        integrity policy creates conflicts when science results do not 
        support the mission or agenda of the Department. In these 
        situations, scientific integrity should not be overridden or 
        bypassed.

         A special provision for political appointees should be 
        included in the Policy that prevents them from managing or 
        influencing the scientific integrity policy or process. The 
        Policy should explicitly state that political agendas and 
        initiatives must be guided by scientific integrity, and that 
        scientific integrity trumps Departmental policies or political 
        agendas.

         Section 3.7A states:

             ``I will act in the interest of the advancement of science 
        and scholarship for sound decision making, by using the most 
        appropriate, best available, high quality scientific and 
        scholarly data and information to support the mission of the 
        Department.'' (Emphasis added)

         By including ``. . . to support the mission of the 
        department'' in this statement, the Policy explicitly places 
        Departmental initiatives and political agendas above scientific 
        integrity. This statement must be dropped.

        D. Lack of Due Process. The Policy's inquiry process does not 
        establish an explicit due process. Even standard scientific 
        peer-review procedures allow for a dialogue to develop better 
        information and resolve issues. The Policy's fact finding and 
        expert panel process should explicitly involve the accuser and 
        the accused in due process proceedings.

        E. No Penalties. The policy does not establish penalties for 
        scientific misconduct, but rather leaves them up to the 
        manager. A formal establishment of penalties and accountability 
        of anyone found guilty of scientific misconduct or retaliation/
        suppression of scientific freedom should be explicitly included 
        in the Policy.

        F. Policy Inconsistencies. The Policy offers a broad code of 
        scientific and scholarly conduct (Section 3.7), and separately 
        offers definitions of scientific and scholarly integrity 
        (Section 3.5L), scientific and scholarly misconduct (Section 
        3.5M), and procedures for reporting and resolving allegations 
        regarding a loss of scientific and scholarly integrity (Section 
        3.8). While there are some ties between these policy statements 
        (for example Section 3.7A(6) and Section 3.7B(2)), there are 
        many guidelines offered in the code of conduct, that when 
        violated are not traceable to the procedures for resolving and 
        reporting a loss of scientific and scholarly integrity (Section 
        3.8).

         Further, the responsibilities sections (Section 3.6G-I) offers 
        different guidance for the same groups of people that the code 
        of conduct addresses (Section 3.7). These definition and Policy 
        inconsistencies make the Policy confusing and less enforceable. 
        These conflicts need to be resolved, with explicit procedures 
        for reporting and resolving any intentional breach of the code 
        of conduct and/or scientific and scholarly integrity (not just 
        plagiarism, falsification and fabrication).

II. Debilitating Lack of Transparency

The Policy would greatly benefit from strong and explicit guarantees of 
transparency. This disturbing lack of openness can be found through the 
DOI scientific process encompassed by the Policy;

        A. Misconduct Inquiries. The Policy's inquiry process has no 
        requirements for public transparency or reporting. To gain the 
        public trust, the Policy should have explicit requirements for 
        transparency and reporting about the way that the Policy is 
        being implemented, the reason decisions were made, and 
        scientific misconduct correction actions.

         The Policy should commit to publicly reporting alleged and 
        confirmed lapses in scientific integrity, and develop and 
        incorporate additional mechanisms to enhance transparency in 
        DOI's adherence to its Scientific Integrity Policy.

        B. Open Science. The Policy should explicitly grant all 
        government scientists the right to freely communicate with the 
        press and the public, without fear of retribution, censorship 
        or consequence. Section 3.4E directs the Department to develop 
        a communications policy along these lines, which was finally 
        issued in March 2012.

         The Policy should ensure that Federal science and decision 
        making is communicated freely and transparently for public 
        scrutiny; this is an important way to reveal and end political 
        interference in science. Federal scientists should be 
        performing and reporting on science that is in the public 
        interest, and the American public (who pay for this science) 
        should be able to trust that its science is not being performed 
        in support of a political agenda.

         Section 3.7A(2) states:

             ``I will communicate the results of scientific and 
        scholarly activities clearly, honestly, objectively, 
        thoroughly, accurately, and in a timely manner.'' This 
        statement should be modified to explicitly include public 
        communication.

        C. Remove FOIA Gag. Civil servants and especially political 
        appointees should be explicitly barred from practices that 
        intentionally avoid creating publically discoverable 
        information under the Freedom of Information Act (FOIA). For 
        example, it is common practice for government managers to 
        instruct their employees to not send Email or create documents 
        pertaining to politically sensitive science issues. The Policy 
        should explicitly prohibit these practices, and categorize them 
        as scientific misconduct.

         Further, the March 2012 DOI Communications Policy forbids 
        employees from disclosing anything covered by a FOIA exemption, 
        such as ``pre-decisional'' information, and discourage 
        specialists from revealing any information not previously 
        published or otherwise publicly released by the Department. 
        These rules effectively restrict scientists from saying 
        anything new, and significantly impede the development of a 
        culture of openness and transparency with the public.

        D. Creating a Clear Scientific Record. Section 3.7A9(10) 
        states: ``I will be diligent in creating, using, preserving, 
        documenting, and maintaining scientific and scholarly 
        collections, records, methodologies, information, and data in 
        accordance with federal and Departmental policy and 
        procedures.'' This should include providing easy public access 
        to this information. Similar modifications are needed for 
        Section 3.7B(3-4).

         The policy should mandate the communication of scientific and 
        technological findings by including a clear explication of 
        underlying assumptions; accurate contextualization of 
        uncertainties; and a description of the probabilities 
        associated with both optimistic and pessimistic projections, 
        including best-case and worst-case scenarios. This information, 
        even if presented in very simple summaries, is critical to 
        support good decision making.

III. No Whistleblower Protection

The DOI policy only provides a cursory mention of whistleblower 
protections, in directing the Department to provide its employees 
information (3.4F).

Current whistleblower laws are complex, are stacked in the governments 
favor, and generally do not protect employees who raise concerns about 
subjects that are part of their jobs. Until these policies are 
improved, DOI should develop and incorporate additional whistleblower 
protections into the Scientific Integrity Policy and provide a more 
detailed explanation of procedural safeguards to be instituted, in 
order to adequately protect agency scientists and employees who report 
scientific misconduct or political interference with their research.

The policy should explicitly grant scientists who report political 
interference in their work protection from retaliation. Explicit 
whistleblower protections must be included in the Policy to ensure not 
only government accountability, but also protection for agency 
employees who exercise their free speech rights and who facilitate the 
free flow of scientific and technological information to challenge 
institutional illegality, abuse of power, or other betrayals of the 
public trust. Government scientists must have the assurance that their 
primary duty is to the American people, and that they have an 
obligation and full protection to uphold the public trust.

Finally, the policy should explicitly protect the accused against 
retaliation or censorship of all parties throughout the allegation and 
inquiry process.

IV. Public and Peer Review

The Policy refers to reviews in several sections, but never explicitly 
defines the review guidelines. The Policy should include explicit 
public- and peer-review definitions and set guidelines for review 
procedures. These guidelines should establish the kinds of work that 
require review, the processes to ensure independent and conflict-free 
reviews and procedures to include due process (reviewer-reviewee 
iterations) and public transparency in the review processes.

There also needs to be an explicit response to review comments, as many 
programs profess that their programs or science are peer-reviewed as a 
justification for their validity, without ever taking action or even 
responding to review findings or suggestions. Finally, the Policy 
should establish procedures for appropriately handling differing 
scientific opinions and ensuring that these opinions are included in 
the final versions of scientific documents.

V. Conflict of Interest

Section 3.5A offers a broad definition of conflict of interest, which 
gives great leeway in subjective interpretation, and does little to 
give practical examples or to enforce conflict of interest rules.

The Policy needs to explicitly define conflict of interest, and give 
practical guidelines and rules. The conflict of interest policy also 
needs to have time guidelines, because conflicts of interest do not 
necessarily disappear once a financial or professional relationship is 
concluded. For example, an individual should be barred from handling of 
scientific decision making (peer-reviews, panels, funding, policy, 
etc.) if they are conflicted in among the following ways:

    <bullet> Lifetime for academic advisee/advisor relationship.

    <bullet> 5-Years for scientific collaboration on a project, report, 
            or paper.

    <bullet> 5-Years for having worked at the same institution.

    <bullet> 5-Years for having had any financial or political 
            interests, or potential to gain or lose.

    <bullet> Any of the above concerning family members.

Moreover, intentional violations of conflict of interest rules should 
be considered scientific misconduct.

The Policy should go beyond a simple definition of conflict of interest 
by strengthening the disclosure of and reducing conflict of interest 
among employees and reviewers.

Section 3.7B(1) states:

             ``I will place quality and objectivity of scientific and 
        scholarly activities and reporting of results ahead of personal 
        gain or allegiance to individuals or organizations.''

This statement implies a subjective and personal managing of conflicts 
of interest that could be dangerous. This statement needs significant 
revision to report on and remove employees from real and perceived 
conflicts of interest situations.

Section 3.7B(6) states:

             ``I will provide constructive, objective, and 
        professionally valid peer review of the work of others, free of 
        any personal or professional jealousy, competition, non-
        scientific disagreement, or conflict of interest.''

This statement also encourages a scientist to internally manage their 
own conflicts of interest. This statement needs to be modified to 
direct the scientist to voluntarily declare any conflicts of interest 
and excuse themselves from the peer review.

                                 ______
                                 

    Dr. Gosar. So, if I heard it right, Mr. Bakst, that would 
be an illegal activity. I just heard it from Mr. Clement.
    Mr. Bakst. Well, assuming that is true, then yes, that 
would be illegal. That is----
    Dr. Gosar. Now, reassignment, to be honest with you, I am 
one of those people that demanded somebody be reassigned. And 
that was a gentleman out of the Southwest Fish and Wildlife 
Service that actually violated the law in the Lake Havasu 
issue. So, reassignment was critical to keeping task and 
science at hand.
    Now, I want to get back to the Obama administration. My 
good friend from California made the comment about the 
Minnesota withdrawal. Let's talk about that. This is a bogus 
probe by the Democrats on this Committee that involved a 
potential twin metals mine in Minnesota. Democrats have FOIA'd 
DOI, sent a bunch of letters, and made a bunch of false claims, 
only to be proven wrong by one of their own.
    In an e-mail sent by Democrat Senator Amy Klobuchar, 
Klobuchar's e-mails prove that what the Obama administration 
did with this 425,000 acre land grant in northern Minnesota, 
the day before President Trump was sworn in, was not based on 
science or process, and was purely a political decision.
    And my comrade from the other side from California got it 
wrong. This had nothing to do with the Boundary Waters. We had 
this discussion over and over again. We want to make sure the 
people have all the facts in that regard. Can you add anything 
to that, Mr. Bakst?
    Mr. Bakst. I mean, my response would be that there can be 
disagreement among scientists. Just because a project doesn't 
move forward that was in a previous administration, there might 
be many reasons why that didn't happen. It might be because the 
current administration, the scientists that they are working 
with don't think that it should move forward. Not everything is 
necessarily an assault on science.
    Dr. Gosar. Thank you. I yield back.
    The Chairman. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman, and thank you to 
all our witnesses who came today.
    I want to talk about Federal employees or Federal 
contractors engaged in scientific research analyzing the 
results of scientific research, communicating the results of 
scientific research, or making policy decisions based on the 
results of scientific research. And this is one of these 
``raise your hand'' questions. I think we may have unanimity on 
this.
    How many of you would agree that these people that I just 
described, listed, should be prohibited from engaging in 
dishonesty, fraud, deceit, misrepresentation, coercive 
manipulation, or other scientific or research misconduct? Go 
ahead and raise your hands.
    [Show of hands.]
    Mr. Cartwright. And I am gratified to see that all four of 
you did.
    How many people think that these people should be 
prohibited from suppressing, altering, interfering with, or 
otherwise impeding the timely release and communication of 
scientific or technical findings? Go ahead and raise your hand.
    [Show of hands.]
    Mr. Cartwright. OK. Mr. Bakst, you are not raising your 
hand.
    Mr. Bakst. I don't have the context in that last example. 
There might be a reason why the timely release may not make 
sense.
    Mr. Cartwright. OK. And how many of you would agree that 
these people should be prohibited from intimidating or coercing 
an individual to alter or censor, or retaliating against an 
individual for failing to alter or censor, scientific or 
technical findings? Raise your hands.
    [Show of hands.]
    Mr. Cartwright. OK. And how many of you would agree that 
these people should be prohibited from implementing 
institutional barriers to cooperation and the timely 
communication of scientific or technical findings? Go ahead and 
raise your hands.
    [Show of hands.]
    Mr. Cartwright. Again you are hesitating, Mr. Bakst.
    Mr. Bakst. I was just thinking about what you are referring 
to.
    Mr. Cartwright. And how many of you are scientists, please? 
Raise your hands.
    [Show of hands.]
    Mr. Cartwright. And Mr. Bakst, you are a lawyer. Is that 
correct?
    Mr. Bakst. I am.
    Mr. Cartwright. And you are employed by The Heritage 
Foundation?
    Mr. Bakst. I am.
    Mr. Cartwright. My understanding is that you are employed 
by The Heritage Foundation primarily in the agricultural area. 
You write articles about agricultural policy for The Heritage 
Foundation. Right?
    Mr. Bakst. Environmental policy and regulatory process.
    Mr. Cartwright. Are you the Mr. Bakst that wrote, ``Three 
Reasons Why USDA Should Not Give Special Aid to Farmers Hit by 
Tariffs,'' on May 20, 2019?
    Mr. Bakst. I am.
    Mr. Cartwright. You are that guy. OK. What I was just 
reading to you from was my colleague Mr. Tonko's bill, the 
Scientific Integrity Act. And it prohibits all of those things 
that I mentioned. And that is why I am a proud co-sponsor, 
along with 203 other Members of the Congress.
    Given, really, the bipartisan nature of support for this, I 
urge my Republican colleagues to jump on board, particularly 
those who are engaging in the ``whataboutism'' that we have 
heard today. Well, it is OK because the prior administrations 
under Democratic control did it.
    If you believe in scientific integrity, you should be a co-
sponsor of the Scientific Integrity Act sponsored by Mr. Tonko 
for these reasons and the other ones expressed today.
    I want to thank all of you for appearing today and shedding 
light on this important topic. Thanks so much, and I yield 
back, Mr. Chairman.
    The Chairman. All right. Mr. Curtis, the time is yours.
    Mr. Curtis. Thank you, Mr. Chairman and Mr. Ranking Member. 
I am pleased to be here today. I want to try to express some 
thoughts that I have had about this that may run a little 
counter to what you otherwise hear.
    I deeply regret that, when it comes to the environment, we 
make this such a partisan issue. And I think if we are going to 
make progress, we need to figure out how to not make it a 
partisan issue. There are three areas where I feel like we are 
missing the mark in making progress, and I would like to 
briefly explain those, and then, to the extent time allows, 
have you comment on these three areas.
    One of them is a word that I hear bantered around a lot 
that just adds to the divisiveness, which is a climate denier. 
And I think it is, to be frank, frequently Republicans are 
accused of being climate deniers. And I have thought a lot 
about this.
    I don't know anybody personally, and I come from the state 
of Utah--who I claim are the best environmentalists in the 
world, we just talk about it in a different vocabulary--that 
doesn't want to leave the environment better than we found it.
    And I have thought about this term climate denier, and I 
want to give it a new definition. And maybe even in doing so I 
am going to make it more divisive than it already is. But it 
seems to me that in this discussion, there is so much emphasis 
on the United States reducing carbon emissions. And if I 
understand the science, we are about 15 percent currently of 
the carbon that is admitted into the atmosphere.
    And, therefore, if we are not willing to talk about the 
other 85 percent, it seems to me that the real climate deniers 
are the ones who are trying to put 100 percent of this burden 
on the United States and leaving out the rest of the world in 
this conversation, and trying to feel like we can solve this by 
ourselves. So, that is the first area that I am curious to get 
your thoughts on.
    The second is what I see, and I call the shaming, which is 
that we are trying to motivate people to be better 
environmental stewards by shaming. And, too frequently, I see 
us doing that, and my experience is that turns people off on 
this discussion instead of engaging them, and that we need to 
figure out a way to reward and incentivize good behavior 
instead of shaming the behavior that we don't like.
    And the third area that I would bring up for your thoughts 
and consideration is this concept that I call ``moving the 
bar,'' and that is this idea that as soon as somebody reaches a 
level of environmental stewardship that is better than where 
they have been, we are very quick to say, ``I am sorry, that is 
not enough. You need to do more.'' And we move that bar. Let me 
give you a really good example.
    I was the mayor of my city. At the time, we were heavily 
dependent--it was municipal power city. We were burning almost 
exclusively coal. And I was told by many people, ``Wow, if you 
could just move to natural gas, you would do wonders.'' Well, 
the moment we moved our city heavily to natural gas, I was 
told, ``Now natural gas is bad,'' and got the shaming effect, 
if that makes sense. At least, this is connected.
    So, I am curious to know your thoughts on, really moving 
forward, making this an issue that is not partisan on these 
three issues which I think are dividing us pretty 
substantially. And I don't know where to start, but if any of 
you want to jump in. And we have just a minute and 18 seconds, 
so if you could be brief and give me your thoughts, that would 
be helpful.
    Dr. Rosenberg. Thank you for that, Congressman. I think 
these are important points.
    First of all, I don't know anyone, certainly anyone in the 
science community, that thinks that the United States should 
solve this climate problem--100 percent of the burden should be 
on the United States. I don't hear that from any scientists.
    Mr. Curtis. Let me clarify, I don't think it is the 
scientists. I think it is the politicians that I hear that 
from.
    Dr. Rosenberg. Well, I think that may be true. And I will 
leave that, thank you. But that is not at all what the 
scientists say. But many people in this discussion believe the 
United States should be a real leader, and I think we probably 
can agree on that.
    On the shaming issue, I think that I entirely agree with 
you. I think that shaming doesn't help in a discussion to find 
solutions. And the point is not shaming unless there is real 
malfeasance involved. Unfortunately, sometimes there is. And I 
think that there are intentional efforts to misinform, 
intentional efforts to misdirect, and I think that in those 
cases they should be called out.
    Moving the bar, I think, is a really important and 
interesting issue. And I would say the problem is that a 
scientist, looking at the natural world, when you ask, ``Well, 
we got rid of coal. Is natural gas not enough?'' I look at the 
natural world and say, ``Well, is that enough?'' And, 
unfortunately, the answer is no. I am not doing this to punish. 
I am simply trying to respond as a scientist to the 
information.
    Mr. Curtis. I am afraid I am out of time. I would love to 
hear from all of you.
    And Mr. Chairman, if you would allow me to just say, in 
conclusion, when I speak of shaming, I am talking about my 
constituents, not people who would be on your radar, if that 
makes sense. Unfortunately, I have yielded my time. I wish we 
had a chance for you all to respond.
    The Chairman. Thank you. The basis of the discussion on 
this hearing is the piece of legislation that the next 
gentleman who is going to ask questions of the witnesses has 
introduced and spearheaded. Mr. Tonko, 5 minutes.
    Mr. Tonko. Thank you, Mr. Chairman. I appreciate your 
holding today's hearing on scientific integrity. I thank 
Chairman Grijalva, and I do thank each and every witness that 
has appeared here today to shed light on this topic.
    There is no question that this issue presents a new urgency 
in our current administration. But I think we can all agree 
that scientific integrity is an issue that demands proper 
oversight regardless of which party is in the Speaker's chair 
or the Oval Office.
    Scientific integrity is not partisan. Good policy and 
decision making have always and will always rely on a 
discussion of facts informed by a scientific process that is 
protected from both political and financial distortion. This is 
especially true at Federal agencies, including the Department 
of the Interior, responsible for administering scientifically 
grounded protections such as the Endangered Species Act.
    One way we can ensure our Federal agencies are conducting 
science of the highest caliber that upholds the public good is 
by building a professional culture where the best and brightest 
scientific minds can thrive without fear of suppression, 
distortion, or retaliation.
    America's scientists should feel supported in their 
advancement as researchers and know that they are able to 
conduct their research without being mistreated or unduly 
pressured by political or special interests. Unfortunately, as 
we have heard, that is not the case today at the Department of 
the Interior.
    Dr. Caffrey and Mr. Clement, this question is for each of 
you. Based on your own experiences and those of your 
colleagues, do you believe scientists at Interior feel like 
sound, objective science is a priority for this administration?
    Dr. Caffrey. Based on my experience, I think my colleagues 
don't think that that is a priority, that this administration 
is not supporting them in their science. And I know of other 
colleagues that cannot talk publicly right now because they are 
in fear of losing their positions. They have experienced 
exactly the same pressure to remove words as I have.
    Mr. Tonko. Thank you. Mr. Clement?
    Mr. Clement. I will just add that I think that scientists 
and career staff at Interior think that objective science is 
seen as a threat to the political appointees at Interior.
    Mr. Tonko. Thank you. And what message are we sending when 
young scientists considering public service see these efforts 
to distort, suppress, or retaliate against scientists for their 
work?
    Mr. Clement. It is so hard to attract good talent at 
Federal agencies when it is publicized that these, for example, 
scientists are being attacked in this way. You don't 
necessarily need to influence policy. Not everyone thinks they 
are going to do that.
    But they do expect to be able to publish, go to 
conferences, further their career as scientists. And when even 
that is not allowed and you have this culture of suppression 
and censorship, it really turns off any potential talent you 
could attract.
    Dr. Caffrey. And I will add to that that they are also 
losing a lot of talent right now. Even if someone is not 
speaking out in such a public fashion like we are, there are 
people that are just moving on to other positions because of 
the pressures being put on them.
    Mr. Tonko. And how could this affect the everyday lives of 
the American people?
    Mr. Clement. I worry about this a lot, partly because of 
the impacts of climate change because that is such a hushed 
issue at Interior. Lives are put at stake, health is put at 
stake, when you don't publish those reports about the toxicity 
about certain chemicals, if you are leaving your offshore oil 
rig workers exposed to certain safety threats because you 
canceled a National Academy study into that very issue halfway 
through. You are putting Americans at risk, and of course 
public lands as well in the case of Interior.
    Mr. Tonko. Thank you. This is an oversight hearing, and 
oversight teaches us important lessons for how we can and 
should do better going forward. I am proud to have introduced 
H.R. 1709, the Scientific Integrity Act, which would protect 
public scientific research and reports from the influence of 
political and special interests with robust scientific 
integrity standards at America's science agencies.
    Dr. Rosenberg, today we have heard about numerous breaches 
of scientific integrity at Interior that have exposed the 
American people to danger, whether by undermining public health 
and the environment or furthering the climate crisis.
    How would stronger scientific integrity standards help 
prevent or address some of those issues we have discussed here 
today?
    Dr. Rosenberg. I think the fundamental thing that the 
Scientific Integrity Act would help do is get the information 
out in the public sphere. It no longer could be hidden. 
Scientists could speak out, and political manipulation of that 
information would be revealed. In other words, people would 
have to justify their decisions on their merits, not by 
constructing a false scientific argument for why it should be 
done.
    Mr. Tonko. Mr. Chairman, I have other questions that I 
wanted to ask. I see my time is up. But I just want to make 
this observation.
    Both sides have cited failure or have condemned actions of 
political parties in the past. If you believe in science and 
scientific integrity, we should have learned from that past and 
look for a reason not to do this, but to be compelled by having 
integrity be the guiding tool, the guiding force and move 
forward and provide for a process that will guarantee that.
    With that, I yield back. Thank you, Mr. Chair.
    The Chairman. Mr. Gosar.
    Dr. Gosar. I thank the Chairman.
    My colleague from New York says it very, very well, and it 
is no different than policy. When you have good process, you 
build good policy, it builds good politics, plain and simple. 
And when my friend from Utah was talking about the climate 
accord, once again this is highlighted by that problem.
    What the whole deal with the Paris Climate Accord was that 
the United States was going to pay for it. That is the key 
here. And once again, it defied this principle. So, good 
process, good policy, good politics would have been to bring it 
back as a treaty where it could have been discussed properly. 
That would have built a good policy to engage, and it would 
have been good politics all the way around.
    But the previous administration chose not to do it that 
way. They engaged in that aspect.
    Mr. Clement, real quickly, I just want to have a question 
anthropologically. How did the Native Americans get to North 
America?
    Mr. Clement. Well, this is getting off the topic of 
scientific integrity. They traveled across the Bering Land 
Bridge to get to North America.
    Dr. Gosar. And how was that possible?
    Mr. Clement. It was possible because there was a time 
during an ice age when the sea level was lower than it is now.
    Dr. Gosar. Interesting. And also probably some plate 
tectonic movements. Would you not agree?
    Mr. Clement. I am not aware of that, sir.
    Dr. Gosar. Well, you are familiar with plate tectonics, are 
you not?
    Mr. Clement. I am certainly aware of that. And I am also 
aware of the multiple lines of scientific evidence that make it 
very clear that climate change is real, it is dangerous, and it 
is human-caused.
    Dr. Gosar. Well, let me ask you a question. Is there ever 
one year the same as another?
    Dr. Rosenberg. No. I think you are talking about weather.
    Dr. Gosar. No, no. But that is what you are doing because 
weather is one year after another, but an accumulation over a 
long period of time. So, my question is: If climate change is 
what you are talking about, how do we find fossilized fish in 
southwestern Wyoming?
    Dr. Rosenberg. I think taking this back to scientific 
integrity, the topic of the hearing, I think it is important to 
acknowledge that the Earth's climate has certainly changed over 
a long period of time. But the issue at play right now is about 
scientific integrity in the agencies, and I think it is very 
important that we consider the multiple lines of looking at it.
    Dr. Gosar. My understanding, reclaiming my time, is that 
you have to have accumulation over time. We occupy such a small 
part of history of the Earth that it is very hard sometimes to 
extrapolate that. So, the comments that I was coming back to, 
my gentle friend from Utah, was exactly that. I don't think 
anybody denies that climate is always changing. I think there 
is nobody that will say that.
    But I think the priorities are what can man do, and what 
cannot man do, like i.e. the sun? Would you agree with me that 
the sun has more implications on our weather and climate than 
does man?
    Dr. Rosenberg. The climate has certainly always changed. 
There is no question about that. The climate has not changed at 
this pace and to this extent during the course of human 
civilization.
    Dr. Gosar. Well, has the Earth changed dramatically before 
man, at a more rapid scale?
    Dr. Rosenberg. It certainly has. During the time of the 
dinosaurs, of course, they were wiped out by a very dramatic 
change.
    Dr. Gosar. Yes. It did.
    Dr. Rosenberg. Sixty-five million years.
    Dr. Gosar. With my remaining time, I want to go to you, Mr. 
Bakst. In your testimony, you describe how species were 
commonly listed under the Obama administration based on 
settlements that occurred behind closed doors with advocacy 
groups. Clearly, these listings were not based on science, and 
``sue and settle'' was abused by the previous administration 
like never before.
    Can you elaborate how science was not utilized in these 
decisions?
    Mr. Bakst. Well, one of the problems with ``sue and 
settle'' is we don't know what has happened behind the closed 
doors. The public doesn't have a voice, other parties besides 
the government agencies and the environmental groups. Suing the 
agency, only they know what is actually going on. It is hard to 
challenge it.
    So, whether or not there is science actually involved, who 
knows? We don't know. So, with the Hine's emerald dragonfly, 
for example, the example that I used in my testimony, the 
previous administration basically did not think it should be 
listed. Then the Obama administration said it should be.
    Critical habitat acreage went from 13,000 to 26,000 acres. 
We have no idea why. I mean, this is a process question. And 
one of the things that President Obama said in his memorandum 
was that the public needs to have trust in the scientific 
process, not just the science.
    Well, you cannot have trust in a scientific process when 
you are not even a part of the process and you don't even know 
whether or not science is even involved in the process. And 
that is what ``sue and settle'' does. We need to address that, 
definitely.
    Dr. Gosar. I thank you, and I yield back.
    The Chairman. Mr. Neguse, the time is yours.
    Mr. Neguse. Thank you, Mr. Chairman. I appreciate the 
opportunity. Thank you for holding this hearing.
    I first just want to say I am a new lawmaker, a freshman 
lawmaker like some of my colleagues, and I have participated in 
many hearings this year. And there is a term that I have heard 
quite often, ``political theater.''
    I heard it at a Committee hearing that we held this morning 
in the Judiciary Committee on the Administration's disastrous 
child-family separation policy, and heard it earlier today. And 
with all the respect in the world for my colleague, I would 
just say that these topics merit consideration and attention by 
the committees of jurisdiction.
    And in this case, I am thankful that the Chairman has 
empaneled this hearing on scientific integrity, and with 
respect to Representative Tonko's bill, the opportunity for us 
to delve deeper on that front. And I find it a bit odd, or 
perhaps absurd, for individuals to describe these hearings as 
political theater when apparently they are participating in the 
hearings. But I digress.
    Thank you again, Mr. Chairman. I have the honor of 
representing Colorado's 2nd District, which includes the 
University of Colorado Boulder and Colorado State University. 
And my district is about 50 percent public lands. So, it would 
come as no surprise to many that today's topic is of critical 
importance to myself and my constituents.
    The work of scientists in my district relies on the freedom 
to share scientific research in its entirety without political 
interference, intimidation, or the removal of important facts. 
This issue goes far beyond one paper being censored or one 
scientist being told not to use the term climate change. It is 
a threat to the future of our scientific work force. It 
undermines the gold standard, the peer review process that 
research undergoes in this country, and ultimately lead to poor 
policy making.
    So, with that in mind, I would like to welcome Dr. Caffrey, 
and I apologize I was not here to welcome you earlier as a 
constituent. We are honored to have you here before our 
Committee. I want to thank you for having the courage to share 
your story, not just today with all of us but previously.
    I have been following your story closely, as you may know, 
not just because it is such a blatant violation of the 
scientific principles we should all believe in, but also 
because you conducted your research at the University of 
Colorado Boulder, which happens to be both in my district and 
is my alma mater. So, your story certainly hits home for me.
    In fact, I specifically brought up your experience of 
climate censorship to Secretary Bernhardt when he testified 
where you are sitting, in front of the Committee, just a few 
months ago, in May. Following that hearing, I sent a letter to 
the Department of the Interior Office of the Inspector General, 
requesting that the investigation into your case be reopened 
and completed. I would like to ask unanimous consent for that 
letter and the OIG's response to be submitted for the record. I 
will do so at the conclusion of my remarks.
    Unfortunately, DOI OIG responded less than 2 weeks later, 
stating, ``The OIG will not reopen the matter because the 
report was issued as written. There is no apparent evidence of 
scientific misconduct, and our OIG resources were needed on 
higher priority matters.''
    Dr. Caffrey, do you agree that the report was published as 
originally authored?
    Dr. Caffrey. I completely disagree. I had one of my co-
authors, Dr. Patrick Gonzales, he removed his name, in part 
because he was dealing with his own scientific integrity 
violations. He had a scientific article at the same time that 
he was attempting to release that was having those exact same 
words removed from it.
    Mr. Neguse. Do you agree, Dr. Caffrey, that instances of 
climate censorship as you experienced it and your colleague's, 
should be high on OIG's list of priority matters?
    Dr. Caffrey. Absolutely.
    Mr. Neguse. I suspect you have seen the letter from the 
OIG. In that same letter, I requested that the OIG investigate 
the retaliation that you outlined in your testimony. They 
responded that they believe that there was ``insufficient 
evidence'' to open an investigation.
    Do you believe that that response is a satisfactory one?
    Dr. Caffrey. No.
    Mr. Neguse. Well, we are certainly going to continue to 
call attention to your case in particular, and to try to do 
what we can to hold the folks at the Department of the Interior 
accountable. I appreciate again your courage in sharing your 
story, and I think your story underscores why Representative 
Tonko's legislation is so critically important.
    Finally, Dr. Rosenberg, I am just going to give you an 
opportunity to respond to some of the prior exchange. I was 
going to ask you a specific question about the secret science 
rule, but the exchange that I witnessed earlier underscored for 
me that perhaps folks that are here at this side of the dais 
should stick to policy making and we should let the scientists 
stick to science. Perhaps you can expound upon that.
    The Chairman. Unfortunately, Doctor, you have about 14 
seconds to expound.
    Dr. Rosenberg. Now 11. Thank you, Mr. Chairman, and thank 
you for the question.
    I do believe that there has been a great switch to talking 
about scientific misconduct, which has mechanisms in place to 
address within our system, compared to scientific integrity, 
which is the misconduct of others to suppress science. I think 
the focus should be on scientific integrity. And that is all I 
have time for.
    The Chairman. Mr. Bishop, the time is yours, sir.
    Mr. Bishop. Thank you.
    I am sorry Mr. Cartwright had to leave again, as did many 
of the others, because he made a unique distinction between 
employee and contractors and what kinds of options and rights 
that you have.
    Ms. Caffrey, is it correct you were never a full-time 
employee of the Park Service. You were a contractor. Correct?
    Dr. Caffrey. No. I was a partner. I was not a contractor.
    Mr. Bishop. No. That is not, you were a--were you ever a 
full-time employee?
    Dr. Caffrey. Of the National Park Service?
    Mr. Bishop. A full-time employee of the Department of the 
Interior. Ever.
    Dr. Caffrey. No.
    Mr. Bishop. OK. You were a contractor, then. There are 
different----
    Dr. Caffrey. No, I was not.
    Mr. Bishop. Yes. You can make those distinctions if you 
want to, but it doesn't make a difference.
    I do want entered into the record, though, what the 
Inspector General has reported about your situation because it 
has been written as being moot because your report was 
published without edits. That is the official statement from 
the Inspector General. If you want to challenge the Inspector 
General for any other reason, you do that. But that was the 
official statement that was going there.
    But let's move above that. Actually, how much were you paid 
for your work?
    Dr. Caffrey. $25,000. In the last year, I was bumped down 
to an intern status.
    Mr. Bishop. What is the total amount? Because----
    Dr. Caffrey. Oh, for the actual grant?
    Mr. Bishop. For everything, yes.
    Dr. Caffrey. Somewhere over $500,000 that was paid.
    Mr. Bishop. So, you got a half a million dollars for what 
you were doing.
    Dr. Caffrey. I did not, no. The University of Colorado did.
    Mr. Bishop. It is nice, but that is what was the contract, 
which is why you were a contractor.
    Mr. Bakst, let's move on to that as to something that is 
distinctively different here. Can you discuss any valid or 
legitimate reasons why any administration, Republican or 
Democrat, may want certain portions of a contractor-drafted 
report to be edited?
    Mr. Bakst. Sure. I mean, I think there is this assumption 
that it is just because of--out of bad faith. But there are 
many reasons why. And I am not necessarily referring to the 
specific instance, but just generally. The language may not be 
science in nature, as we talked about. It might just be 
opinion. It might not be describing what is but what should be, 
so that is not exactly a scientific decision. The substance of 
a report may be disconnected with the purpose of the report.
    Mr. Bishop. So, all these things you are talking about, is 
there a distinct difference between what you referenced here 
and malicious stifling of scientific integrity and research?
    Mr. Bakst. Yes. Because, quite honestly, like I am saying, 
in these instances there are legitimate reasons why the 
Government may choose not to move forward with a particular 
report, including ensuring that the science has integrity, has 
been peer reviewed properly, that it is accurate, it is 
reliable, and it is reproducible.
    Mr. Bishop. We are witnessing one of the unique phenomenon 
during this administration, where FOIA requests are up, actual 
complaints are significantly down. But we did see in the prior 
administration when there are significant amounts of accuracy 
complaints, and yet some people said nothing at that particular 
period of time.
    I remember being here when Dan Ashe simply said that if 
there is little information available--talking about a specific 
ESA issue--then oftentimes we go to the experts and ask the 
experts for their best professional judgment. And that becomes 
our policy. Does that statement embody to you the best 
available science or scientific integrity?
    Mr. Bakst. That is the exact opposite of what should be 
done. If there is too little information available, then the 
Federal Government should just be honest about that fact and 
not overstate its case and not draw conclusions, and just 
explain what it does know that can flow from the information 
available.
    Mr. Bishop. But that is exactly what happened in the last 
administration. So, in your actual opening testimony, you also 
talked about the quote from the President back then in 2009 
about what they hoped to be as far as transparency. Did the 
previous administration achieve that goal that it laid out in 
the quote?
    Mr. Bakst. No. Not really. I think you saw that with Dr. 
Houser's incident. You see that with the examples I talked 
about with the water rule, you see that with sue and settle 
issues which are unprecedented during the Obama administration, 
and other many examples that are both included in my testimony 
and elsewhere.
    Mr. Bishop. Including with--and I appreciate you talking 
about the sue and settlement concept with Mr. Gosar as well. 
When we have certain groups like the Center for Biological 
Diversity that has 143 lawsuits going on right now, does that 
lend itself to greater scientific integrity, or does it lend 
itself to more political decisions being made behind closed 
doors?
    Mr. Bakst. That is political decisions being made behind 
closed doors. If it was not, it should be transparent and allow 
the public to participate in the process and let us test the 
science. For that discussed today, I don't really know that 
anybody really disagrees with that. Let's make sure the best 
science is used.
    Mr. Bishop. OK. So, I don't have to actually yield back. I 
don't owe you 2, 3, 4, 5 seconds more. I thank you and yield 
back, and I think you have illustrated some of the problems we 
have in looking at this administration versus past 
administrations and having a dual standard. That is why this is 
somewhat of a partisan hearing. Somewhat. A little bit. 
Slightly.
    It is your time, Mr. Grijalva.
    The Chairman. Thank you. Let me recognize a very patient 
gentleman, Mr. Clay. The time is yours.
    Mr. Clay. Thank you, Mr. Chairman. I would hope that we 
would not veer too far off course in this Committee. The topic 
is scientific integrity. And I do remember 4 years ago the last 
hearing we had on this subject, and it seems like a replay in 
some respects because we still have those on the other side who 
want to deny climate, want to deny science, and we know that 
policy decisions should be based on facts and informed by sound 
scientific research.
    And with that, let me go to Dr. Caffrey. Could you recall 
any other specific argumentative points or scientific-based 
reasons from the National Park Service for the removal of your 
references?
    Dr. Caffrey. No. And, in fact, I was in a meeting where at 
one point they completely dropped their defenses and said, ``We 
have to remove this because we could lose the Climate Change 
Response Program if this report includes this information 
because it is not consistent with what the Trump administration 
wants,'' not----
    Mr. Clay. And had no real argument against your sound 
reasoning?
    Dr. Caffrey. No. Initially they used their objection 
because I used the word anthropogenic. But then when I was in a 
meeting, I actually had the Associate Director slapping papers 
on the desk, saying that he cannot allow this to happen because 
if that occurs, he could be relocated to somewhere else in the 
country. He could be replaced with someone who would not be as 
nice to me as he is.
    I had another colleague take me outside, walk me around the 
building, and she said she didn't want to be reassigned because 
she has children, and that I should think about her children. 
So, they completely dropped their defenses on the scientific 
reasoning.
    Mr. Clay. It sounds as though they lacked a real backbone.
    Dr. Caffrey. Correct.
    Mr. Clay. Let me ask Dr. Rosenberg, in your testimony you 
mention President Trump's recent Executive Order to cut the 
number of agency advisory panels by one-third.
    Do you think this decision positively or negatively impacts 
environmental justice leaders in their communities?
    Dr. Rosenberg. I think it negatively impacts environmental 
justice leaders and the causes they are fighting for.
    Mr. Clay. OK. Let me ask Mr. Bakst, while reading through 
your recommendations, I saw one point suggesting agencies, and 
I quote, ``Agencies should appropriately qualify any 
conclusions, including where there might be doubts regarding 
science.'' Do you really believe that, Mr. Bakst?
    Mr. Bakst. You are talking about in my written testimony?
    Mr. Clay. Yes.
    Mr. Bakst. Should they qualify--yes. They should not draw 
conclusions----
    Mr. Clay. Make conclusions----
    Mr. Bakst [continuing]. Based on what the science actually 
tells them.
    Mr. Clay. And you say where there might be doubts regarding 
the science.
    Mr. Bakst. Right. Where there might be doubts in the 
science, they should articulate the fact that there are 
uncertainties that exist and not go beyond making something 
sound definitive.
    Mr. Clay. So, who would qualify or challenge the science? 
Would it be another scientist, or would it be someone, say, 
like you who just doesn't believe it, or what?
    Mr. Bakst. No. First of all, actually, ideally what would 
happen is the public would be able to challenge it. That is why 
I have been strong about advocating the Information Quality 
Act. The science should be able----
    Mr. Clay. The public--excuse me--the public should 
challenge the science?
    Mr. Bakst. The public, including scientists, should be able 
to use the Information Quality Act. First of all, IQA does 
allow requests for correction and the ability to go to agencies 
to challenge the science.
    Mr. Clay. All right. So, do you think you have the 
credentials to challenge?
    Mr. Bakst. No. I am not a scientist. I would not be 
articulating a scientific--I am not trying to make a scientific 
argument. I would not be there. And I am not making it today. I 
am making policy arguments. And it is important that those 
distinctions be drawn.
    Mr. Clay. And it sounds as though you just refuse to accept 
the science. Is that what this comes down to?
    Mr. Bakst. No. All I have been talking about----
    The Chairman. That you don't agree with the science?
    Mr. Bakst. Actually, the entire testimony in my testimony 
today and the world testimony is all about process, and it is 
about policy. It is not about the actual substance of the 
science. And for the most part, I don't think my colleagues 
here on the panel have been discussing too much of the science, 
either.
    Mr. Clay. Well, my time is up, and it looks like I am going 
to have to yield back. But, I mean, this is incredible.
    The Chairman. Thank you, Mr. Clay.
    Mr. Bishop. That is the way it is with all cardinals, Mr. 
Clay.
    The Chairman. Mr. Cunningham, the time is yours.
    Mr. Cunningham. Thank you, Mr. Chair, for holding this 
important hearing. And I want to thank the witnesses for 
testifying on their scientific integrity experiences at the 
Interior Department. And thank you for your time here today.
    In my past life, before being elected to Congress, I worked 
as an ocean engineer. And at a very basic level, engineering is 
the practice of applying scientific principles to solve real-
world problems, whether it is to build a bridge, or create new 
types of medicine, write software, or protect marine resources.
    But if you don't use the most objective and recent science, 
engineers will inevitably make bad decisions that produce bad 
results. In many ways, these same principles apply to decision 
making in Federal agencies. And as we have heard here today 
under both former Secretary Zinke and now under Secretary 
Bernhardt, there has been no shortage of bad decisions made 
with limited transparency. Science itself is clearly under 
attack.
    And this is especially true when it comes to offshore 
drilling. And since January 2017, there have been multiple 
instances of the Interior Department basing its offshore oil 
and gas decisions on politics as opposed to sound science. And 
Interior has tried to mislead the public about what exactly is 
happening.
    Interior halted a National Academy of Science study on 
improving inspections of offshore oil and gas development. The 
Interior rolled back offshore oil and gas regulations developed 
following the Deepwater Horizon explosion oil spill. And most 
recently, Secretary Bernhardt has decided to hide the 5-year 
plan until after the 2020 Presidential election because the 
Administration knows full well that leasing off the coast of 
South Carolina and Florida would come with significant 
political risk.
    So, Dr. Rosenberg, can you discuss some of the ways 
scientific integrity and transparency are under attack at the 
Interior Department, especially as they relate to offshore oil 
and gas development?
    Dr. Rosenberg. Yes. Thank you, Congressman, for your 
comments. And it is great to have a fellow ocean scientist 
here.
    The types of attacks really are sidelining the science 
completely from the discussion, and in many cases, from our 
information, that means that the scientists and the 
professional staff are not even part of the decision-making 
process. They are not even in the room.
    So, moving forward with actions on offshore oil and gas, 
including leasing actions, the safety actions, and others are 
being taken at a political level without developing the 
appropriate information as they go forward. And, unfortunately, 
we are seeing that in other bureaus on other kinds of areas in 
the Department as well, including those that are cited in my 
testimony.
    So, it really is a full-scale sidelining of the science 
from the process of making those decisions. And that means that 
you can make a wholly political decision. You no longer have 
the facts to constrain you.
    Mr. Cunningham. Thank you, Dr. Rosenberg. And as the old 
saying goes, everybody is entitled to their own opinion, but 
not everybody is entitled to their own facts. Right? We should 
agree on, objectively, a set of facts to work from.
    Dr. Rosenberg. That is correct.
    Mr. Cunningham. Thank you for that.
    Mr. Clement, in 2004, Hurricane Ivan hit the Gulf of Mexico 
and caused an underwater mud slide that destroyed the Taylor 
Energy oil platform, which has resulted in the longest oil 
spill in U.S. history, and a spill that is still occurring here 
today.
    And now, while it is difficult to say that Hurricane Ivan 
was the result of climate change, I think there are lessons we 
can learn from this event that should--should--influence 
current and future decision making. Climate change is going to 
result in sea level rise, and storms and hurricanes that batter 
the Atlantic coast will increase in intensity.
    It is reasonable to assume that this increased storm 
intensity as a result of climate change will increase the 
likelihood of oil spills and accidents that could cripple local 
coastal economies like those in South Carolina should offshore 
drilling come to our state.
    So, my question to you is: Do you think the Interior 
Department should incorporate the risk of climate change into 
decisions about whether to open new regions like the South 
Atlantic to offshore oil and gas development?
    Mr. Clement. They absolutely should, in many ways. We don't 
always attribute these calamities of a particular hurricane to 
climate change, but we know the dice is loaded now. We know 
that sea level rise is going to affect storm surge levels. We 
know these hurricanes now speed up very rapidly and they hold a 
lot more water. So, there is no development, frankly, that 
should take place without understanding those considerations.
    Mr. Cunningham. Thank you, Mr. Clement. And thank you to 
every one of the witnesses for coming today. I yield back.
    The Chairman. Thank you very much. And let me also thank 
the witnesses. And let me recognize myself.
    Dr. Rosenberg, the Union of Concerned Scientists, they have 
published multiple reports on the attacks on science under the 
Trump administration. One of these reports, I believe, focused 
solely on the Department of the Interior. Also, you did some 
polling of Interior employees as well?
    Dr. Rosenberg. That is right.
    The Chairman. Talk about that in terms of both the poll and 
the different ways that we are seeing science being 
marginalized, suppressed, and in particular around Interior, if 
you would.
    Dr. Rosenberg. Yes. Thank you, Mr. Chairman, for the 
question. In our polling of scientists, which we have done in 
multiple administrations, as we have evaluated what we view as 
compromises of scientific integrity in previous administrations 
as well, we have found that a majority of scientists within 
Interior are now saying that political interference in their 
work is one of the predominant reasons why they are struggling 
to put forward the information they need.
    We have found that a majority have said they would be 
afraid to file a scientific integrity complaint. So, to the 
data that was put up before, the reason complaints are down is 
because people are afraid to file them, and that there are not 
the processes in place to accept those complaints.
    We have found specific instances of intimidation that have 
occurred, not only those for my colleagues on this panel but 
many other scientists are reporting that they are not allowed 
to use certain language. They are not allowed to issue grants. 
Grants are politically manipulated, and so on.
    Many of these kinds of cases are at a much higher rate than 
in previous administrations. It is certainly the case that 
there have been compromises in previous administrations. We 
have been doing these surveys and these analyses back to the 
George W. Bush administration.
    So, the effort to strengthen scientific integrity was not 
focused solely on the Trump administration, and it has been 
critical, though, to highlight those cases where science has 
just been left out of the public policy process, such as in 
Arizona, as you noted in your opening comments, with 
artificially constraining the analysis around the development, 
a very large-scale development, and many others.
    The Chairman. Thank you very much.
    Dr. Caffrey, Mr. Clement, both your stories are disturbing, 
truly disturbing. And it is true that both your professional 
and personal lives have been forever changed and altered, and 
there has been much personal sacrifice on the part of both of 
you.
    But I want to ask you a question about who else is impacted 
when science at Interior is threatened, when the empirical 
information is not available to help guide policy so that there 
is a basis for policy discussion as opposed to just open-ended, 
where whoever has the controlling interest controls the policy? 
What is the basis? And I think science and empirical 
information provide that to policy makers to have a guide.
    Who else is affected? Who else is threatened? The average 
person out there, how is their life affected if science is 
suppressed, silenced, and marginalized in decision making and 
in the work of critical agencies like Interior and EPA, I would 
say as well. Either one.
    Mr. Clement. Yes, good question, Chairman. I think that we 
can safely say now that we are all affected by many of these 
conditions. And particularly in the case of EPA, we are just so 
focused on the health and safety of Americans and these 
chemicals that have been thoroughly studied.
    To suppress those summaries has a direct effect on the 
grandmother down the street and the grocer. Right? There are 
more extreme examples that I have described, like the Alaska 
Natives or the people that live on the Pacific island atolls. A 
USGS study came out, completely ignored by the Administration, 
saying they have until mid-century, which is 20 or 30 years----
    The Chairman. We have to move these people, right.
    Mr. Clement [continuing]. Before they are going to be 
unlivable atolls. So, there are people around the world that 
are being affected by this.
    The Chairman. I appreciate that.
    Ms. Caffrey? In the limited time I have left.
    Dr. Caffrey. Yes. Just to build on that as well. From the 
climate change perspective, we are also short-changing our 
future generations by denying the science right now. We need to 
take action. We need to be present. We cannot wait 8 years to 
take action.
    The Chairman. I want to thank all of you for your valuable 
testimony, and I appreciate it very much. If there is no 
further business--without objection, Mr. Bishop's item for the 
record.

    [The information follows:]

Submission for the Record by Rep. Bishop

      Summary: Alleged Scientific Integrity Violations Related to
                      National Park Service Report

Report Date: July 10, 2018
Report Number: 18-0706

The OIG opened an investigation based on an allegation that National 
Park Service (NPS) officials inappropriately sought to remove 
references to human-caused climate change in an NPS report related to 
sea level rise and storm surge projections at NPS properties.

Shortly after we opened our investigation, the NPS published the report 
with all original references to human-caused climate change. Because 
the report was published without edits, we closed our investigation.

This is a summary of an investigative report that we provided to the 
NPS Deputy Director.

                                 ______
                                 

    The Chairman. The members of the Committee may have some 
additional questions to the witnesses. Please respond to those 
in writing. The Members will have 3 business days following the 
hearing to submit questions. If there are questions, we will 
forward those to you and we would appreciate your responses 
very much. And any additional information that you feel is 
pertinent, please forward it as well.

    With that, the meeting is adjourned. Thank you very much.

    [Whereupon, at 4:10 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submissions for the Record by Rep. Grijalva

                                                    October 4, 2017

Secretary Ryan Zinke
U.S. Department of the Interior
Washington, DC

    Dear Secretary Zinke:

    I hereby resign my position as Senior Advisor at the U.S. 
Department of the Interior (DOI).

    The career men and women of DOI serve because they believe in DOI's 
mission to protect our nation's natural and cultural resources and they 
believe that service to this country is a responsibility and an honor. 
I'm proud to have served at DOI alongside such devoted public servants, 
and I share their dedication to the mission and country, so it is with 
a heavy heart that I am resigning as a senior official at the 
Department. I have three reasons for my resignation:

    Poor Leadership. I blew the whistle on the Trump administration 
because I believe you unlawfully retaliated against me for disclosing 
the perilous impacts of climate change upon Alaska Native communities 
and for working to help get them out of harm's way. The investigations 
into my whistleblower complaints are ongoing and I hope to prevail.

    Retaliating against civil servants for raising health and safety 
concerns is unlawful, but there are many more items to add to your 
resume of failure: You and President Trump have waged an all-out 
assault on the civil service by muzzling scientists and policy experts 
like myself; you conducted an arbitrary and sloppy review of our 
treasured National Monuments to score political points; your team has 
compromised tribal sovereignty by limiting programs meant to serve 
Indians and Alaska Natives; you are undercutting important work to 
protect the western sage grouse and its habitat; you eliminated a rule 
that prevented oil and gas interests from cheating taxpayers on royalty 
payments; you cancelled the moratorium on a failed coal leasing program 
that was also shortchanging taxpayers; and you even cancelled a study 
into the health risks of people living near mountaintop removal coal 
mines after rescinding a rule that would have protected their health.

    You have disrespected the career staff of the Department by 
questioning their loyalty and you have played fast and loose with 
government regulations to score points with your political base at the 
expense of American health and safety. Secretary Zinke, your agenda 
profoundly undermines the DOI mission and betrays the American people.

    Waste of Taxpayer Dollars. My background is in science, policy, and 
climate change. You reassigned me to the Office of Natural Resources 
Revenue. My new colleagues were as surprised as I was by the 
involuntary reassignment to a job title with no duties in an office 
that specializes in auditing and dispersing fossil fuel royalty income. 
They acted in good faith to find a role for me, and I deeply appreciate 
their efforts. In the end, however, reassigning and training me as an 
auditor when I have no background in that field will involve an 
exorbitant amount of time and effort on the part of my colleagues, 
incur significant taxpayer expense, and create a situation in which 
these talented specialists are being led by someone without experience 
in their field. I choose to save them the trouble, save taxpayer 
dollars, and honor the organization by stepping away to find a role 
more suited to my skills. Secretary Zinke, you and your fellow high-
flying Cabinet officials have demonstrated over and over that you are 
willing to waste taxpayer dollars, but I'm not.

    Climate Change Is Real and It's Dangerous. I have highlighted the 
Alaska Native communities on the brink in the Arctic, but many other 
Americans are facing climate impacts head-on. Families in the path of 
devastating hurricanes, businesses in coastal communities experiencing 
frequent and severe flooding, fishermen pulling up empty nets due to 
warming seas, medical professionals working to understand new disease 
vectors, farming communities hit by floods of biblical proportions, and 
owners of forestlands laid waste by invasive insects. These are just a 
few of the impacts Americans face. If the Trump administration 
continues to try to silence experts in science, health and other 
fields, many more Americans, and the natural ecosystems upon which they 
depend, will be put at risk.

    The solutions and adaptations to these impacts will be complex, but 
exponentially less difficult and expensive than waiting until tragedy 
strikes--as we have seen with Houston, Florida, the US Virgin Islands, 
and Puerto Rico--and there is no time to waste. We must act quickly to 
limit climate change while also preparing for its impacts.

    Secretary Zinke: It is well known that you, Deputy Secretary David 
Bernhardt, and President Trump are shackled to special interests such 
as oil, gas, and mining. You are unwilling to lead on climate change, 
and cannot be trusted with our nation's natural resources.

    So for those three compelling reasons--poor leadership, waste, and 
your failures on climate change, I tender my resignation. The best use 
of my skills is to join with the majority of Americans who understand 
what's at stake, working to find ways to innovate and thrive despite 
the many hurdles ahead. You have not silenced me; I will continue to be 
an outspoken advocate for action, and my voice will be part of the 
American chorus calling for your resignation so that someone loyal to 
the interests of all Americans, not just special interests, can take 
your job.

    My thoughts and wishes are with the career women and men who remain 
at DOI. I encourage them to persist when possible, resist when 
necessary, and speak truth to power so the institution may recover and 
thrive once this assault on its mission is over.

            Sincerely,

                                               Joel Clement

                                 ______
                                 

                        STATEMENT FOR THE RECORD
                    U.S. DEPARTMENT OF THE INTERIOR
                             July 25, 2019

    Chairman Grijalva, Ranking Member Bishop and Members of the 
Committee, thank you for the opportunity to discuss the scientific 
integrity enterprise that supports science at the Department of the 
Interior (Department).
Scientific Integrity at the Department of the Interior

    First and foremost, scientific and scholarly information considered 
in Departmental decision making must be robust and of the highest 
quality. Most importantly, it must be trustworthy. The Department's 
reputation for scientific integrity is central to the Department's 
mission. Our scientific integrity infrastructure has been established 
over the past decade and it is designed to protect the scientific 
record, independent of individual administrations. The Department's 
scientific integrity policy assures the integrity of scientific and 
scholarly activities it conducts and the science and scholarship it 
uses to inform management and public policy decisions. Our policy \1\ 
was put in place in 2011, and subsequently the Department was lauded as 
an early adopter and leader across the federal government for 
scientific integrity.
---------------------------------------------------------------------------
    \1\ https://www.doi.gov/scientificintegrity.

    The Department's Scientific Integrity Officer for more than three 
years has been William Werkheiser, a long-serving employee of the U.S. 
Geological Survey (USGS). During his 30-year tenure in government, he 
served most recently as Deputy Director of the USGS. Prior to this 
position, he was the Associate Director for Water, overseeing all 
aspects of the bureau's programs in water science. He was also 
appointed Science Advisor to the Secretary of the Interior in February 
---------------------------------------------------------------------------
2019.

    The Department defines scientific integrity as the adherence to 
ethical and professional standards that lead to objective, clear, and 
reproducible science. We recognize that promoting scientific integrity 
is critical to protecting science from bias, fabrication, 
falsification, and plagiarism. The goals and purpose of our policy have 
not changed since 2011. However, we recognized the need to update the 
policy and developed a procedural handbook in 2014 \2\ to provide 
procedures and guidance for implementing the policy. These changes 
strengthened integrity in the Department by building additional 
supporting infrastructure and by describing the purpose and process in 
greater detail. Most recently, Secretary's Order 3369, ``Promoting Open 
Science,'' signed in 2018, will enhance the Department's reputation as 
a leader in the field of scientific integrity by making the 
Department's data, analysis, and methodology more available to the 
public.
---------------------------------------------------------------------------
    \2\ https://www.doi.gov/sites/doi.gov/files/elips/documents/
305%20DM%203_%20Handbook%20-%20Scientific%20Integrity%20Procedures.pdf.

    While our policy is well known and objectively embodies the ideals 
of scientific integrity, this statement focuses on its implementation 
and the elements that make up the scientific integrity infrastructure 
here at the Department. This topic was most recently reviewed by the 
Government Accountability Office (GAO) \3\ in its April 2019 Report, 
``Scientific Integrity Policies: Additional Actions Could Strengthen 
Integrity of Federal Research,'' which looked specifically at nine 
agencies including USGS. While that Report found that USGS had taken a 
number of significant steps to achieve the objectives of its scientific 
integrity policy, we would like to highlight some of the Department-
centric elements not discussed in the GAO assessment.
---------------------------------------------------------------------------
    \3\ https://www.gao.gov/assets/700/698231.pdf.

1. Providing Oversight: Department Scientific Integrity Officer and 
---------------------------------------------------------------------------
        Bureau Scientific Integrity Officers (BSIOs)

        At the Departmental level, the DSIO provides Department-wide 
        leadership and implements the scientific integrity policy. In 
        addition, each bureau within the Department has a Bureau 
        Scientific Integrity Officer (BSIO) responsible for the 
        implementation of the scientific integrity policy at their 
        bureau. All of these employees perform these duties ancillary 
        to their position of record. The DSIO and BSIOs meet twice a 
        year to discuss best practices, creating economies of scale on 
        cross cutting initiatives like training, trend analysis, policy 
        development, and program improvements. The responsibilities of 
        these positions, as well as others in the Department that are 
        integral to the process, are defined in the Department's 
        policies.

2. Procedures for Identifying and Addressing Alleged Violations of the 
        Scientific Integrity Policy

        The Department's policy and Handbook also outline the process 
        for addressing violations of the scientific integrity policy, 
        including how to report an allegation, how they are reviewed, 
        and how they are resolved. In summary, scientific integrity 
        allegations can be formally reported to the Office of the 
        Executive Secretariat (OES) (``Formal Allegations'') or can be 
        informally reported to scientific integrity staff at a bureau 
        through a scientific integrity ombudsman or mediation route 
        (``Informal Allegations''). Informal allegations are an 
        important mechanism for federal scientists to resolve issues 
        without initiating a formal review, which may not be 
        appropriate depending on the issue. Following review, informal 
        allegations can be elevated to OES by the BSIO as formal 
        allegations.

        All allegations receive an initial review. The BSIO, if a 
        single bureau is involved, is responsible for the receipt of an 
        allegation and making the final determination as to whether 
        scientific integrity has been lost. The DSIO acts as the 
        decision-maker when an allegation involves multiple bureaus or 
        the Office of the Secretary. The dispensation of all formal 
        allegations is made available to the public on the Department's 
        Scientific Integrity web page (case closed summaries).\4\
---------------------------------------------------------------------------
    \4\ https://www.doi.gov/scientificintegrity/closed-cases.

---------------------------------------------------------------------------
3. Training/Educating Staff

        Starting in 2015, scientific integrity training has been a 
        requirement for most Department scientists, managers, and 
        leadership, with a special emphasis on understanding the Code 
        of Scientific and Scholarly Conduct, as specified in the 
        policy. The training is periodically updated with input from 
        all of the BSIOs. The training emphasizes how to report an 
        allegation of a violation of the Department's scientific 
        integrity policy and describes protections available from 
        offices outside the scientific integrity program (through the 
        Office of Special Counsel, Office of the Inspector General, 
        Merit Systems Protection Board, and others) to those who make 
        an allegation of a loss of scientific integrity.
4. Continuing Improvement

        Our infrastructure is not static, and we strive to improve and 
        maintain a culture of integrity. In addition to updates to the 
        policy and the creation of a Handbook in 2014 to better 
        implement our policy, now, in response to a recommendation from 
        the 2019 GAO Report, USGS is advancing efforts to measure the 
        effectiveness of its scientific integrity activities. USGS is 
        also responsive to findings of misconduct. As a result of a 
        misconduct finding at the USGS, the bureau is implementing a 
        quality management system (QMS) for all of its laboratories.\5\ 
        The QMS system will ensure laboratory data uphold the bureau's 
        scientific reputation, underscoring its mandate to provide 
        reliable science to address pressing societal issues now and 
        well into the future.
---------------------------------------------------------------------------
    \5\ https: / / www.usgs.gov / about / organization / science-
support / survey-manual / im-osqi-2018-01-quality-management-system-
usgs.

    In addition to appointing a senior career Science Advisor and 
issuance of Secretary Order 3369, the Department is also undertaking 
---------------------------------------------------------------------------
other activities related to scientific integrity:

    <bullet> In April 2019, the Office of Management and Budget issued 
            additional guidance for agency responsibilities under the 
            Information Quality Act, emphasizing quality, objectivity, 
            utility and integrity of information disseminated by 
            federal agencies; the Department is in the process of 
            implementing these changes.

    <bullet> The Office of Science and Technology Policy (OSTP) 
            announced in May 2019 that the National Science and 
            Technology Council will establish a Subcommittee on Rigor 
            and Integrity in Research to address scientific integrity 
            and other issues; the Department of the Interior is 
            actively engaged with interagency partners on this effort.

Conclusion
    The Department of the Interior has a rich and long-standing culture 
of scientific integrity that prevails independent of individual 
Administrations. Scientific integrity is a serious matter, and the 
Department has worked hard to ensure that the scientific activities 
that it carries out are the result of robust and independent processes.

                                 ______
                                 

I'm a scientist. I'm blowing the whistle on the Trump administration.

By Joel Clement

July 19, 2017

Washington Post OpEd

Joel Clement was director of the Office of Policy Analysis at the U.S. 
Interior Department until last week. He is now a senior adviser at the 
department's Office of Natural Resources Revenue.

I am not a member of the deep state. I am not big government.

I am a scientist, a policy expert, a civil servant and a worried 
citizen. Reluctantly, as of today, I am also a whistleblower on an 
administration that chooses silence over science.

Nearly seven years ago, I came to work for the Interior Department, 
where, among other things, I've helped endangered communities in Alaska 
prepare for and adapt to a changing climate. But on June 15, I was one 
of about 50 senior department employees who received letters informing 
us of involuntary reassignments. Citing a need to ``improve talent 
development, mission delivery and collaboration,'' the letter informed 
me that I was reassigned to an unrelated job in the accounting office 
that collects royalty checks from fossil fuel companies.

I am not an accountant--but you don't have to be one to see that the 
administration's excuse for a reassignment such as mine doesn't add up. 
A few days after my reassignment, Interior Secretary Ryan Zinke 
testified before Congress that the department would use reassignments 
as part of its effort to eliminate employees; the only reasonable 
inference from that testimony is that he expects people to quit in 
response to undesirable transfers. Some of my colleagues are being 
relocated across the country, at taxpayer expense, to serve in equally 
ill-fitting jobs.

I believe I was retaliated against for speaking out publicly about the 
dangers that climate change poses to Alaska Native communities. During 
the months preceding my reassignment, I raised the issue with White 
House officials, senior Interior officials and the international 
community, most recently at a U.N. conference in June. It is clear to 
me that the administration was so uncomfortable with this work, and my 
disclosures, that I was reassigned with the intent to coerce me into 
leaving the federal government.

On Wednesday, I filed two forms--a complaint and a disclosure of 
information--with the U.S. Office of Special Counsel. I filed the 
disclosure because eliminating my role coordinating federal engagement 
and leaving my former position empty exacerbate the already significant 
threat to the health and the safety of certain Alaska Native 
communities. I filed the complaint because the Trump administration 
clearly retaliated against me for raising awareness of this danger. Our 
country values the safety of our citizens, and federal employees who 
disclose threats to health and safety are protected from reprisal by 
the Whistleblower Protection Act and Whistleblower Protection 
Enhancement Act.

Removing a civil servant from his area of expertise and putting him in 
a job where he's not needed and his experience is not relevant is a 
colossal waste of taxpayer dollars. Much more distressing, though, is 
what this charade means for American livelihoods. The Alaska Native 
villages of Kivalina, Shishmaref and Shaktoolik are perilously close to 
melting into the Arctic Ocean. In a region that is warming twice as 
fast as the rest of the planet, the land upon which citizens' homes and 
schools stand is newly vulnerable to storms, floods and waves. As 
permafrost melts and protective sea ice recedes, these Alaska Native 
villages are one superstorm from being washed away, displacing hundreds 
of Americans and potentially costing lives. The members of these 
communities could soon become refugees in their own country.

Alaska's elected officials know climate change presents a real risk to 
these communities. Gov. Bill Walker (I) and Sen. Lisa Murkowski (R) 
have been sounding the alarm and scrambling for resources to help these 
villages. But to stave off a life-threatening situation, Alaska needs 
the help of a fully engaged federal government. Washington cannot turn 
its back.

While I have given small amounts to Democratic candidates in the past, 
I have no problem whatsoever working for a Republican administration. I 
believe that every president, regardless of party, has the right and 
responsibility to implement his policies. But that is not what is 
happening here. Putting citizens in harm's way isn't the president's 
right. Silencing civil servants, stifling science, squandering taxpayer 
money and spurning communities in the face of imminent danger have 
never made America great.

Now that I have filed with the Office of Special Counsel, it is my hope 
that it will do a thorough investigation into the Interior Department's 
actions. Our country protects those who seek to inform others about 
dangers to American lives. The threat to these Alaska Native 
communities is not theoretical. This is not a policy debate. 
Retaliation against me for those disclosures is unlawful.

Let's be honest: The Trump administration didn't think my years of 
science and policy experience were better suited to accounts 
receivable. It sidelined me in the hope that I would be quiet or quit. 
Born and raised in Maine, I was taught to work hard and speak truth to 
power.

Trump and Zinke might kick me out of my office, but they can't keep me 
from speaking out. They might refuse to respond to the reality of 
climate change, but their abuse of power cannot go unanswered.

This OpEd can be found at: https://www.washingtonpost.com/opinions/im-
a-scientist-the-trump-administration-reassigned-me-for-speaking-up-
about-climate-change/2017/07/19/389b8dce-6b12-11e7-9c15-
177740635e83_story.html?utm_term=.3c2e0a7b2342.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submissions for the Record by Dr. Rosenberg

  --  CDC Science Under Trump Fact Sheet from the Union of 
            Concerned Scientists dated August 2018

  --  Energy Agencies Science Under Trump Fact Sheet from the 
            Union of Concerned Scientists dated August 2018

  --  EPA Science Under Trump Fact Sheet from the Union of 
            Concerned Scientists dated August 2018

  --  FDA Science Under Trump Fact Sheet from the Union of 
            Concerned Scientists dated August 2018

  --  FWS Science Under Trump Fact Sheet from the Union of 
            Concerned Scientists dated August 2018

  --  NOAA Science Under Trump Fact Sheet from the Union of 
            Concerned Scientists dated August 2018

  --  NPS Science Under Trump Fact Sheet from the Union of 
            Concerned Scientists dated August 2018

  --  USDA Science Under Trump Fact Sheet from the Union of 
            Concerned Scientists dated August 2018

  --  USGS Science Under Trump Fact Sheet from the Union of 
            Concerned Scientists dated August 2018.

  --  Letter from the Union of Concerned Scientists to EPA 
            dated August 16, 2018

                                 [all]
</pre></body></html>
